APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[January 7, 2020]
————
No. 18-11192
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY
GROUP, LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually
and as the Independent Executrix of the
Estate of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees,
versus
CATIC USA INCORPORATED, also known as
AVIC International USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY
GENERAL AIRCRAFT COMPANY LIMITED,
Defendants-Appellants.
————
Appeals from the United States District Court
for the Northern District of Texas
————
Before DAVIS, SMITH, and COSTA, Circuit Judges.
JERRY E. SMITH, Circuit Judge:

2a
Catic USA, a California corporation with Chinese
corporate parentage, appeals the confirmation of an
adverse arbitral award. Having determined that this
court has jurisdiction, we affirm: The arbitration panel
was fairly constituted and did not exceed its authority.
1

I.
A dispute among members of Soaring Wind Energy,
LLC (sometimes called “the LLC”), was submitted to
an arbitration panel, which awarded the LLC $62.9
million against Catic USA (and its AVIC-group
affiliates) and ordered that Catic USA be divested of
its shares in the LLC without compensation. A judgment of the district court confirmed that award. Catic
USA, joined by its various Chinese affiliates, appeals.
The origins of Soaring Wind Energy trace to 2007,
when representatives of Tang Energy Group (“Tang
Energy”) and Catic USA began talks of creating a vehicle for wind-energy marketing and project development. They confirmed those talks in a Memorandum
of Understanding, which the Soaring Wind Agreement
(the “Agreement”) superseded.
The Agreement created the LLC, whose “business”
would be “to provide worldwide marketing of wind
energy equipment, services and materials related to
wind energy, including, but not limited to, marketing
wind turbine generator blades and wind turbine generators and developing wind farms.” Each member
agreed to “conduct activities constituting the Business
[only] in and through [Soaring Wind] and its Controlled subsidiaries.” Class A members agreed that
such prohibition extended to their affiliates.

1

Catic USA is also known as AVIC International USA.

3a
The Agreement also outlined a procedure for
resolving disputes. Under its terms, “any controversy,
dispute, or claim arising under or related to [the
Agreement],” after failed attempts at negotiation,
“shall be submitted to binding arbitration.” Each
“Disputing Member”—defined as “each Member that
is a party to [the] Dispute”—would then have the
opportunity to name its own arbitrator. Those selected
as arbitrators would themselves choose an additional
arbitrator (or two additional arbitrators if necessary to
achieve an odd number). The panel would have the
authority “to grant injunctive relief and enforce
specific performance” and to issue a final, courtenforceable decision, though it would lack “authority
to award special, exemplary, punitive or consequential
damages.”
After years without Catic USA’s providing Soaring
Wind any financial support, a representative from
Tang Energy requested that one of Catic USA’s
Chinese AVIC-group affiliates2 help fund Soaring
Wind. An AVIC representative responded that “AVIC
International has already provided a total of 50
million USD in financing to wind power projects in the
US and will keep[] trying in the future.” Paul
Thompson—himself a Class B member of Soaring
Wind—served as president and CEO of one such
affiliate,3 through which the AVIC group appeared to

2

Two years after Catic USA signed the Agreement, its parent
company formed AVIC International Renewable Energy Corporation (“AVIC IRE”) as a majority-owned subsidiary. AVIC IRE’s
stated purpose, like Soaring Wind’s, included developing wind
power projects.
3

Thompson ran Ascendant Renewable Energy Corporation
(“Ascendant”), which itself funded at least one major wind farm

4a
have invested millions of dollars in wind power project
development.4
Tang Energy subsequently demanded arbitration
against Catic USA, Thompson, and Catic USA’s nonsignatory corporate affiliates. Among other things,
Tang claimed that Catic USA had breached the
Agreement through the actions of its Chinese corporate affiliates. Tang named its arbitrator in its
demand, and the four remaining Class A members5
joined Tang in the dispute and, accordingly, named
their respective arbitrators. Catic USA and Thompson
answered Tang’s demand and named their own
arbitrators, but Catic USA’s non-signatory Chinese
affiliates refused to participate in the arbitration. As
the Agreement required, the seven selected
arbitrators then collectively appointed two more.
Catic USA and Thompson preemptively sued the
claimants in federal court, seeking a declaratory judgment that the panel was improperly constituted.6
Specifically, they claimed both that fundamental
fairness and the Agreement required each side of the
dispute to select an arbitrator, who would then select
project to completion between 2011 and 2012. Ascendant was
formed as a wholly owned subsidiary of AVIC IRE.
4

The arbitration panel found that AVIC IRE or its subsidiaries had developed at least five wind turbine projects in the United
States, with additional projects located abroad.
5

Appellees Young, Carter, Jan Family Interests, and the
Nolan Group.
6

One of Catic USA’s non-signatory affiliates also preemptively
sued the claimants, successfully obtaining a judgment declaring
that its “party status to the arbitration [could] only be determined
by a court, and not an arbitrator . . . .” Ascendant Renewable
Energy Corp. v. Tang Energy Grp., Ltd., No. 3:14-CV-3314-K,
2015 U.S. Dist. LEXIS 103518, at *8 (N.D. Tex. Aug. 4, 2015).

5a
a third and final arbitrator. The district court dismissed those claims for lack of subject matter jurisdiction under the FAA.7 Catic USA and Thompson made
similar arguments before the arbitration panel, which
determined for itself that it was constituted according
to the Agreement’s unambiguous terms.
After a five-day hearing, the arbitration panel
issued its final award in favor of the claimants. The
panel determined that “Catic USA breached the
[Soaring Wind] Agreement by its Affiliates engaging
in the ‘Business’ of [Soaring Wind Energy].” It further
found that the AVIC group, including Catic USA,
“operate[d] as one entity” and that “AVIC HQ and its
wholly owned subsidiaries created additional subsidiaries in an attempt to get around its promises made
in the [Soaring Wind] Agreement to Claimants.” The
panel concluded that Catic USA and its non-signatory
Chinese affiliates should be held “jointly and severally
liable to [Soaring Wind] in the amount of $62.9 USD
million” in lost profits owed to the LLC.8
The arbitration panel noted that “[t]he lost profits
set forth in [its] award are due to [Soaring Wind
Energy] for distribution to the Claimants through
their percentages set forth in the [Soaring Wind]
Agreement.” The panel did not, however, stop at
ordering that Catic USA pay the monetary damages:
“[I]n order to prevent [Catic] USA and Thompson from
7

AVIC Int’l USA, Inc. v. Tang Energy Grp., Ltd., No. 3:14-CV2815-K, 2015 U.S. Dist. LEXIS 13968 (N.D. Tex. Feb. 5, 2015),
aff’d, 614 F. App’x 218 (5th Cir. 2015) (per curiam).
8

The panel arrived at that amount by accepting AVIC IRE’s
vice president’s admission that the AVIC group had invested $50
million in wind power projects in the United States. At an
anticipated 15% rate of return, the discounted present value of
the $50 million investment was $62.9 million.

6a
profiting from their breaches of the [ ] Agreement,” the
panel wrote, “they should be prohibited from receiving
any profit from any award to [Soaring Wind].” Thus,
in addition to the $62.9 million damages, the panel
ordered that “[Catic] USA and Thompson’s equity
interest in [Soaring Wind] should be divested . . . .”9
The claimants sought judicial confirmation of the
arbitral award against Catic USA and its Chinese
affiliates. At the claimants’ request, the district court
bifurcated the proceedings, staying the case against
the Chinese entities.10 The court then confirmed the
award in its entirety against Catic USA. Catic USA
and its Chinese affiliates appeal.
II.
“[C]ourts, including this Court, have an independent
obligation to determine whether subject-matter
jurisdiction exists . . . .” Arbaugh v. Y&H Corp., 546
U.S. 500, 514 (2006). Accordingly, we requested nostra
sponte that the parties address federal subject-matter
jurisdiction under either complete diversity or the
New York Convention (“NY Convention”).11
The parties vainly try to taint each other’s
assertions with those made in the district court. Catic
USA notes that “diversity jurisdiction,” not jurisdiction under the NY Convention, “is the only basis for
jurisdiction” that the plaintiffs had invoked. Similarly,
9

The panel allowed Catic USA a $350,000 credit for its initial
capital contribution to Soaring Wind.
10

That case, relating most importantly to the Chinese entities’
joint and several liability for Catic USA’s damages, remains
stayed pending the resolution of this appeal.
11

“The Convention on the Recognition and Enforcement of
Foreign Arbitral Awards,” 9 U.S.C. §§ 201 et seq.

7a
the plaintiffs highlight that, although Catic USA
contends that jurisdiction is lacking on appeal, it
invoked the NY Convention when seeking declaratory
judgment before arbitration. Those points are irrelevant, as “[i]t is well settled . . . that the subject matter
jurisdiction of a federal court can be challenged at any
stage of the litigation (including for the first time on
appeal), even by the party who first invoked it.”
Randall & Blake, Inc. v. Evans (In re Canion), 196
F.3d 579, 585 (5th Cir. 1999).
Attempting to sidestep that maxim, the plaintiffs
characterize jurisdiction under the NY Convention—
here, whether a legal relationship bears a “reasonable
relation” to a foreign state—as a “jurisdictional fact”
capable of party admission. But what should amount
to a “reasonable relation” under 9 U.S.C. § 202 is
patently a question of law, not of fact. Catic USA could
certainly admit facts—such as the existence of its
Chinese affiliates or of projects Soaring Wind contemplated abroad—and those binding facts might be
decisive in a jurisdictional inquiry. See State Farm
Fire & Cas. Co. v. Flowers, 854 F.3d 842, 845 (5th Cir.
2017). A party is not, however, bound by its previous
legal arguments as to jurisdiction. See Canion, 196
F.3d at 585.
The district court did not address whether there is
complete diversity, but it appears to have assumed,
without explanation, the applicability of the NY Convention. We examine de novo the presence of federal
subject-matter jurisdiction, Pershing, LLC v. Kiebach,
819 F.3d 179, 181 (5th Cir. 2016), keeping in mind that
its absence would require dismissal, Arbaugh, 546
U.S. at 506.

8a
A.
For the district court to have diversity jurisdiction
under 28 U.S.C. § 1332, “all persons on one side of the
controversy [must] be citizens of different states than
all persons on the other side” at the time the complaint
was filed. Harvey v. Grey Wolf Drilling Co., 542 F.3d
1077, 1079 (5th Cir. 2008). Catic USA is a California
corporation. It is undisputed that, as of the initiation
of the arbitration, Catic USA was a member of Soaring
Wind, LLC, and because, for diversity jurisdictional
purposes, “the citizenship of a LLC is determined by
the citizenship of all of its members,” id. at 1080,
Soaring Wind was at least at that point a citizen of
California.
The arbitration panel purported to divest Catic USA
of its membership interest in Soaring Wind. The
question is whether that decision alone—absent subsequent judicial confirmation—effected Catic USA’s
termination from Soaring Wind and, consequently,
Soaring Wind’s loss of California citizenship. If not,
this court would lack diversity jurisdiction.
Catic USA contends that diversity jurisdiction is
lacking because the arbitral award divesting it of its
membership in Soaring Wind had no legal effect
pending court confirmation. The plaintiffs respond
that, under the freedom of contract recognized under
Delaware law, the Agreement must be interpreted as
granting the arbitration panel “final, binding” authority to terminate Catic USA’s membership in the LLC.
Plaintiffs’ focus on Delaware’s freedom of contract
misses the point. The question is not whether the
Agreement granted the arbitration panel authority to
issue an award divesting Catic USA of membership.
Even assuming the panel did have such authority, it

9a
is an entirely separate question whether the panel’s
decision had immediate legal effect.
It did not. It is well settled that, absent voluntary
compliance, an arbitral award requires judicial confirmation to effect a change in legal status.12 Plaintiffs’
attempt to characterize the “final, binding” authority
of the panel as including coercive legal authority is
unpersuasive. Such commonly used terms “merely
reflect a contractual intent that the issues joined and
resolved in the arbitration may not be tried de novo in
any court.” M & C Corp. v. Erwin Behr GmbH & Co.,
87 F.3d 844, 847 (6th Cir. 1996). They do not grant
arbitrators “the coercive power to enforce the award”
without being first “transformed into a judgment,
which can be executed with the enforcement mechanism of the state.” Schlumberger, 195 F.3d at 220.
That an arbitral award be “final” does not obviate the
need for judicial confirmation; it only allows for such
confirmation.13
Granted, parties may contract to change membership in an LLC without court approval. It is entirely
different, however, when parties seek an involuntary
termination of membership. Plaintiffs acknowledge
that “a judgment would be needed, for example, to
enforce a damages award by levying the judgment
12

Schlumberger Tech. Corp. v. United States, 195 F.3d 216,
220 (5th Cir. 1999); see also Mulhall v. UNITE HERE Local 355,
618 F.3d 1279, 1293 (11th Cir. 2010); D.H. Blair & Co. v.
Gottdiener, 462 F.3d 95, 104 (2d Cir. 2006); Suter v. Munich
Reins. Co., 223 F.3d 150, 156 (3d Cir. 2000); Camping Constr. Co.
v. Dist. Council of Iron Workers, 915 F.2d 1333, 1347–48 (9th Cir.
1990).
13

See Grissom v. Nationwide Mut. Ins. Co., 599 A.2d 1086,
1090 (Del. Ch. 1991) (“The general rule is that an Arbitration
Award may be confirmed only if it is a final decision.”).

10a
debtor’s assets.” But equity interest in an LLC is also
an asset, an involuntary transfer of which no arbitrator may effect without judicial confirmation.
The plaintiffs are correct that the Agreement does
not mandate judicial review of arbitration awards.
Indeed, it specifies that an arbitral award “may be
filed in any court of competent jurisdiction and may be
enforced by any Disputing Member as a final judgment of such court.” But the “optional” nature of
judicial review here does not mean, as plaintiffs
contend, that the arbitral award has inherent legal
effect. Instead, judicial confirmation would be unnecessary (or “optional”) should all parties voluntarily
acquiesce to the award. Catic USA has not done so,
which is precisely why plaintiffs seek judicial confirmation.
B.
Even without diversity of citizenship, this court
would have jurisdiction should this case relate to an
arbitration agreement or award “falling under” the NY
Convention.14 It is undisputed that the action to
confirm the award “relates to” the award; the question
is whether that award “falls under” the Convention.
An “arbitral award arising out of a legal relationship”
between U.S. citizens falls under the Convention if
that “relationship involves property located abroad,
envisages performance or enforcement abroad, or has
some other reasonable relation with one or more
foreign states.”15
14

9 U.S.C. § 203; see also Stemcor USA Inc. v. CIA Siderurgica
do Para Cosipar, 927 F.3d 906, 909 (5th Cir. 2019) (on pet. for
reh’g).
15

9 U.S.C. § 202; see also Freudensprung v. Offshore Tech.
Servs., Inc., 379 F.3d 327, 339–40 (5th Cir. 2004).

11a
Catic USA contends that the Agreement does not
involve property abroad and does not reasonably
relate to a foreign state. Catic USA suggests that this
court remand with instruction to determine whether
its non-signatory Chinese corporate affiliates were
party to the Agreement and whether the agreement
contemplated performance abroad. If the answer to
both questions be no, then there would be no subject
matter jurisdiction.
The plaintiffs respond that the Agreement has a
reasonable relation to China. They note that Catic
USA is a subsidiary of AVIC IHC, which is itself a
subsidiary of AVIC HQ—a state-owned enterprise of
the People’s Republic of China. They further note the
arbitrators’ finding that “AVIC HQ exercised such
complete control” over Catic USA so that the two
companies “operate[d] as one entity,” and “[w]hen
[Catic] USA signed the [Soaring Wind] Agreement, it
was doing so on orders from AVIC HQ.” According to
the plaintiffs, “the Chinese entities’—and Chinese
state’s—involvement pervaded the parties’ relationship,” conferring jurisdiction under the Convention.
There is no question that the relationship among the
parties broadly relates to China. Tang Energy had
partnered with AVIC HQ16 on projects within Chinese
territory from 1997 through the mid-2000s. The success of those projects inspired them to create Soaring
Wind, conceived as a partnership between Tang and
AVIC HQ’s U.S. subsidiary. The pre-Agreement Memorandum of Understanding envisioned that 9.5% of
Soaring Wind’s equity would be owned by AVIC HQ,
whose “offices and employees in China [would] be
16

At the time, the Chinese umbrella AVIC organization was
known as “Catic.”

12a
available for support as needed.”17 An AVIC HQ vice
president—who held no position in Catic USA—signed
that Memorandum on Catic USA’s behalf. Following
the creation of Soaring Wind, Tang contracted separately with one of Catic USA’s Chinese affiliates to
obtain $300 million in financing for wind power project
development. Plaintiffs are thus correct in stating that
“[a]lthough only United States citizens signed the
Soaring Wind Agreement, the parties’ relationship
both (i) involved Chinese citizens, including arms of
the Chinese government, and (ii) had a reasonable
relation to China.”
The statute, however, concerns not the “parties’
relationship” but the “legal relationship” whence the
arbitral award arose. 9 U.S.C. § 202. That legal relationship is the Agreement, which plaintiffs accuse
Catic USA of violating and which provided the basis
for the underlying arbitration. We look, therefore, not
to the general relationship among the parties but to
the foreign character, if any, of the Agreement itself.
It is not dispositive that Catic USA, as signatory to
the Agreement, is a subsidiary of a Chinese corporate
umbrella. Congress has not granted federal jurisdiction whensoever there exist a legal relationship bearing any reasonable relation with a foreign state; more
precisely, it has specified there be “some other reasonable relation” with a foreign state. Id. (emphasis added).
The “reasonable relation” is thus limited18; it must be
17

The eventual Agreement differed from the Memorandum of
Understanding by not mentioning Catic International and by
increasing Catic USA’s profit interest.
18

“[W]here general words follow specific words in an enumeration . . . the general words are construed to embrace only objects
similar in nature to those objects enumerated by the preceding
words.” William N. Eskridge, Jr., INTERPRETING LAW 77 (2016)

13a
akin to “involv[ing] property located abroad” or
“envisag[ing] performance or enforcement abroad”—
that is, the relationship must contemplate overseas
action or involvement. See id.; see also Yates v. United
States, 135 S. Ct. 1074, 1086–87 (2015) (plurality
opinion) (discussing the textual canon of ejusdem
generis). It might be enough if an agreement “call[] . . .
for meetings to be held in” a foreign country or if
it should “contain a list of mandatory [foreign]
vendors . . . .”19 It is not enough, however, that one
party, though a U.S. citizen, should happen to bear
foreign corporate parentage.20
The Agreement makes explicit reference neither to
China nor to any Chinese citizen, nor even to any
foreign place or entity.21 Aside from a generic, stated
purpose “to provide worldwide marketing” in wind
energy, the Agreement appears to evince a domestic
character: It creates a Delaware company, comprised
entirely of U.S. citizen-members, with a principal
(quoting 2A SUTHERLAND STATUTES
TION § 47:17 (7th ed. 2015)).

AND

STATUTORY CONSTRUC-

19

Outokumpu Stainless USA LLC v. Converteam SAS, No. 1600378-KD-C, 2017 U.S. Dist. LEXIS 11995, at *16 (S.D. Ala. Jan.
30, 2017), aff’d in relevant part, 902 F.3d 1316 (11th Cir. 2018),
cert. granted, 139 S. Ct. 2776 (2019).
20

See Access Info. Mgmt. of Haw., LLC v. Shred-It Am., Inc.,
No. 10-00622, 2010 U.S. Dist. LEXIS 116862, at *17 (D. Haw.
Nov. 2, 2010) (“[I]t is irrelevant to the inquiry that [the defendant] is a wholly-owned subsidiary of a [foreign] corporation . . . .”);
Williams v. Deutsche Bank AG, No. 3:05-CV-1395-N, 2006 U.S.
Dist. LEXIS 75426, at *13 (N.D. Tex. Feb. 9, 2006) (“[T]hat a
domestic signatory of the agreement is a subsidiary of a foreign
corporation . . . does not give the arbitration agreement a
‘reasonable relation’ with a foreign state.”).
21

The contract’s “Definitions” section specifies that “CATIC”
refers to “CATIC (USA), a California corporation.”

14a
place of business in Texas. As per the Agreement, the
underlying arbitration proceeded in Texas, under
Delaware substantive law. In short, it would appear
on its face that the Agreement bears no relation to
China (or any other foreign state).
Our analysis of the Agreement’s relation to a foreign
state does not, however, end at the four corners of the
contract.22 The Agreement specifies that a member
would be in breach should its “[a]ffiliate[] . . . participate in wind farm land development projects . . . except
through an entity owned by both [Soaring Wind
Energy] and CATIC . . . .” Such “affiliates” of Catic
USA include a variety of Chinese entities, a fact of
which the contracting parties were well aware. A
Chinese entity’s actions on foreign soil could (and did)
trigger breach for one of the LLC’s (domestic) members. Moreover, the arbitral award holds those Chinese
affiliates jointly and severally liable for damages to
the claimants. Such factors are enough for the Agreement to bear a relation to China sufficient for federal
jurisdiction under the NY Convention.
III.
“We review a district court’s order confirming an
arbitration award de novo [and] may affirm the
district court’s decision on any basis presented to the
district court and argued in the district court.” LightAge, Inc. v. Ashcroft-Smith, 922 F.3d 320, 322 (5th Cir.
2009) (per curiam). Despite that, “our review of the
22

See, e.g., ChampionsWorld, LLC v. U.S. Soccer Fed’n, Inc.,
890 F. Supp. 2d 912, 927 (N.D. Ill. 2012) (looking to the foreign
“nature” of the business); Nomanbhoy v. Vahanvaty, No. 11-C2456, 2011 U.S. Dist. LEXIS 147033, at *25–26 (N.D. Ill. Dec. 21,
2011) (evaluating extracontractual testimony to determine
whether the parties envisaged performance abroad).

15a
arbitrator’s award itself . . . is very deferential.”
Timegate Studios, Inc. v. Southpeak Interactive, LLC,
713 F.3d 797, 802 (5th Cir. 2013). Indeed, this court
may vacate the award only if “the arbitrators exceeded
their powers”23 by acting “contrary to express contractual provisions”24 or if the award otherwise violates the
NY Convention.25 Even then, appellants face a heavy
burden, as “[a] reviewing court examining whether
arbitrators exceeded their powers must resolve all
doubts in favor of arbitration.” Rain CII Carbon, LLC
v. ConocoPhillips Co., 674 F.3d 469, 472 (5th Cir.
2012).
Seeking to vacate the award, Catic USA and its
Chinese affiliates advance three theories: (1) The
district court erred by confirming the award without
first reviewing the arbitrators’ power over Catic USA’s
Chinese affiliates; (2) the arbitration panel was
improperly constituted; and (3) the award includes
speculative or punitive damages rendering it unenforceable.
A.
Catic USA suggests that the district court could not
have confirmed the arbitral award without first determining that the company’s Chinese affiliates were
subject to arbitration. It notes that the arbitration
panel first found the affiliates to be subject to arbitration, then drew an adverse inference from their refusal
to participate. Without that inference, Catic USA

23

9 U.S.C. § 10(a)(4).

24

Beaird Indus., Inc. v. Local 2297, Int’l Union, 404 F.3d 942,
946 (5th Cir. 2005).
25

See 9 U.S.C. § 207.

16a
contends, the arbitrators had no basis for finding
breach.
The panel’s inference that one or more of Catic
USA’s affiliates financed a wind power development
project in violation of the Agreement was based on
more than the affiliates’ non-participation in the arbitration. First, the panel had access to AVIC IRE Vice
President Xu Hang’s e-mail that “AVIC International
[had] already provided a total of $50 million USD in
financing to wind power projects in the US,” none of
which had flowed to Soaring Wind. Second, the AVIC
Group’s press releases and online publications referenced ongoing (non-Soaring Wind) wind-power development projects. Catic USA failed to provide any
meaningful rebuttal to such evidence.
Catic USA made its proverbial bed; therein it must
lie. The company signed an agreement specifying that
the actions of its affiliates could constitute its own
breach. Whether Catic USA’s non-signatory affiliates
themselves be subject to the arbitration is irrelevant:
Catic USA “assum[ed] the obligation of its affiliates’
performance.”26 The arbitration panel reasonably
found that a breach had occurred; given the deference
owed to the panel,27 we decline to disturb that finding.

26

Xtria LLC v. Tracking Sys., Inc., No. 3:07-CV-0160-D, 2007
U.S. Dist. LEXIS 68997, at *10 (N.D. Tex. Sept. 18, 2007).
27

Catic USA attempts to frame the issue as akin to whether
its Chinese affiliates were subject to the Agreement, a question
undisputedly outside the traditional deference given to arbitrators. See Bridas S.A.P.I.C. v. Gov’t of Turkm., 345 F.3d 347, 354
(5th Cir. 2003). But the answer to that question is immaterial to
the issue at hand, which is whether conduct occurred triggering
Catic USA’s breach. That “is a question of fact,” Tex. Capital
Bank N.A. v. Dall. Roadster, Ltd. (In re Dall. Roadster, Ltd.), 846

17a
B.
Catic USA claims that the panel was improperly
constituted. It notes that one side (the plaintiffs)
appointed five arbitrators, the other side (Catic USA
and Thompson) only two. That method of selection was
against the terms of the contract, which, according to
Catic USA, required an equal number of appointed
arbitrators per side. Because the panel was improperly selected, Catic USA contends, this court owes no
deference to its award.
In addition, Catic USA’s Chinese affiliates contend
that—even assuming the Agreement’s process of
appointing arbitrators were followed—the result
nevertheless violated the NY Convention’s due process
and public policy requirements. They aver that it was
fundamentally unfair (and therefore invalid under the
Convention) for one side to appoint more than twice as
many arbitrators as the other. As this court must
observe “the [Convention’s] grounds for refusal . . . of
recognition or enforcement of the award,” 9 U.S.C.
§ 207, the Chinese companies suggest we set the
award aside.
1.
The Federal Arbitration Act requires that “[i]f in the
agreement provision be made for a method of naming
or appointing an arbitrator or arbitrators or an
umpire, such method shall be followed . . . .” Id. § 5.
Arbitrators appointed contrary to the contract necessarily “exceed[] their powers,” id. § 10(a)(4), and, in
such a case, “judicial deference is at an end,” PoolRe
Ins. Corp. v. Org. Strategies, Inc., 783 F.3d 256, 262
F.3d 112, 127 (5th Cir. 2017), the resolution of which we generally
leave to the arbitrators.

18a
(5th Cir. 2015). Catic USA is thus correct that, should
the selection of the arbitration panel fundamentally
“depart[] from the contractual selection process,”
vacatur would be the appropriate remedy. Id. at 263.
There was no such departure. Catic USA notes “that
there were only two sides in this dispute,” but the
Agreement contemplates the number of parties, not
the number of sides. The Agreement lists seven total,
signatory “Members.”28 For a dispute under the Agreement, “each Member that is a party to such Dispute is
. . . a ‘Disputing Member.’” And each Disputing Member would have the opportunity to “name an Arbitrator
(or otherwise agree in writing to the Arbitrator(s)
therefore chosen as its designated arbitrator).” This
case involves two sides, but, more importantly, it
features seven members; suppose Eris had tossed the
Apple of Discord into a Soaring Wind conference room,
prompting a free-for-all among the parties—the arbiter selection process would have remained the same.
This court already noted that “AVIC [was] asking us
to rewrite their agreement’s arbitration provision to
require that every arbitration among these multiple
parties comprise only two ‘sides’ . . . [and] precisely
three arbitrators . . . .” AVIC Int’l, 614 F. App’x at 219.
Catic USA has since clarified that its proffered reading
allows for more than two “sides” to a dispute (and more
than three arbitrators) but nevertheless requires each
“side” have equal say in arbitrator selection. But as
stated above, the Agreement contemplates the number
of parties, not the number of sides. Given that Catic
USA does not (and cannot) seriously question that
28

CATIC (USA), also known as AVIC USA; Tang Energy
Group, Ltd.; Keith P. Young; Mitchell W. Carter; Jan Family
Interests, Ltd.; The Nolan Group, Inc.; Paul E. Thompson.

19a
each Claimant is “a party to [the] Dispute,” it cannot
escape the conclusion that the Agreement’s written
procedure was followed.
Catic USA would therefore have us hold that
following the text of the Agreement in this case leads
to “absurd results.” Under the Agreement, Catic USA
posits, “ten minority shareholders . . . could unite
together to eject a majority shareholder that controls
90% of the LLC from membership . . . [by] appointing
ten of the eleven arbitrators to rubber-stamp its coup.”
As in this case, Catic USA submits, “the formation of
a stacked, unfair arbitration panel is an absurd result
to which no reasonable party would ever agree.”
But the risk of such an occurrence is precisely within
the plain terms to which Catic USA agreed. Catic USA
urges this court not to choose from among competing,
reasonable interpretations but to discard the plain
text of the Agreement out of so-called fairness. “It is
not the court’s role to rewrite the contract between
sophisticated market participants, allocating the risk
of an agreement after the fact, to suit the court’s sense
of equity or fairness.”29 One must assume that Catic
USA did not expect to be outnumbered in any dispute
falling under the Agreement; that its expectations
were frustrated does not render the Agreement absurd
or unfair.
2.
Federal courts are to enforce the NY Convention.30
Its Article V(1)(b) provides that a court may refuse to
29

Wal-Mart Stores, Inc. v. AIG Life Ins. Co., 872 A.2d 611, 624
(Del. Ch. 2005), rev’d in part on other grounds, 901 A.2d 106 (Del.
2006).
30

9 U.S.C. § 201; see also Recognition and Enforcement of
Foreign Arbitral Awards, Dec. 29, 1970, 21 U.S.T. 2517.

20a
recognize or enforce an award where “[t]he party
against whom the award is invoked was not given
proper notice of the appointment of the arbitrator or of
the arbitration proceedings or was otherwise unable to
present his case . . . .” This court has construed that
passage as “essentially sanction[ing] the application of
the forum state’s standards of due process, in this case,
United States standards of due process.” Karaha
Bodas Co. v. Perusahaan Pertambangan Minyak Dan
Gas Bumi Negara, 364 F.3d 274, 298 (5th Cir. 2004)
(quotation marks omitted). The hearing must “meet[]
the minimal requirements of fairness—adequate
notice, a hearing on the evidence, and an impartial
decision by the arbitrator” once the parties have had
“an opportunity to be heard at a meaningful time and
in a meaningful manner.” Id. at 299 (quotation marks
omitted).
Catic USA’s Chinese affiliates claim that the
arbitration proceedings violated due process, reasoning that because the two sides appointed an unequal
number of arbitrators, the panel’s decision could not
have been impartial. That contention, when taken to
its logical conclusion, would require this court to
invalidate any arbitral award not issued by an evenly
appointed panel.
We reject that notion. The Agreement was not a
contract of adhesion but a bespoke deal made between
extremely sophisticated parties. The Agreement did
not inherently favor one party or another; it just so
happened that Catic USA was outnumbered. The
agreed-upon selection process was followed to the
letter: Catic USA and Thompson selected the arbitrators and received the process they were due.

21a
C.
Catic USA contends that, even assuming the panel
was properly constituted, the award is improper.
Specifically, Catic USA claims that the panel exceeded
its authority by awarding speculative and punitive
damages in violation of the Agreement’s written
terms. Catic USA notes that the Agreement expressly
foreclosed any liability among members or affiliates
for “exemplary, punitive, special, indirect, consequential, remote, or speculative damages,” and the Agreement denied any arbitrator the power to award such
damages. Catic USA contends (1) that the panel’s
estimation of lost profits was speculative and (2) that
by divesting Catic USA of its LLC membership interest yet holding it liable for the LLC’s total estimated
lost profits, the award was punitive. Catic USA suggests that, because the award reflects an abuse of the
panel’s authority, this court vacate and remand for
further proceedings.
An “arbitral action contrary to express contractual
provisions will not be respected on judicial review.”
Executone Info. Sys., Inc. v. Davis, 26 F.3d 1314, 1325
(5th Cir. 1994) (quotation marks omitted). The Agreement explicitly stated that “[t]he Arbitrators shall
have no authority to award special, exemplary, punitive or consequential damages.” Thus, the contract
itself “limited the arbitrator’s own authority.” Timegate, 713 F.3d at 805 n.17. We generally defer to
arbitrators’ interpretation of their own authority, see
Rain, 674 F.3d at 472, but if the panel exceeded its
authority, “it would be incumbent upon us to vacate
[the] award, in spite of the discretion typically granted
to arbitral decisions,” Bridas, 345 F.3d at 365.

22a
1.
“[T]he standard remedy for breach of contract is
based upon the reasonable expectations of the parties
ex ante.” Siga Techs., Inc. v. PharmAthene, Inc., 132
A.3d 1108, 1130 (Del. 2015). Such damages “must be
proven with reasonable certainty, and no recovery can
be had for loss of profits which are determined to be
uncertain, contingent, conjectural, or speculative.” Id.
at 1131 (quotation marks omitted). At the same time,
“certain presumptions apply when evaluating harm
and loss. Where the injured party has proven the fact
of damages . . , less certainty is required of the proof
establishing the amount of damages.” Id. (emphases in
original). Thus, “[r]esponsible estimates that lack
mathematical certainty are permissible so long as the
court has a basis to make a responsible estimate of
damages.” Del. Express Shuttle, Inc. v. Older, No.
19596, 2002 Del. Ch. LEXIS 124, at *60 (Del. Ch. Oct.
23, 2002). And on the margins, it is an “established
presumption that doubts about the extent of damages
are generally resolved against the breaching party.”
Siga, 132 A.3d at 1131.
The award is based on much more than speculation.
Having found that Catic USA breached the agreement
by investing (via an affiliate) at least $50 million in
wind-farm development in an outside entity, the
arbitration panel was tasked with estimating claimants’ resulting lost profits, if any. The panel found that
Catic USA’s affiliated AVIC group would invest in any
given project only if it anticipated a minimum 15%
return; it then discounted that return to determine the
present value of the lost profits.
Catic USA does not contest that AVIC’s anticipated
rate of return was 15% or that the panel employed an
appropriate discount rate; instead, it attacks the

23a
panel’s assumption that AVIC’s investment did (or
would) generate profits. It is true that, although the
amount of lost profits may be estimated, claimants
generally “must show that there would [have been]
some future profits” but for the breach. Id. at 1133
(emphasis added). But in this case, Catic USA has
refused to provide the relevant information, and it was
thus within the arbitration panel’s authority to infer
that AVIC’s investment was indeed profitable. See id.
at 1131 n.132 (noting that damages may be inferred
when uncertainty results from the breaching party’s
own actions).
2.
“Historically, damages for breach of contract have
been limited to the non-breaching parties’ expectation
interest.” E.I. DuPont de Nemours & Co. v. Pressman,
679 A.2d 436, 445 (Del. 1996). “Punitive damages . . .
increase the amount of damages in excess of the
promisee’s expectation interest . . . .” Id. at 446. The
Agreement explicitly denied arbitrators the authority
to award punitive damages. “Thus, if punitive damages were indeed awarded in this case, it would be
incumbent upon us to vacate such an award, in spite
of the discretion typically granted to arbitral decisions.” Bridas, 345 F.3d at 365.
Catic USA contends that the panel issued what are
effectively punitive damages. Given the panel’s determination that Catic USA’s breach denied Soaring
Wind $62.9 million in lost profits, claimants would be
owed expectation damages of $31.45 million to reflect
their 50% interest in the company. But by awarding
the full $62.9 million while simultaneously divesting
Catic USA and Thompson of their equity interest,
Catic USA suggests, the panel granted the claimants
what is, in substance, double their expected damages.

24a
The panel acknowledged that “[t]he lost profits set
forth in [its] award are due to [Soaring Wind] for
distribution to the Claimants through their percentages set forth in the [ ] Agreement.” Insofar as it
divested Catic USA and Thompson of their equity
interests, the award served not necessarily to compensate the claimants or the LLC but “to prevent [Catic]
USA and Thompson from profiting from their
breaches.”
Although the panel did not have the authority to
issue punitive damages, it did possess powers to grant
court-enforceable injunctive relief. The question thus
is whether the divestment constitutes permissible
injunctive (or equitable) relief or improper punitive
damages.
It is the former. The panel divested Catic USA and
Thompson of their interest in Soaring Wind to prevent
them from receiving incidental benefit for breaching
their duties, duties owed not only to the other members of the LLC but also to the LLC itself. Unlike
punitive damages, which are based on a perceived
reprehensibility of the breaching party’s actions or
flow from a desire to make examples of them, see E.I.
DuPont, 679 A.2d at 445–46, the divestment operates
to achieve what the panel considered a fair result.
Such concern that relief not only compensate parties
financially but also achieve a just outcome, ex aequo
et bono—is precisely a matter of equity.31 Catic USA’s
theory that the divestment effectively doubles the
damages—and is therefore substantively indistinguishable from punitive damages—is well taken, but,

31

See 1 J. POMEROY, EQUITY JURISPRUDENCE § 363, at 8–9
(5th ed. 1941).

25a
given the broad scope of “equitable” relief,32 combined
with the deference we must grant the arbitration
panel,33 we decline to set aside the divestment as punitive and not equitable.
The judgment confirming the arbitration award is
AFFIRMED.

32

See Great-W. Life & Annuity Ins. Co. v. Knudson, 534 U.S.
204, 212–18 (2002).
33

See Rain, 674 F.3d at 472.

26a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[January 7, 2020]
————
No. 18-11192
D.C. Docket No. 3:15-CV-4033
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY
GROUP, LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually
and as the Independent Executrix of the
Estate of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees
v.
CATIC USA INCORPORATED, also known as
AVIC International USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY
GENERAL AIRCRAFT COMPANY LIMITED,
Defendants-Appellants
————
Appeals from the United States District Court
for the Northern District of Texas
————
Before DAVIS, SMITH, and COSTA, Circuit Judges.

27a
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed.
IT IS FURTHER ORDERED that appellants pay to
appellees the costs on appeal to be taxed by the Clerk
of this Court.

28a
APPENDIX C
2015 WL 477316
Only the Westlaw citation is currently available
UNITED STATES DISTRICT COURT,
N.D. TEXAS, DALLAS DIVISION
————
AVIC INTERNATIONAL USA, INC.
and Paul Thompson,
Plaintiffs,
v.
TANG ENERGY GROUP, LTD., Keith P. Young,
Mitchell W. Carter, Jan Family Interests, Ltd.,
and the Nolan Group, Inc.,
Defendants.
————
Civil Action No. 3:14–CV–2815–K
————
Signed Feb. 5, 2015
————
Attorneys and Law Firms
David G. Bayles, Malcolm McNeil, Arent Fox LLP, Los
Angeles, CA, Paul Ming Ma, Law Offices of Paul Ming
Ma, City of Industry, CA, Robert E. Sheeder,
Bracewell & Giuliani LLP, Steven K. Dewolf, Dewolf
Law, Gregory Richardson Ave, Randall G. Walters,
Walters Balido & Crain LLP, Dallas, TX, for Plaintiffs.
Bob Jenevein, Brent A. Turman, Vincent Lopez
Serafino Jenevein PC, James Allen Moseley, Grey
Reed & McGraw PC, William B. Chaney, Looper Reed
& McGraw, Jeffrey S. Lowenstein, Jesse Allan Okiror,

29a
Wendy Ann Duprey, Bell Nunnally & Martin LLP,
John McCasland Clement, Clement Legal Services,
PC, Dallas, TX, Brandi Jo McKay, Matthew Thomas
Bracy, Scheef & Stone LLP, Frisco, TX, for
Defendants.
MEMORANDUM OPINION AND ORDER
ED KINKEADE, District Judge.
Before the Court are: (1) Plaintiff AVIC International USA, Inc.’s (“AVIC”) Motion to Stay Arbitration
(Doc. No. 16); (2) Defendant Tang Energy Group LTD’s
(“Tang”) Amended Motion to Dismiss (Doc. No. 27);
(3) Plaintiff Paul Thompson’s (“Thompson”) Motion for
Discovery (Doc. No. 34); (4) Plaintiffs’ Request for
Court Consideration of Further Evidence in Support of
Motion to Stay Arbitration (Doc. No. 45); (5) Defendant
Tang’s Motion to Strike (Doc. No. 47); and (6) Plaintiff
AVIC’s Motion to Strike the Purported Expert Witness
Statements Filed by Tang Energy Group, Ltd. in
Support of its Opposition to Motion to Stay (Doc. No.
70). Having carefully considered the motions, responsive briefing, appendices, applicable law, and record
when relevant, the Court GRANTS Defendant Tang’s
motion to dismiss.
I. Factual and Procedural Background
In 2008, Plaintiffs AVIC and Thompson (collectively
“Plaintiffs”) entered into the Limited Liability Company Agreement of Soaring Wind Energy, LLC (“the
Agreement”) with Defendants Tang, Keith P. Young
(“Young”), Mitchell W. Carter (“Carter”), Jan Family
Interests, LTD. (“JFI”), and The Nolan Group, Inc.
(“TNG”) (collectively “Defendants”). The Agreement
contains a Dispute Resolution section (“Arbitration
Provision”) requiring disputes to be resolved in bind-

30a
ing arbitration. The Arbitration Provision of the
Agreement provides for the following process:
(a) The Disputing Member desiring to initiate
arbitration in connection with any Dispute
shall notify the other Disputing Members in
writing, which notice shall provide the name
of the Arbitrator appointed by the Disputing
Member, demand arbitration and include a
statement of the matter in controversy.
(b) Within 15 days after receipt of such
demand, each other Disputing Member receiving notice of the Dispute shall name an
Arbitrator. . . . The Arbitrators so selected
shall within 15 days after their designation
select an additional Arbitrator.... In the event
that there are more than two Disputing
Members to the Dispute, then unless otherwise agreed by the Disputing Members, the
Arbitrators selected by the Disputing Members shall cause the appointment of either one
or two Arbitrators as necessary to constitute
an odd number of total Arbitrators hearing
the Dispute.
It defines “Disputing Member” as “each Member that
is a party to such Dispute.”
In June 2014, after alleged breaches of the Agreement by Plaintiffs, Tang filed a Demand for Arbitration, Designation of Arbitrator, and Statement of
Matter in Controversy with the American Arbitration
Association (“AAA”), based on the Arbitration Provision of the Agreement. After providing notice to the
members to the Agreement, each member to the
dispute, including Plaintiffs, then selected an arbitrator. This resulted in a panel of seven (7) arbitrators

31a
being selected-one by each of the two Plaintiffs and one
by each of the five Defendants. Those seven arbitrators
then selected two additional arbitrators, thereby creating a nine member arbitration panel (“the Panel”) in
the AAA proceeding.
Plaintiffs filed this lawsuit on August 5, 2014, seeking a declaratory judgment from this Court. Plaintiffs
contend that the Panel as it currently exists “deviates”
from the arbitrator selection provisions set forth in
the Arbitration Provision of the Agreement. Plaintiffs
specifically argue that the arbitrator selection provision authorizes Defendants to collectively select one
arbitrator for their “side” and Plaintiffs to collectively
choose one arbitrator for their “side”, then those
two arbitrators select a third arbitrator. Plaintiffs also
argue that the current Panel fails to comply with the
constitutional requirement that disputes be resolved
by an impartial decisionmaker because the “deck is
stacked” against Plaintiffs. Plaintiffs contend that the
Panel as it currently is comprised “is inherently unfair
and not neutral” and ask the Court to order the Panel
be reconstituted according to the “correct” arbitrator
selection process authorized in the Arbitration Provision, which Plaintiffs argue is one arbitrator for
Defendants collectively and one for Plaintiffs collectively, with a third arbitrator selected by those two
arbitrators.
II. Tang’s Motion to Dismiss for Lack of Subject
Matter Jurisdiction
Tang argues in its motion that this Court does not
have jurisdiction under the Federal Arbitration Act
(“FAA”) to review Plaintiffs’ claims until an arbitration award has issued. Specifically, Tang contends
Plaintiffs’ claims do not fall within the very limited
jurisdiction granted to courts under the FAA to inter-

32a
vene in the arbitral process. Defendants Young,
Carter, JFI, and TNG join in Tang’s motion to dismiss.
Plaintiffs respond that this Court does have jurisdiction to entertain their challenges to the Panel because
the current Panel violates Plaintiffs’ rights to an
impartial decisionmaker and Plaintiffs are asking to
reconstitute the Panel.
A. Applicable Law
A case may be dismissed for lack of subject matter
jurisdiction under rule 12(b)(1). FED. R. CIV. P. 12(b)(1).
The court must first address a motion to dismiss for
lack of subject matter jurisdiction before any other
challenge in order to determine jurisdiction before
addressing the validity of a claim. Moran v. Kingdom
of Saudi Arabia, 27 F.3d 169, 172 (5th Cir.1994). In
ruling on a Rule 12(b)(1) motion, the court “ ‘is free to
weigh the evidence and satisfy itself as to the existence
of its power to hear the case.’” Stiftung v. Plains
Marketing, L.P., 603 F.3d 295, 297 (5th Cir.2010)
(quoting Williamson v. Tucker, 645 F.2d 404, 413 (5th
Cir.), cert. denied, 454 U.S. 897, 102 S.Ct. 396, 70
L.Ed.2d 212(1981)). In considering a Rule 12(b)(1)
motion, the court may look solely to the complaint, the
complaint along with undisputed facts, or the complaint with undisputed facts and the court’s resolution
of disputed facts. Williamson, 645 F.2d at 413. The
party asserting subject matter jurisdiction bears
the burden of proving it on a Rule 12(b)(1) motion.
Stiftung, 603 F.3d at 297; see Castro v. US, 608 F.3d
266, 268 (5th Cir.2010).
The Supreme Court has declared that the Federal
Arbitration Act (“FAA”), 9 U.S.C. § 1, et seq. “is a
congressional declaration of a liberal policy favoring
arbitration.” Moses H. Cone Memorial Hospital v.
Mercury Construction Corp., 460 U.S. 1, 24, 103 S.Ct.

33a
927, 74 L.Ed.2d 765 (1983). Federal policy strongly
favors the enforcement of arbitration agreements.
Dean Witter Reynolds Inc. v. Byrd, 470 U.S. 213, 217,
105 S.Ct. 1238, 84 L.Ed.2d 158 (1985); Texaco Exploration and Prod. Co. v. AmClyde Engineered Prods. Co.,
Inc., 243 F.3d 906, 909 (5th Cir.2001). Furthermore,
the FAA “ ‘expressly favors the selection of arbitrators
by parties rather than courts.’” BP Exploration Libya
Ltd. v. ExxonMobil Libya Ltd., 689 F.3d 481, 490 (5th
Cir.2012) (quoting Shell Oil Co. v. CO2 Comm., Inc.,
589 F.3d 1105, 1109 (10th Cir.2009)).
A court’s jurisdiction to intervene in the arbitration
process before an award has been issued is very
limited under the Federal Arbitration Act (“FAA”).
Gulf Guar. Life Ins. Co. v. Conn. Gen. Life Ins. Co., 304
F.3d 476, 486 (5th Cir.2002). Congress’s intent with
the FAA was to move parties out of the courts and into
arbitration promptly and efficiently; but Congress also
“recognized that judicial intervention may be required
in certain circumstances” to achieve this goal. Id. To
that end, the FAA provides, in relevant part:
If in the agreement provision be made for a
method of naming or appointing an arbitrator
or arbitrators or an umpire, such method
shall be followed; but . . . if for any other
reason there shall be a lapse in the naming of
an arbitrator . . ., then upon the application of
either party to the controversy the court shall
designate and appoint an arbitrator or
arbitrators. . . .
9 U.S.C. § 5. Although Congress provided for judicial
intervention when an impasse in the arbitrator selection process has occurred, the FAA makes clear that
the parties must adhere to their contractual arbitrator
selection procedure if one exists. Id. at 491 (quoting

34a
Pac. Reins. Mgmt. Corp. v. Ohio Reins. Corp., 814 F.2d
1324, 1327 (9th Cir.1987)). However, as part of its very
limited jurisdiction, a court may select an arbitrator,
upon application of a party, in three situations:
(1) if the arbitration agreement does not
provide a method for selecting arbitrators;
(2) if the arbitration agreement provides a
method for selecting arbitrators but any party
to the agreement has failed to follow that
method; or (3) if there is “a lapse in the
naming of an arbitrator or arbitrators.”
BP Exploration, 689 F.3d at 491. The Fifth Circuit has
defined “lapse” under 9 U.S.C. § 5 as “a lapse in time
in the naming of the arbitrator or in the filling of a
vacancy on a panel of arbitrators, or some other
mechanical breakdown in the arbitrator selection
process.” Id. at 491–92.
B. Application of the Law to the Facts
In this case, there is no dispute that there is an
agreement to arbitrate between these parties or that
these claims fall within the scope of that agreement.
See Gulf Guar., 304 F.3d at 486 (“Courts are limited to
determinations regarding whether a valid agreement
to arbitrate exists and the scope and enforcement of
the agreement, including the arbitrability of given
underlying disputes.”) Instead, Plaintiffs focus solely
on the selection and composition of the Panel. Plaintiffs argue the Court has jurisdiction here because
there has been a “lapse” in this arbitration process.
Plaintiffs contend the “lapse” is an “impasse” that has
been reached by their refusal to arbitrate before the
current Panel, “where the deck is stacked against
them.” Therefore, under 9 U.S.C. § 5, the Court must
order the Panel be reconstituted.

35a
Plaintiffs bear the burden of proving jurisdiction
does in fact exist. Arena v. Graybar Elec. Co., Inc., 669
F.3d 214, 223 (5th Cir.2012). Plaintiffs attempt to
characterize their claims against Defendants as a
“lapse” in the arbitrator selection process, thereby
authorizing the Court to intervene under its very
limited jurisdiction authorized by the FAA. Plaintiffs
also contend the Court has jurisdiction because the
current Panel amounts to a “stacked deck” against
Plaintiffs and gives the appearance of bias, violating
their constitutional rights to an impartial decisionmaker. First, the facts establish there was no lapse in
time of naming an arbitrator, in filling a vacancy on
the panel of arbitrators, or “some other mechanical
breakdown” of the arbitrator selection process to
satisfy the definition of “lapse” under 9 U.S.C. § 5 by
the Fifth Circuit. See BP Exploration, 689 F.3d at 491.
Each party to this action named an arbitrator, with no
resulting delay; there was, in fact, no impasse in the
arbitrator selection process at all. Plaintiffs claim the
“mechanical breakdown” came when they refused to
arbitrate before the current Panel. Neither the specific
language of the FAA or Fifth Circuit caselaw defines
“lapse” to include a party’s refusal to participate in
arbitration. The arbitration is pending before the
American Arbitration Association with a panel of
party-chosen arbitrators. The facts simply belie
Plaintiffs’ claim that a “mechanical breakdown in the
arbitrator selection process” occurred. See Gulf Guar.,
304 F.3d at 491–92 (emphasis added). Therefore, the
Court has no jurisdiction on that basis. See 9 U.S.C.
§ 5; BP Exploration, 689 F.3d at 491.
Next, Plaintiffs’ arguments that the Court has jurisdiction because their constitutional rights are being
violated are really just a challenge to the process used
to select the arbitrators and to the alleged resulting

36a
unfairness of that process to Plaintiffs. Plaintiffs claim
that their right to an impartial decisionmaker is being
violated by the Panel as it’s currently comprised because Defendants chose more arbitrators than did
Plaintiffs. Therefore, the Panel is inherently unfair
and amounts to a “stacked deck” against Plaintiffs.
Again, Plaintiffs’ allegations boil down to fairness of
the arbitrator selection process set forth in the Arbitration Provision. Complaints about the arbitrator
selection process, including fairness, “essentially go to
the procedure of arbitration.” Gulf Guar., 304 F.3d at
488. It is well settled that such procedural challenges
are for an arbitrator to decide. Adam Techs. Int’l S.A.
de C.V. v. Sutherland Global Servs., Inc., 729 F.3d 443,
452 (5th Cir.2013) (citing Howsam v. Dean Witter
Reynolds, Inc., 537 U.S. 79, 84, 123 S.Ct. 588, 154
L.Ed.2d 491 (2002)); Gulf Guar., 304 F.3d at 487. This
Court has no authority under the FAA to entertain
these challenges before an arbitration award has
issued. Adam Techs., 729 F.3d at 452; Gulf Guar., 304
F.3d at 488.
Even if the Court had jurisdiction to hear Plaintiffs’
claims, the Court has no jurisdiction to grant Plaintiffs’ requested relief. Plaintiffs ask the Court to
reconstitute the Panel, which amounts to removing
the current arbitrators. The record establishes that
the Panel has already been comprised and the arbitration is currently before the AAA, although no arbitration award has yet issued. Under the FAA, courts have
no authority to remove an arbitrator prior to an
arbitration award being made. Gulf Guar., 304 F.3d at
489–90; see Adam Techs., 729 F.3d at 452. The Fifth
Circuit held that “even where arbitrator bias is at
issue, the FAA does not provide for removal of an
arbitrator from service prior to an award, but only for
potential vacatur of any award.” Gulf Guar., 304 F.3d

37a
at 490 (emphasis added). Despite Plaintiffs’ argument
to the contrary, this Court has no authority under the
FAA “to remove an arbitrator for any reason” before
an arbitration award has been issued. See id.
The Court finds that it has no jurisdiction under the
FAA to entertain Plaintiffs’ claims prior to an arbitration award issuing, where Plaintiffs challenge the
arbitrator selection process and alleged resulting unfairness. Furthermore, the Court has no jurisdiction
under the FAA to reconstitute the Panel, as requested
by Plaintiffs.
III. Conclusion
The Court finds it has no jurisdiction under the FAA
to address Plaintiffs’ claims and grant the requested
relief. Therefore, the Court grants Defendant Tang’s
motion to dismiss, which all other Defendants have
joined. Plaintiffs’ case against all Defendants is hereby
dismissed.
SO ORDERED.

38a
APPENDIX D
UNITED STATES DISTRICT COURT,
N.D. TEXAS, DALLAS DIVISION.
[Filed August 4, 2015]
————
Civil Action No. 3:14–CV–3314–K.
————
ASCENDANT RENEWABLE ENERGY CORPORATION,
Plaintiff,
v.
TANG ENERGY GROUP, LTD., KEITH P. YOUNG,
MITCHELL W. CARTER, JAN FAMILY INTERESTS, LTD.,
THE NOLAN GROUP, INC. AND
SOARING WIND ENERGY, LLC.,
Defendants.
————
MEMORANDUM OPINION AND ORDER
ED KINKEADE, District Judge.
Before the Court are: (1) Defendant Tang Energy
Group, Ltd.’s (“Tang”) Motion for Summary Judgment
(Doc. No. 18); (2) Plaintiff Ascendant Renewable Energy
Corporation’s (“Ascendant”) Cross–Motion for Summary
Judgment (Doc. No. 42); (3) Non-party AVIC International USA, Inc.’s (“AVIC”) Motion to Intervene for
the Limited Purpose of Moving to Disqualify Counsel
and to Strike Pleadings Filed by Disqualified Counsel
(Doc. No. 58); and (4) Ascendant’s Motion for Protection
and to Stay Arbitration (Doc. No. 65). After careful
consideration of all pending motions, the responsive
briefing, the relevant record, and the applicable law,
the Court DENIES AVIC’s motion to intervene and

39a
DENIES as moot Ascendant’s motion for protection
and stay. For the following reasons, the Court DENIES
Tang’s motion for summary judgment and GRANTS in
part and DENIES in part as moot Ascendant’s motion
for summary judgment.
I. Factual and Procedural Background
The following facts are not disputed by the parties.
On June 13, 2014, Defendant Tang initiated an arbitration proceeding against eight respondents pursuant
to the arbitration clause of the Limited Liability
Company Agreement of Soaring Wind Energy, LLC
(“Agreement”). Plaintiff Ascendant is one of the named
respondents, but is not a signatory to the Agreement.
Before the arbitration panel, Ascendant objects to the
arbitration arguing there is no jurisdiction because
Ascendant is a non-signatory to the Agreement, and
Ascendant will not consent to or participate in the
arbitration. Also before the arbitration panel, Tang
has asserted that under a theory of alter ego, Ascendant
is subject to the arbitration clause of the Agreement.
Ascendant filed this declaratory judgment action,
asking this Court to declare: (1) the issue of whether
Ascendant, a non-signatory, is a proper party to the
arbitration cannot be determined by the arbitration
panel; (2) the issue of whether Ascendant, a nonsignatory, is a proper party to the arbitration can only
be determined by a court of law; (3) no determination,
finding, or decision made in arbitration as to jurisdiction over or as to the party-status of Ascendant is
valid, binding, effective, or controlling; and (4) a stay
of all arbitration proceedings until this case is decided.
Defendants Tang, Mitchell W. Carter (“Carter”), Jan
Family Interest, Ltd. (“JFI”), The Nolan Group, Inc.
(“Nolan”) and Soaring Wind Energy, LLC (“Soaring
Wind”) filed a counterclaim for declaratory judgment

40a
asking this Court to declare: (1) the arbitration panel
has authority, right and jurisdiction to determine whether
Ascendant is a proper party to the arbitration and
whether jurisdiction exists over Ascendant in the arbitration, subject to independent judicial review; and
(2) alternatively, should the Court rule that neither
the AAA nor any arbitration panel can consider
Ascendant’s objection to jurisdiction, then Defendants
seek leave to join remaining AVIC entities as thirdparty defendants and seek a declaration that all AVIC
entities are proper parties to arbitration. In his counterclaim for declaratory judgment, Defendant Keith P.
Young also asks that should the Court declare the
arbitration panel cannot consider Ascendant’s objection
to jurisdiction, that the Court declare that Ascendant
is a proper party to the arbitration. Although all the
Defendants have joined in Tang’s summary judgment
motion, the Court will refer to the collective motion as
“Tang’s motion.”
II. Analysis
A. Applicable Law
Summary judgment is appropriate when the pleadings, affidavits and other summary judgment evidence
show that no genuine issue of material fact exists, and
the moving party is entitled to judgment as a matter
of law. FED.R.CIV.P. 56(c); Celotex Corp. v. Catrett, 477
U.S. 317, 322, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986).
A dispute of a material fact is “genuine” if the evidence
is such that a reasonable jury could return a verdict in
favor of the nonmoving party. Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248, 106 S.Ct. 2505, 91
L.Ed.2d 202 (1986). All evidence and reasonable
inferences must be viewed in the light most favorable
to the nonmovant, and all disputed facts resolved in
favor of the nonmovant. See United States v. Diebold,

41a
Inc., 369 U.S. 654, 655, 82 S.Ct. 993, 8 L.Ed.2d 176
(1962); Boudreaux v. Swift Transp. Co., Inc., 402 F.3d
536, 540 (5th Cir.2005).
The Declaratory Judgment Act, 28 U.S.C. § 2201(a),
“is an enabling act, which confers discretion on the
courts rather than an absolute right on a litigant.”
Wilton v. Seven Falls Co., 515 U.S. 277, 287, 115
S.Ct. 2137, 132 L.Ed.2d 214 (1995). “The Declaratory
Judgment Act has been understood to confer on federal
courts unique and substantial discretion in deciding
whether to declare the rights of litigants.” Id. at 286.
“In the declaratory judgment context, the normal principle that federal courts should adjudicate claims within
their jurisdiction yields to considerations of practicality
and wise judicial administration.” Id. at 289.
The Supreme Court has declared that the Federal
Arbitration Act (“FAA”), 9 U.S.C. § 1, et seq. “is a
congressional declaration of a liberal policy favoring
arbitration.” Moses H. Cone Memorial Hospital v. Mercury
Construction Corp., 460 U.S. 1, 24, 103 S.Ct. 927, 74
L.Ed.2d 765 (1983). Further, federal policy strongly
favors the enforcement of arbitration agreements. Dean
Witter Reynolds Inc. v. Byrd, 470 U.S. 213, 217, 105
S.Ct. 1238, 84 L.Ed.2d 158 (1985); Texaco Exploration
and Production Co. v. AmClyde Engineered Products
Co., Inc., 243 F.3d 906, 909 (5th Cir.2001). However,
because arbitration is necessarily a matter of contract,
courts may require a party to submit a dispute to
arbitration only if the party has expressly agreed to do
so. Personal Security & Safety Sys. Inc. v. Motorola
Inc., 297 F.3d 388, 392 (5th Cir.2002) (citing AT & T
Tech., Inc. v. Communications Workers of Am., 475
U.S. 643, 648, 106 S.Ct. 1415, 89 L.Ed.2d 648 (1986)).
Although there is a strong federal policy favoring
arbitration, the court does not defer to this policy when

42a
making the initial determination about the existence
of an agreement to arbitrate. Sherer v. Green Tree
Servicing LLC, 548 F.3d 379, 381 (5th Cir.2008)
(internal citations omitted); Will–Drill Res., Inc. v.
Samson Res. Co., 352 F.3d 211, 214 (5th Cir.2003).
B. Application of the Law to the Facts
Controlling law is very clear that the threshold issue
of whether Ascendant, a non-signatory to the contract
containing the arbitration clause, is bound to arbitrate
is for a court, not an arbitrator, to determine in the
first instance. It is undisputed that Ascendant is not a
signatory to the Agreement. The Fifth Circuit has held
that “[when] the very existence of any agreement [to
arbitrate] is disputed, it is for the courts to decide at
the outset whether an agreement was reached.” Will–
Drill, 352 F.3d at 218–19 (“[W]here the very existence
of an agreement is challenged, ordering arbitration
could result in an arbitrator deciding that no agreement was ever formed [and][s]uch an outcome would
be a statement that the arbitrator never had any
authority to decide the issue.”). Ascendant, an undisputed non-signatory to the Agreement, attacks the
very existence of an agreement to arbitrate with Tang
or any other respondent. The Fifth Circuit has expressly
held that a court, not an arbitrator, must resolve
whether an agreement to arbitrate exists that would
require Ascendant to participate in the underlying
arbitration. Id; see DK Joint Venture 1 v. Weyand, 649
F.3d 310, 317 (5th Cir.2011). Furthermore, the Fifth
Circuit has expressly held that when a dispute centers
on whether the parties actually entered into an
agreement at all, like this one, a court would owe no
deference to any decision by the arbitrator as to jurisdiction over or party-status of Ascendant. See DK Joint
Venture, 649 F.3d at 317.

43a
The Court finds Tang’s arguments unpersuasive.
Every case Tang cites in support of its argument
involves a petition or motion to confirm or vacate an
arbitration award; the arbitrator’s about whether a
non-signatory was bound by the arbitration clause was
addressed for the first time by a court after the conclusion of the arbitration. In this case, Ascendant filed
this declaratory action in response to being named a
respondent in the Arbitration and has objected to and
not participated in the Arbitration; this case was not
filed in response to any action taken by the arbitration
panel. Also, alternative theories of binding Ascendant
to the arbitration clause under the Agreement are not
before this Court.
The Court grants Ascendant’s cross-motion for summary judgment declaring that Ascendant’s party status to the arbitration can only be determined by a
court, and not an arbitrator, and no determination by
the arbitration panel as to jurisdiction over or partystatus of Ascendant is controlling on a court. In its
motion for summary judgment, Ascendant also moved
to stay all actions related to the arbitration pending
the outcome of this case which the Court denies as
moot. The Court denies Tang’s motion for summary
judgment. All other relief not specifically addressed
herein is expressly denied.
III. Conclusion
AVIC’s motion to intervene is denied and Ascendant’s
motion for protection and stay is denied as moot. Tang’s
motion for summary judgment is denied. Ascendant’s
motion for summary judgment is granted as to:
(1) whether Ascendant, a non-signatory to the Agreement,
can be subject to arbitration based on the arbitration
clause of the Agreement is for a court, not the arbitration panel, to decide because Ascendant disputes the

44a
very existence of an agreement between these parties;
and (2) because the existence of any agreement between
these parties is in dispute, any determination by the
arbitration panel as to the jurisdiction over Ascendant
is not controlling on a court. Ascendant’s requested
relief of a stay of the arbitration action pending outcome
of this case is denied as moot.
SO ORDERED.
Signed August 4th, 2015.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

45a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed August 09, 2018]
————
Civil Action No. 3:15-CV-4033-K
————
SOARING WIND ENERGY, LLC, TANG ENERGY
GROUP, LTD., THE NOLAN GROUP, INC., MARY YOUNG
(INDIVIDUALLY AND AS INDEPENDENT EXECUTRIX OF
THE ESTATE OF KEITH P. YOUNG), MITCHELL W.
CARTER, and JAN FAMILY INTERESTS LTD.,
Movants,

v.

CATIC USA, INC. (a.k.a. AVIC INTERNATIONAL USA,
Inc.), AVIATION INDUSTRY CORPORATION OF CHINA,
CHINA AVIATION INDUSTRY GENERAL AIRCRAFT Co.
LTD., AVIC INTERNATIONAL HOLDING CORPORATION,
AVIC INTERNATIONAL RENEWABLE ENERGY CORP.,
ASCENDANT RENEWABLE ENERGY CORP., and CATIC
TED LTD. (a.k.a. AVIC INTERNATIONAL TED LTD.),
Respondents.
————
ORDER SEVERING
Movants’ Motion to Confirm Arbitration Award
Against Respondent AVIC International USA, Inc.
and Motion to Confirm Arbitration Award Against All
Other Respondents (Doc. No. 1) is pending before the
Court. Also pending before the Court are the Motions
to Vacate Arbitration Award filed by Respondents
AVIC International USA Inc. (Doc. No. 157), Aviation

46a
Industry Corporation of China and China Aviation
Industry General Aircraft Co. Ltd. (Doc. No. 161),
AVIC International Holding Corp. (Doc. No. 202), and
AVIC International Renewnable Energy Corporation
(Doc. No. 232). The Court stayed this case as to
Respondents Aviation Industry Corporation of China,
China Aviation General Aircraft Co., Ltd., AVIC
International Holding Corporation, and AVIC International Renewable Energy Corporation pending the
Court’s determination of the Movants’ Motion to
Confirm Arbitration Award Against Respondent AVIC
International USA, Inc.
The Court may sever any claim against a party, even
properly joined parties, into a separate action and
proceed with it as a discrete, independent action. See
also Allied Elevator, Inc. v. E. Tex. State Bank, 965
F.2d 34, 36 (5th Cir. 1992); Blum v. Gen. Elec. Co., 547
F. Supp.2d 717, 722 (W.D. Tex. 2008). The Court
concludes it need not reach the other Respondents
motions to vacate (most notably those arguments
related to their joint and several liability pursuant to
the arbitration award based on an alter-ego theory)
before determining whether to confirm or vacate the
arbitration award as to Respondent AVIC International USA, Inc., the signatory to the underlying
agreement. Therefore, the Court ORDERS that
the Motion to Confirm Arbitration Award Against
Respondents Aviation Industry Corporation of China,
China Aviation General Aircraft Co., Ltd.,
AVIC International Holding Corporation, and AVIC
International Renewable Energy Corporation be severed and filed in a newly opened civil action, pursuant
to FED. R. CIV. P. 21 (a court has broad discretion to
sever claims against a party or to order separate trials
for joined parties). See also Allied Elevator, 965 F.2d

47a
at 36 (severance under Rule 21 creates two separate
actions).
The Clerk is hereby DIRECTED to sever and copy
all the docket entries of this case in CM/ECF and open
a new civil action. The new style of this case shall be
Soaring Wind Energy, LLC, Tang Energy Group, Ltd.,
The Nolan Group, Inc., Mary Young, Mitchell W.
Carter, and Jan Family Interests Ltd. (Movants) v.
Aviation Industry Corporation of China, China Aviation General Aircraft Co., Ltd., AVIC International
Holding Corporation, and AVIC International Renewable Energy Corporation (Respondents).
This newly opened action is hereby stayed and
administratively closed pending resolution of Soaring
Wind Energy, LLC, et al. v. AVIC International USA,
Inc., 3:15-CV-4033-K.
SO ORDERED.
Signed August 9th, 2018.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

48a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[Filed August 9, 2018]
————
Civil Action No. 3:15-CV-4033-K
————
SOARING WIND ENERGY, LLC, TANG ENERGY GROUP,
LTD., THE NOLAN GROUP, INC., MARY YOUNG
(INDIVIDUALLY AND AS INDEPENDENT EXECUTRIX OF
THE ESTATE OF KEITH P. YOUNG), MITCHELL W.
CARTER, AND JAN FAMILY INTERESTS, LTD.,
Movants,
v.
CATIC USA, INC. (a.k.a. AVIC
INTERNATIONAL USA, INC.),
Respondent.
————
ORDER CONFIRMING ARBITRATION AWARD
Before the Court are: (1) Movants Soaring Wind
Energy, LLC, Tang Energy Group, Ltd., The Nolan
Group, Inc., Keith P. Young, Mitchell W. Carter, and
Jan Family Interests Ltd.’s Motion to Confirm Arbitration Award Against Respondent AVIC International USA, Inc. and Motion to Confirm Arbitration
Award Against All Other Respondents (Doc. No. 1);
and (2) Respondent AVIC International USA, Inc.’s
Motion to Vacate Arbitration Award (Doc. No. 157).
The Court has carefully reviewed the motions,
responses, replies, the extensive record, the applicable
law, and the arbitration award. The Court finds no

49a
grounds upon which it must vacate, modify, or correct
the arbitration award as to Respondent AVIC USA,
Inc. (“AVIC USA”). See 9 U.S.C. § 9-11. The Court
must confirm the arbitration award against AVIC
USA because the arbitrators’ ruling as to the liability
of AVIC USA “‘draws its essence’” from the Soaring
Wind Energy Agreement. Accordingly, the Court
GRANTS Movants’ Motion to Confirm Arbitration
Award Against Respondent AVIC International USA,
Inc. and DENIES Respondent AVIC USA’s motion to
vacate the arbitration award.
I. Factual and Procedural Background
In 2008, Soaring Wind Energy, LLC (“SWE”) was
created with a Limited Liability Company Agreement
(“the Agreement” or “the SWE Agreement”). The members of SWE are Respondent AVIC USA, non-party
Paul E. Thompson (“Thompson”), and Movants Tang
Energy Group, LLC (“TEG”), Keith P. Young, Mitchell
W. Carter, Jan Family Interests, Ltd., and The Nolan
Group, Inc. (collectively “Movants”). AVIC USA held a
50% membership in SWE, while the five Movants held
the other 50% membership in varying percentages.
The Agreement defined the purpose and nature of
SWE’s business:
The purpose and nature of the business to be
conducted by the Company shall be to provide
worldwide marketing of wind energy equipment, services and materials related to wind
energy including, but not limited to, marketing wind turbine generator blades and wind
turbine generators and developing wind
farms (the “Business”), and to engage in any
other business or activity that now or hereafter may be necessary, incidental, proper,
advisable or convenient to accomplish the

50a
foregoing purposes (including the borrowing
of money and the investment of funds) and
that is not forbidden by the law of the
jurisdiction in which the Company engages in
that business.
The Agreement also contains a Dispute Resolution
section (“Arbitration Provision”) requiring disputes to
be resolved in binding arbitration. The Arbitration
Provision of the Agreement provides for the following
process:
(a) The Disputing Member desiring to
initiate arbitration in connection with any
Dispute shall notify the other Disputing
Members in writing, which notice shall
provide the name of the Arbitrator appointed
by the Disputing Member, demand arbitration and include a statement of the matter in
controversy.
(b) Within 15 days after receipt of such
demand, each other Disputing Member
receiving notice of the Dispute shall name an
Arbitrator. . . . The Arbitrators so selected
shall within 15 days after their designation
select an additional Arbitrator. . . . In the
event that there are more than two Disputing
Members to the Dispute, then unless otherwise agreed by the Disputing Members, the
Arbitrators selected by the Disputing Members shall cause the appointment of either one
or two Arbitrators as necessary to constitute
an odd number of total Arbitrators hearing
the Dispute.
It defines “Disputing Member” as “each Member that
is a party to such Dispute.” “Member” is defined as

51a
“either a Class A Member or a Class B Member, or any
Person hereafter admitted to the Company as a
member as provided in this Agreement, but such term
does not include any Person who has ceased to be a
member in the Company.”
In June 2014, TEG filed a Demand for Arbitration,
joined by the other Movants, asserting a claim
for breach of Agreement against the RespondentsSignatories AVIC USA and Thompson as well as the
Non-Signatory Respondents Aviation Industry Corporation of China, China Aviation Industry General
Aircraft Co., Ltd., AVIC International Holding Corp.,
AVIC International Renewable Energy Corp., and
CATIC TED, Ltd. (collectively “Non-Signatories”). The
Non-Signatories are foreign companies. After the
arbitration demand was made, each SWE member
selected an arbitrator for a total of seven (7) arbitrators being selected—one each by AVIC USA and
Thompson, as well as one by each of the five Movants.
Following the process set out in the Arbitration
Provision, those seven arbitrators then selected two
additional arbitrators, resulting in a nine-member
arbitration panel (“the Panel”) in the proceeding. The
Panel later permitted SWE to intervene as a party to
the Arbitration. The Non-Signatory Respondents
objected to any attempt to subject them to arbitration,
and provided notice that they would not participate in
the arbitration.
On August 5, 2014, after the Panel had been
composed but before an arbitration award had issued,
AVIC USA filed a complaint for declaratory judgment,
seeking the Court’s intervention related to the
composition of the Panel and also a stay of the
arbitration proceedings. AVIC Int’l USA, Inc. v. Tang
Energy Grp., Ltd., Civil Action No. 14-CV-2815-K

52a
(“AVIC USA I case”) (Doc. No. 1). The Court granted
Defendant TEG’s motion to dismiss, finding the Court
had no jurisdiction to address AVIC USA’s claims or
grant the relief requested. AVIC Int’l USA, Inc. v.
Tang Energy Grp., Ltd., Civil Action No. 14-CV-2815K, 2015 WL 477316, at 4-5 (N.D. Tex. Feb. 5, 2015).
The Fifth Circuit affirmed this Court’s ruling. AVIC
Int’l USA, Inc. v. Tang Energy Grp., Ltd., 614 F. App’x
218, 219 (5th Cir. 2015) (“AVIC USA I appeal”).
On September 12, 2014, again before an arbitration
award had issued, Ascendant Renewable Energy Corporation (“Ascendant”), a named Respondent in the
arbitration but a non-signatory to the SWE Agreement, filed a complaint for declaratory judgment.
Ascendant Renewable Energy Corp. v. Tang Energy
Grp., Ltd., Civil Action No. 14-CV-3314-K (“Ascendant
case”) (Doc. No. 1). Ascendant sought a stay of the
arbitration and a declaration from the Court regarding
its party status to the arbitration, including whether
the Panel or a court must determine if Ascendant was
a proper party to the arbitration as a non-signatory to
the SWE Agreement which contained the arbitration
provision. Id. (Doc. No. 1). On August 4, 2015, the
Court granted Ascendant’s motion for summary
judgment, declaring:
(1) whether Ascendant, a non-signatory to
the Agreement, can be subject to arbitration
based on the arbitration clause of the Agreement is for a court, not the arbitration panel,
to decide because Ascendant disputes the
very existence of an agreement between these
parties; and (2) because the existence of any
agreement between these parties is in
dispute, any determination by the arbitration

53a
panel as to the jurisdiction over Ascendant is
not controlling on a court.
Ascendant Renewable Energy Corp. v. Tang Energy
Grp., Ltd., Civil Action No. 14-CV3314-K, 2015 WL
4713240, at * 3 (N.D. Tex. Aug. 4, 2015). The Court
denied as moot the requested stay. No appeal was
taken in that matter.
The arbitration hearing occurred August 10-14,
2015. On December 21, 2015, the Panel issued their
Final Award. The panel concluded, in relevant part,
that: (1) the SWE members vested the Panel with
authority to determine their own jurisdiction, including arbitrability of any claim or defense, such as any
dispute related to the interpretation or construction of
any provision in the Agreement; (2) AVIC USA’s
“Affiliates”, as defined in the Agreement, engaged in
the “Business” of SWE in violation of the Agreement’s
covenant not to compete; (3) AVIC USA as a Signatory
was liable for its Affiliates’ breach of the Agreement;
(4) the Movants were entitled to damages for lost
profits relating to the breach and AVIC USA should
be divested of its membership interest in SWE; (5)
SWE properly intervened to assert its own claims for
damages; (6) SWE was entitled to $62.9 million in
damages and TEG was entitled to arbitration fees,
attorneys’ fees, and expenses (up through a final
appeal to the United States Supreme Court) allocated
against all Respondents except Thompson; and (7) the
Movants were the “prevailing Members” as defined in
the Agreement.
Before the Court now are the Movant’s motion to
confirm the arbitration award and the AVIC USA’s
motion to vacate the arbitration award.

54a
II. Applicable Law
There is a strong federal policy favoring arbitration,
as reflected in the Federal Arbitration Act (“FAA”). See
Hall St. Assocs., L.L.C. v. Mattel, Inc., 552 U.S. 576,
586-590 (2008). “Judicial review of an arbitration
award is extraordinarily narrow and [the courts]
should defer to the arbitrator’s decision when possible.” Antwine v. Prudential Bache Sec., Inc., 899 F.2d
410, 413 (5th Cir. 1990); see Rain CII Carbon, LLC v.
ConocoPhillips Co., 674 F.3d 469, 471-72 (5th Cir.
2012); Brabham v. A.G. Edwards & Sons Inc., 376
F.3d 377, 385 (5th Cir. 2004)(“Our established rules of
deference foreclose all but the most limited review.”).
The FAA permits a district court to vacate an
arbitration award in these very limited circumstances:
(1) where the award was procured by
corruption, fraud, or undue means;
(2) where there was evident partiality or
corruption in the arbitrators, or either of
them;
(3) where the arbitrators were guilty of
misconduct in refusing to postpone the hearing, upon sufficient cause shown, or in refusing to hear evidence pertinent and material to
the controversy; or any other misbehavior by
which the rights of any party have been
prejudiced; or
(4) where the arbitrators exceeded their
powers, or so imperfectly executed them that
a mutual, final, and definite award upon the
subject matter submitted was not made.
9 U.S.C. § 10(a). These are the exclusive grounds on
which a court may vacate an arbitration award under

55a
the FAA. Hall St. Assocs., 552 U.S. at 586-590 (holding
“§§ 10 and 11 provide exclusive regimes for the review
provided by the [FAA]”); see Citigroup Glob. Mkts., Inc.
v. Bacon, 562 F.3d 349, 355 (5th Cir. 2009). An
arbitration award may not be vacated for “mere
mistake of fact or law.” Rain CII Carbon, 674 F.3d at
472 (internal quotation marks omitted).
The party seeking vacatur of an arbitration award
bears the burden of proof, and the reviewing court
must decide any uncertainties or doubts in favor of
sustaining the award. Brabham, 376 F.3d at 385. In
reviewing an arbitration award, the court applies the
“essence” test. See Timegate Studios, Inc. v. Southpeak
Interactive, L.L.C., 713 F.3d 797, 802 (5th Cir. 2013);
Executone Info. Sys., Inc. v. Davis, 26 F.3d 1314, 1320
(5th Cir. 1994). The court must confirm an arbitration
award “as long as the arbitrator’s decision ‘draws
its essence’ from the contract,” in other words “the
arbitrator’s decision is rationally inferable from
the letter or purpose of the underlying agreement.”
Timegate Studios, 713 F.3d at 802 (quoting Executone,
26 F.3d at 1320). “[T]he question is whether the
arbitrator’s award was so unfounded in reason and
fact, so unconnected with the wording and purpose of
the . . . agreement as to manifest an infidelity to the
obligation of an arbitrator.” Executone, 26 F.3d at 1325
(internal quotations omitted). It is irrelevant whether
the reviewing court disagrees with the arbitrator’s
interpretation of the contract. Timegate Studios, 713
F.3d at 802. The reviewing court considers only the
arbitrators’ resulting decision and “does not review the
language used by, or the reasoning of, the arbitrators
in determining whether their award draws its essence
from the contract.” Executone, 26 F.3d at 1325
(internal quotations omitted). “Because the parties
have contracted to have disputes settled by an

56a
arbitrator chosen by them rather than by a judge, it is
the arbitrator’s view of the facts and of the meaning of
the contract that they have agreed to accept. Courts
thus do not sit to hear claims of factual or legal error
by an arbitrator as an appellate court does in reviewing decisions of lower courts.” United Paperworkers
Int’l Union v. Misco, Inc., 484 U.S. 29, 37-38 (1987).
The arbitrators’ powers and authority are “‘dependent on the provisions under which the arbitrators were
appointed.’” Brook v. Peak Int’l, Ltd., 294 F.3d 668, 672
(5th Cir. 2002)(quoting Szuts v. Dean Witter Reynolds,
Inc., 931 F.2d 830, 831 (11th Cir. 1991)). “Whether an
arbitrator has exceeded his powers is tied closely to the
applicable standard of review”—that being whether
the arbitrator’s decision “draws its essence” from the
underlying contract. Timegate Studios, 713 F.3d at
802. The court looks to “whether the arbitrator’s
award ‘was so unfounded in reason and fact, so unconnected with the wording and purpose of the [contract]
as to “manifest an infidelity to the obligation of
an arbitrator.”’” Id. (quoting Brotherhood of R.R.
Trainmen v. Cent. of Ga. Ry. Co., 415 F.2d 403, 412
(5th Cir. 1969)). “‘[A]s long as [an honest] arbitrator is
even arguably construing or applying the contract and
acting within the scope of his authority,’ the fact that
‘a court is convinced he committed serious error does
not suffice to overturn his decision.’” E. Associated
Coal Corp. v. United Mine Workers of Am., 531 U.S.
57, 62 (2000) (internal citations omitted). The reviewing court must resolve all doubts in favor of arbitration. Executone, 26 F.3d at 1320-21.
The Convention on the Recognition and Enforcement of Foreign Arbitral Awards (“the Convention”)
applies “if the [arbitration] award arises out of a
commercial dispute and at least one party is not a

57a
United States citizen.” Asignacion v. Rickmers Genoa
Schiffahrtsgesellschaft mbH & Cie KG, 783 F.3d 1010,
1015 (5th Cir. 2015). Arbitration awards governed by
the Convention are enforced under the FAA. 9 U.S.C.
§ 201. Just as review is exceedingly narrow under the
FAA, the Convention does not permit a reviewing
court to “refuse to enforce the award solely on the
ground that the arbitrator may have made a mistake
of law or fact.” See Asignacion, 783 F.3d at 1015. A
court must confirm the arbitration award unless the
party opposing confirmation meets its burden of establishing a reason under Article V of the Convention for
the court to deny enforcement of the arbitral award.
See id. at 1015-1016.
III. Application of the Law to the Facts
A. Selection and Composition of Arbitration
Panel
AVIC USA first insists the arbitration award must
be vacated because the Panel was selected in violation
of the Agreement’s terms and, alternatively, the
composition of the Panel violates public policy and due
process.
1. Did the Arbitrators’ Appointment Violate
the SWE Agreement?
AVIC USA contends the Panel exceeded their powers, as defined in Section 10, because they were “not
selected in accordance with the provisions of the
Agreement,” so the award must be vacated. AVIC USA
argues that the clear language of the Agreement
requires the appointment of one arbitrator per side,
not one arbitrator per member; this was AVIC USA’s
understanding of the selection provision and it would
never “agree[ ] to nor contemplate[ ] arbitrating a two-

58a
sided dispute in which one side chose five arbitrators
and the other side chose two.”
a) Procedural Challenge for the Panel
Regardless of how AVIC USA tries to frame this
argument, it comes down to a “‘challenge[ ] that essentially [goes] to the procedure of arbitration.’” Adam
Techs. Int’l S.A. de C.V. v. Sutherland Glob. Servs.,
Inc., 729 F.3d 443, 452 (5th Cir. 2013)(quoting Gulf
Guar. Life Ins. Co. v. Conn. Gen. Life Ins. Co., 304 F.3d
476, 488 (5th Cir. 2002)). AVIC USA’s argument turns
on the fairness of the selection process. Such “procedural questions” are presumed to be for an arbitrator
to decide. Adam Techs. Int’l, 729 F.3d at 452 (citing
Howsam v. Dean Witter Reynolds, Inc., 537 U.S. 79, 84
(2002)). AVIC USA has advanced no compelling argument or evidence to establish otherwise.
Article XIII of the SWE Agreement addresses the
parties’ agreement on Dispute Resolution. Section
13.1 provides, in relevant part, the Arbitration
Provision “shall apply to any controversy, dispute or
claim arising under or related to this [SWE] Agreement . . . including (a) any dispute regarding the
construction, interpretation, performance, validity or
enforceability of any provision of this [SWE] Agreement . . . .” The parties agreed to first attempt an
informal resolution of any dispute then, if that
negotiation failed, the parties agreed to submit the
dispute to binding arbitration. See SWE Agmt., Secs.
13.2 and 13.3 at p. 46. The SWE Agreement specifically sets out the arbitrator selection process and
incorporates the rules and procedures of the American
Arbitration Association. The presumption that the
arbitrators must decide any procedural question, including the arbitrator selection process, clearly applies
in this case. See Howsam, 537 U.S. at 84. The arbitra-

59a
tors found that the “panel is composed in a manner
provided by the unambiguous agreement of the parties
as set forth in Article XIII of the SWE Agreement.”
They also found that the parties “clearly and unmistakably empowered this panel to determine whether
this arbitration involves a controversy, dispute, or
claim arising under or related to the SWE Agreement
. . . including any dispute regarding the construction,
interpretation, performance, validity or enforceability
of any provision of the SWE Agreement.” The
arbitrators’ conclusion on this issue is binding and is
not for this Court to review on the basis of a procedural
challenge, such as the parties agreed otherwise.
See also Adam Techs. Int’l, 729 F.3d at 452 (“Adam’s
appellate argument that the Howsam presumption
disappears because of Adam’s interpretation that the
parties agreed otherwise is unavailing.”). AVIC USA
must establish a statutory reason for vacatur related
to the composition of the panel that the Court may
consider in its very narrow review.
b) The Panel Did Not Exceed Their
Power
The parties to an arbitration agreement may agree
by contract to the arbitrator selection process. Brook
v. Peak Int’l., Ltd., 294 F.3d 668, 672 (5th Cir. 2002).
When the arbitration agreement provides for the
appointment method of the arbitrators, the FAA specifically requires that the agreed method “shall be
followed.” 9 U.S.C. § 5; see id. at 672-73; see also Volt
Info. Scis., Inc. v. Bd. of Trs. of Leland Stanford Junior
Univ., 489 U.S. 468, 479 (1989)(recognizing “the FAA’s
primary purpose [is] ensuring that private agreements
to arbitrate are enforced according to their terms”
because “[a]rbitration under the [FAA] is a matter of
consent, not coercion, and parties are generally free to

60a
structure their arbitration agreements as they see
fit.”).
Claiming the arbitrators exceeded their powers,
AVIC USA first contends the arbitrators were not
selected in accordance with the Arbitration Provision
because the Panel was “dominated by [TEG] appointees” and AVIC USA never agreed to a selection
provision which would allow such a lop-sided panel in
a dispute. Next, AVIC USA argues the Arbitration
Provision requires a panel of three arbitrators in any
scenario and asks the Court to “give effect to the plain
and objectively reasonable meaning of the arbitrator
selection provision for this dispute as understood
by AVIC USA: one arbitrator per side plus a third
arbitrator as a tie-breaker.” Finally, AVIC USA contends the arbitration selection provision was misinterpreted because the Non-Signatories were not allowed
to select arbitrators. As a result of these factors, AVIC
USA alleges that the Court’s refusal to vacate the
award issued by this arbitration panel as it was
composed will cause “an absurd and fundamentally
unjust result.”
AVIC USA attempts to characterize its arguments
as being centered on an arbitration panel appointed in
violation of the method provided for in the parties’
arbitration agreement, therefore requiring vacatur.
However, the record does not bear this out. The
Arbitration Provision does indeed clearly provide for a
method of selecting the arbitrators, but it is not the
method alleged by AVIC USA. Presented with a
similar, if not identical, argument in the AVIC USA I
appeal, the Fifth Circuit so astutely noted:
Simply put, when [AVIC USA’s] position
is reduced to its bare essentials, AVIC [USA]
is asking us to rewrite their agreement’s

61a
arbitration provision to require that every
arbitration among these multiple parties
comprise only two “sides”. It is apparent from
the plain wording of that provision, however,
that the agreement contemplates the possibility of there being three or more “sides”
among the several parties to the agreement.
More to the point, AVIC’s strained interpretation of the arbitration provision would
mandate that there be precisely three arbitrators in any and every instance, no more and
no fewer—one selected by one “side,” a second
selected by the other “side,” and the third
selected by the first two. The unambiguous
wording of the arbitration provision eschews
such a reading: The agreement expressly
contemplates the possibility of (1) an even
number of arbitrators (an impossibility under
AVIC’s proposed, three-only arbitrators interpretation) and (2) adding either one or two
more arbitrators to achieve an odd number
(also an impossibility under a three-only arbitrator situation).
AVIC Int’l USA, 614 F. App’x. at 219 (emphasis in the
original). It is readily apparent to this Court that the
Fifth Circuit’s summary is true and applicable even
now as AVIC USA takes the same position.
As SWE Members, AVIC USA and the Movants
contracted in their Arbitration Provision for a specific
appointment method of the arbitrators in the event of
a dispute. The FAA specifically mandates that if an
appointment process is agreed-to, the agreed method
“shall be followed.” 9 U.S.C. § 5; see Brook, 294 F.3d at
672-73; see also Volt Info. Scis., 489 U.S. at 479
(recognizing “the FAA’s primary purpose [is] ensuring

62a
that private agreements to arbitrate are enforced
according to their terms” because “[a]rbitration under
the [FAA] is a matter of consent, not coercion, and
parties are generally free to structure their arbitration
agreements as they see fit.”). The method by which
these arbitrators were selected was in accordance with
the exact process agreed to by the parties in their
Arbitration Agreement. AVIC USA has established
nothing to the contrary. The Panel did not exceed their
powers and the Court will not vacate the arbitration
award on these grounds.
2. Will Violations of Public Policy and Due
Process Support Vacatur?
AVIC USA argues in the alternative that even if the
Arbitration Agreement permitted this particular process, the resulting panel was “stacked” which violates
public policy and requires vacatur of the award. Public
policy is no longer a recognized, valid ground for
vacating an arbitration award under the FAA. See
Citigroup, 562 F.3d at 358. The United States
Supreme Court held that grounds for vacatur are
limited to those specifically set forth in Section 10 of
the FAA. Hall St. Assocs., L.L.C., 522 U.S. at 586. A
court may not vacate an arbitration award on common
law grounds, such as public policy, because they are
not specifically provided for in the statute. See
Citigroup, 562 F.3d at 358 (any “non-statutory ground
for setting aside an [arbitration] award must be
abandoned and rejected.”); Am. Postal Workers Union,
AFL-CIO v. U.S. Postal Serv., 3:09-CV-1084-B , 2010
WL 1962676, at *2 (N.D. Tex. May 14, 2010)(Boyle,
J.)(“[W]hile public policy was once recognized as a
common law ground for vacating an arbitration award,
in light of Hall Street and its progeny, it [is] no longer
an adequate basis for vacatur.”). AVIC USA cites to no

63a
case law post-Hall Street which would permit this
Court to review the arbitration award on public policy
grounds. This argument is outside the narrow scope of
review the Court is permitted to conduct under the
FAA. Accordingly, the Court will not consider the
merits of this argument and will not vacate the
arbitration award on this common law basis.
In a single sentence footnote, AVIC USA contends
this arbitration panel violates public policy under
Article V of the Convention and requires the award be
vacated. The party seeking vacatur bears the burden
of proving an Article V reason precludes confirmation
of the award; “[a]bsent ‘a convincing showing’ that one
of these narrow exceptions applies the arbitral award
will be confirmed.” In re Arbitration Between Trans
Chem. Ltd. and China Nat. Machinery Import &
Export Corp., 978 F. Supp. 266, 309 (S.D. Tex.
1997)(citing Imperial Ethiopian Gov’t v. Baruch-Foster
Corp., 535 F.2d 334, 336 (5th Cir. 1976)). Although
public policy may support vacatur under Article V of
The Convention, AVIC USA submits no actual argument on this point, provides no citations in support,
and fails to even reference which specific section of
Article V applies. AVIC USA failed to meet its burden
to establish vacatur is required under Article V of the
Convention. See id.
Finally, AVIC USA claims the process of composing
this Panel violates due process because it is in contravention to the objective of the selection process and the
idea of a neutral panel, resulting in “the appearance
that the arbitration process can be and was rigged.”
However, this is essentially where the argument ends.
Beyond making this claim in a sentence or two, AVIC
USA fails to put forth any substantive argument on
this point or provide citations to case law in support.

64a
To the extent AVIC USA asserts due process as
grounds for vacatur under the FAA, the argument
would fail for the same reasons as public policy
violations. Common law grounds are no longer valid to
support vacatur under the FAA. See Citigroup, 562
F.3d at 358. AVIC USA does not reference Article V of
The Convention in this argument, but even if it did,
the argument would fail. AVIC USA made no showing,
let alone “a convincing showing,” that a narrow
exception under Article V applies. See Trans Chem.
Ltd., 978 F. Supp. at 309. The Court will not consider
this due process argument as a basis for vacating the
arbitration award.
In conclusion, the Court cannot vacate the arbitration award on any of the aforementioned grounds
related to the selection and composition of the Panel
as asserted by AVIC USA. See Brabham, 376 F.3d at
385 (“Given these constraints, judicial review of an
award’s rationality must be confined to situations in
which the party challenging the award can prove that
clearly applicable law or the parties’ contract indisputably dictates a contrary result.”).
B. Expansion of Issues Identified or Submitted
to Arbitration Panel
AVIC USA argues the Panel exceeded its authority
when it identified an “ambiguity” in the SWE Agreement that none of the parties identified or submitted
to the panel. Specifically, AVIC USA contends the
Panel read Section 6.10 to include the term “Affiliate”,
as defined and used in the Agreement, when that was
not in dispute, thereby effectively rewriting the
contract and allowing the panel to find AVIC USA
liable on this unjustified interpretation.

65a
Among their many findings, the Panel concluded:
62. The extent of the exclusive arrangement
agreed to by the Members as set out in
the Agreement is ambiguous. Section 6.10
appears to apply only to Members. On the
other hand, Section 6.11 prohibits any Member, it Representatives and Affiliates from
engaging in the “Business” of SWE except
through SWE. Section 6.12 prohibits Class A
Members and their Affiliates from “participating” in wind farm land development
projects except through entities owned jointly
by SWE and CATIC. The Agreement’s confidentiality provision prohibits Members and
their Affiliates from revealing confidential
information about the company, the Members, Affiliates or the Agreement. The Chicago
Agreement clearly states that “SWE will be
the exclusive vehicle for both Tang and
CATIC interest in the wind industry.” The
great weight of the evidence supports a
construction that Members, their Affiliates
and Representatives will only conduct the
“Business” through SWE.
65 AVIC USA itself did not violate the
contractual provision to refrain from engaging in the Business of SWE except through
SWE.
66. However, AVIC USA’s affiliates as defined by the SWE Agreement, competed
against SWE and engaged in the “Business”
of SWE thereby violating the SWE Agreement’s exclusive arrangement. Specifically,
AVIC HQ, AVIC International, AVIC IRE
and Ascendant, are “Affiliates” of AVIC USA

66a
because they directly or indirectly controlled
AVIC USA and all are under the common
control of AVIC HQ. As a result, AVIC USA
breached the SWE Agreement by its Affiliates
engaging in the “Business” of SWE.
Final Award at pp. 12-13.
The Panel found an ambiguity in reading Sections
6.10, 6.11, and 6.12, along with other provisions, in an
attempt to define the exclusivity of the parties’
Agreement on conducting wind energy-related “Business”. In reading the Agreement’s provisions together,
the Panel found that “[t]he SWE Agreement requires
Members and their Representatives and Affiliates to
conduct the ‘Business’ of SWE solely through SWE or
its Controlled Companies.” There is no citation to any
specific section of the Agreement as the basis for this
finding and AVIC USA never identifies any liability
finding by the Panel based specifically on a breach of
Section 6.10. In fact, the Panel’s determinations make
it clear that other provisions also prohibited Members
and Affiliates from competing with SWE Business,
and these could arguably have provided the basis for
the liability determination. The Court’s review of the
award reveals that the Panel simply did not make the
liability determination as to AVIC USA as it has
alleged. This argument does not support vacatur.
AVIC USA’s argument essentially amounts to
assertions that the Panel’s interpretation was flawed.
This Court may not second-guess the panel’s conclusions on any issues involving contract interpretation
in this very narrow review. See Am. Laser Vision, P.A.
v. Laser Vision Inst., L.L.C., 487 F.3d 255, 260 (5th
Cir. 2007), overruled on other grounds by Hall St.
Assocs., 552 U.S. at 584-86 (“We will not second-guess
multiple, implicit findings and conclusions underpin-

67a
ning the award. We do not decide if the award was free
from error.”); Executone, 26 F.3d at 1325 (the reviewing court considers only the arbitrators’ resulting
decision and “does not review the language used by,
or the reasoning of, the arbitrators in determining
whether their award draws its essence from the
contract.”); see also E. Associated Coal, 531 U.S. at 62
(“‘[A]s long as [an honest] arbitrator is even arguably
construing or applying the contract and acting within
the scope of his authority,’ the fact that ‘a court is
convinced he committed serious error does not suffice
to overturn his decision.’”); McKool Smith, P.C. v.
Curtis Int’l, Ltd., 650 F. App’x. 208, 211 (5th Cir.
2016)(“Under this [extraordinarily narrow] review, an
award may not be set aside for a mere mistake of
fact or law.”). This arbitration award clearly draws
its essence from the SWE Agreement, defining the
“Business” arrangement’s degree of exclusivity in
order to determine whether a breach occurred and by
whom, both of which were central issues to the
arbitration. See Timegate Studios, 713 F.3d at 802-803
(“[A]n arbitrator has not exceeded his powers unless
he has utterly contorted the evident purpose and
intent of the parties—the ‘essence’ of the contract,”
and the Court must confirm it even if in disagreement
with the panel’s interpretation.).
The Court cannot vacate the arbitration award on
these grounds.
C. Misconduct by the Arbitration Panel
AVIC USA contends the Panel engaged in misconduct in multiple instances, requiring the Court to
vacate the arbitration award.

68a
1. Did the Panel Ignore This Court’s
Previous Order?
Citing to this Court’s order in the Ascendant case,
AVIC USA argues that the Court “determined that the
panel had no authority to adjudicate whether Ascendant (or any other non-signatory, by extension) is bound
by the Agreement.” Nevertheless, AVIC USA argues
the Panel “impermissibly ignored this Court’s prior
ruling” in determining the Non-Signatories are the
alter egos of AVIC USA and therefore, “are bound by
the Agreement.” AVIC USA contends this disobedience of a court order constitutes misconduct which
prejudiced AVIC USA, and the award must be
vacated. See 9 U.S.C. § 10(a)(3) (grounds for vacatur of
award include “any other misbehavior by which the
rights of any party have been prejudiced”).
In the Ascendant case, the Court “declar[ed] that
Ascendant’s party status to the arbitration can only be
determined by a court, not an arbitrator” because nonsignatory Ascendant attacked the very existence of
any agreement to arbitrate with Tang or any other
respondent. Ascendant Renewable Energy Corp., Civ.
Action No. 3:14-CV-3314-K, 2015 WL 4713240, at *3.
The Court then declared that if an arbitration panel
did make a determination as to jurisdiction over or
party status of Ascendant, that decision would be owed
no deference and would not be “controlling on a court”
reviewing an arbitration award. Id. (Ascendant is not
a party to the instant case.)
Nowhere in that order did the Court prohibit or
forbid the Panel from making any determination
regarding jurisdiction over or party status of Ascendant in relation to the Agreement on any theory,
including alter ego. Furthermore, the Court also did
not declare or otherwise order that this Court must

69a
decide Ascendant’s party status before any arbitration
may proceed. The Court simply declared Ascendant’s
right for a court to “resolve whether an agreement to
arbitrate exists that would require Ascendant to
participate in the underlying arbitration,” and confirmed that if the Panel did make such a determination, the reviewing court would owe the Panel’s finding
no deference and would not be bound by it. The Court
did not opine or make any ruling as to whether an
agreement to arbitrate did indeed exist or whether
some alternative theory could bind Ascendant to
arbitrate; neither issue was before the Court in that
declaratory judgment action.
AVIC USA contends the Panel disobeyed the order
“[b]y taking the non-signatory alter ego question away
from this Court,” and this constitutes misconduct.
This argument is meritless as the Panel did not “take
away” this issue from the Court. Citing clear Fifth
Circuit precedent, the Court declared in the Ascendant
case that a reviewing court owes no deference to and
is not bound by any such finding by arbitrators. No
where did the Court order that the Panel could not
hear the issue of or make a determination regarding
the jurisdiction over and/or party status of Ascendant;
rather, the Court declared simply that an arbitrator’s
findings would not be binding on a reviewing court in
an instance where the existence of an agreement to
arbitrate was in dispute. The Panel did not ignore this
Court’s order in the Ascendant case.
The Court concludes AVIC USA did not establish
the Panel committed any misconduct under this
theory, therefore the Court cannot vacate the arbitration award on this basis.

70a
2. Did the Panel Make Adverse Inferences
Against AVIC USA?
AVIC USA also argues the arbitration panel committed misconduct when it made “adverse inferences
against AVIC USA based solely on the non-signatories’
absence from the arbitration.” Again citing the order
in the Ascendant case, AVIC USA claims the Court
“rul[ed] that the non-signatories had no obligation to
participate in the [arbitration] proceedings” yet, the
Panel determined the Non-Signatories’ participation
was required and, when they did not participate,
punished AVIC USA.
As previously discussed, the Court did not rule or
otherwise determine in the Ascendant case that the
Non-Signatories were not required to participate in
the arbitration as AVIC USA alleges. Ascendant,
which is not a party to the instant action, was the only
Non-Signatory to appear in that declaratory judgment
action. The Court declared Ascendant’s rights under
the controlling law, specifically that it was for a court,
not an arbitrator, to decide Ascendant’s party status
because it attacked the existence of any agreement to
arbitrate with Tang or any other party, and, if the
arbitrator did make such a determination, it would not
be controlling on a court reviewing the arbitration
award. There was never a ruling from this Court that
Ascendant, the only non-signatory to appear before it,
had no obligation to participate in the arbitration
proceedings, as AVIC USA claims. That issue was not
before the Court. AVIC USA has misconstrued or
misinterpreted the Court’s ruling in the Ascendant
case, and this argument fails to the extent the
“adverse inference” argument relies on this misinterpretation.

71a
AVIC USA contends that it was “punished” by the
Panel when they found AVIC USA liable based on
adverse inferences the Panel made as a result of the
Non-Signatories’ refusal to participate. AVIC USA
alleges the damages award is at least some indication
of how “the panel’s ‘adverse’ view of the evidence
affected its findings.” The only specific adverse inference AVIC USA references is the following sentence:
“As a result, the panel has opted to infer that Xu
Hang’s statement in CX 330 that AVIC International
has invested $50 USD million in wind power projects
in the United States is accurate without any additional evidence.” AVIC USA argues there was no
actual evidence to support any damages award and, in
fact, there was uncontested evidence rebutting Xu
Hang’s statement.
At the heart of this argument, AVIC USA is
ultimately complaining about: (1) the arbitration
panel’s decision to make an adverse inference pursuant to their authority under the AAA rules and
language in the SWE Agreement, as interpreted by the
Panel; and (2) the weight the Panel chose to give the
evidence. The Court cannot vacate the arbitration
award based on errors in interpretation or application
of the law, or mistakes in factfinding. See United
Paperworkers, 484 U.S. at 38; McKool Smith, 650 F.
App’x. at 211. Moreover, arbitrators have broad
discretion in making evidentiary rulings, and a court
generally does not review those rulings. Int’l Chem.
Workers Union v. Columbian Chems. Co., 331 F.3d
491, 497 (5th Cir. 2003)(citing Amalgamated Meat
Cutters & Butcher Workmen of N. Am. v. Neuhoff
Bros., 481 F.2d 817, 820 (5th Cir. 1973)(“[T]he
arbitrator has great flexibility and the courts should
not review the legal adequacy of his evidentiary
rulings.”)). AVIC USA did not meet its burden to

72a
establish the panel committed misconduct in this
instance to support vacatur of the award.
3. Did the Panel Improperly Determine
Non-Signatories Participated in Arbitration?
AVIC USA claims the Panel committed misconduct
in making adverse inferences based on the NonSignatories’ “willful disobedience” in their selective
participation in the arbitration discovery. This argument relates to AVIC USA’s previous argument
regarding the Panel’s adverse inferences. Here, AVIC
USA argues the Panel’s basis for the adverse inferences, the Non-Signatories’ “willful disobedience”,
constitutes misconduct.
It is well-established that “‘as long as [an honest]
arbitrator is even arguably construing or applying the
contract and acting within the scope of his authority,’”
the reviewing court must affirm the award. E. Associated Coal, 531 U.S. at 62 (internal citations omitted).
In Paragraph 128 of the award, the Panel noted the
authority upon which they relied in drawing the
adverse inferences, including language from the
Agreement. The Court cannot conclude that the Panel
exceeded their powers by “utterly contort[ing] the evident purpose and intent of the parties—the ‘essence’
of the contract.” See Timegate Studios, 713 F.3d at
802-03. AVIC USA failed to meet its burden to prove
the panel committed misconduct to justify vacatur of
the award.
D. Panel Exceeding Its Powers
AVIC USA argues the arbitration panel exceeded its
powers in awarding damages and attorneys’ fees
which are expressly prohibited by the Agreement, and

73a
in exercising jurisdiction over the derivative SWE
claims.
The arbitrators’ powers and authority are “dependent on the provisions under which the arbitrators were
appointed.” Brook, 294 F.3d at 672 (internal quotations omitted). In deciding whether an arbitrator has
exceeded his powers, the court looks to “whether the
arbitrator’s award ‘was so unfounded in reason and
fact, so unconnected with the wording and purpose
of the [contract] as to “manifest an infidelity to the
obligation of an arbitrator.”’” Timegate Studios, 713
F.3d at 802 (quoting Bhd. of R.R. Trainmen, 415 F.2d
at 412). “[A]n arbitrator has not exceeded his powers
unless he has utterly contorted the evident purpose
and intent of the parties—the ‘essence’ of the contract.” Id. at 802-03. It is well-established that “‘as
long as [an honest] arbitrator is even arguably
construing or applying the contract and acting within
the scope of his authority,’ the fact that ‘a court is
convinced he committed serious error does not suffice
to overturn his decision.’” E. Associated Coal, 531 U.S.
at 62 (internal citations omitted).
1. Did the Panel Award Damages Expressly
Prohibited by the Agreement?
AVIC USA contends the Panel’s award of $62.9
million in lost profits violates specific language of the
Agreement which prohibits consequential, speculative, and remote damages; therefore, the panel exceeded their powers.
In support of its argument, AVIC USA cites to
Section 17.10 of the Agreement which provides:
17.10 No Consequential or Punitive Damages. IN NO EVENT SHALL ANY MEMBER
OR ANY OF ITS RESPECTIVE REPRE-

74a
SENTATIVES OR AFFILIATES BE LIABLE
TO THE COMPANY OR TO ANY OTHER
MEMBER OR ITS REPRESENTATIVES OR
AFFILIATES FOR ANY EXEMPLARY,
PUNITIVE, SPECIAL, INDIRECT, CONSEQUENTIAL, REMOTE OR SPECULATIVE
DAMAGES.
SWE Agreement at p. 55, ¶ 17.10. AVIC USA first
argues that this damages award constitutes consequential damages as Delaware law clearly provides
that “lost profits” are consequential damages. (SWE is
a Delaware limited liability company.) What AVIC
USA fails to clarify is that well-established Delaware
law provides that “lost profits” on “collateral business
arrangements” are considered consequential damages.
See eCommerce Indus., Inc. v. MWA Intelligence, Inc.,
C.A. No. 7471-VCP, 2013 WL 5621678, at * 47 (Del.
Ch. Sept. 30, 2013)(quoting Tractebel Energy Mktg.,
Inc. v. AEP Power Mktg., Inc., 487 F.3d 89, 109 (2d Cir.
2007)). “By contrast, lost profits are not considered
consequential damages when ‘profits are precisely
what the non-breaching party bargained for, and only
an award of damages equal to lost profits will put the
non-breaching party in the same position he would
have occupied had the contract been performed.’”
eCommerce Indus., C.A. No. 7471-VCP, 2013 WL
5621678, at *47 (principle applies in context of noncompete provision which was central to the nonbreaching party’s bargained-for agreement).
In making this award, the Panel clearly stated that
these “lost profit” damages were the direct result of the
breach of the parties’ Agreement not to compete
directly on wind power project(s). This breach was not
related to a “collateral business arrangement”, but
was, at the least, a very important part of what the

75a
parties bargained for in this Agreement. See id. (“With
respect to a non-compete provision or agreement, I
conclude that the profits of the product line or business
that is being protected from competition constitute the
benefit for which the protected party bargained.
Furthermore, lost profits on the part of the nonbreaching party are the direct and natural consequence of breaching a non-compete provision.”). The
Court disagrees that Delaware law automatically
categorizes these damages as consequential and finds
AVIC USA did not establish the Panel exceeded their
authority.
AVIC USA next argues the “lost profits” award is
“wholly speculative” because it is based solely on
adverse inferences whereas the “actual unrebutted
evidence” establishes there was no such investment.
As the Court discussed supra, AVIC USA did not meet
its burden related to its adverse inferences arguments.
AVIC USA’s argument that the award was purely
speculative because it is based on these adverse inferences must fail. The Panel indicated in the arbitration
award the “lost profits” damages arose from breach of
the Agreement, and included how they arrived at it in
light of the Agreement and the evidence they considered. The Court cannot agree with AVIC USA that this
award was “wholly speculative” or a “complete guess”.
The Court concludes that the award draws its
essence from the Agreement. See Timegate Studios,
713 F.3d at 802 (irrelevant whether reviewing court
disagrees with the arbitrator’s interpretation of the
contract); Executone, 26 F.3d at 1325. Accordingly,
AVIC USA failed to meet its burden to establish the
Panel had no authority under the Agreement to award
these damages, thereby exceeding their powers and
requiring vacatur.

76a
2. Did the Panel Award Punitive or Special
Damages by Divesting AVIC USA’s
Interest in SWE?
Next, AVIC USA argues the Panel exceeded its
powers in divesting AVIC USA of its interest in SWE
because this amounts to punitive or exemplary damages which are expressly prohibited under the Agreement. AVIC USA also argues the divestiture of its
interest in SWE was “patently unreasonable” because
the Panel expressly found that AVIC USA itself did
not breach the Agreement.
As with the previous argument, the Court cannot
agree that divesting AVIC USA of its interest in SWE
was punitive or special damages. The Panel did not
characterize the divestiture as “punitive” or “special”
damages in the award, and AVIC USA provides no
persuasive argument or case law establishing such a
divestiture is considered punitive or special damages.
In Executone, the Fifth Circuit reaffirmed it prior
holding that the arbitrators’ choice of remedy is
afforded more deference than their interpretation of
the contract. Executone, 26 F.3d at 1325; see also
Timegate, 713 F.3d at 803. “‘The single question is
whether the award, however arrived at, is rationally
inferable from the contract.’” Executone, 26 F.3d at
1325 (quoting Anderman/Smith Operating Co. v.
Tenn. Gas Pipeline Co., 918 F.2d 1215, 1219 n. 3 (5th
Cir. 1990)). A remedy is outside the arbitrators’ jurisdiction only where “there is no rational way to explain
the remedy handed down by the arbitrator as a logical
means of furthering the aims of the contract.”
Executone, 26 F.3d at 1325 (internal quotations
omitted). The Panel determined the lost profits award
of $62.9 million was due to SWE for distribution to its
Members. The Panel also noted that the divestiture

77a
was necessary to prevent AVIC USA, a member of
SWE, from profiting from the breach of the SWE
Agreement. The Court finds the divestiture is rationally inferable from the SWE Agreement, therefore it
meets the “essence” test. See Executone, 26 F.3d at
1325. Accordingly, AVIC USA failed to meet its burden
to establish the panel had no authority under the
Agreement to award these damages, thereby exceeding their powers and requiring vacatur.
3. Did the Panel Improperly Award Attorneys’ Fees to SWE?
AVIC USA contends the Panel exceeded its authority in awarding TEG past and future attorneys’ fees
along with costs against AVIC USA. On this point,
AVIC USA makes three specific arguments. First,
although the Agreement allows “prevailing Members”
to recover court costs, fees, and expenses, including
attorneys’ fees, AVIC USA argues the Agreement
specifically requires the arbitrators to “determine that
compelling reasons exist for allocating all or a portion
of such costs and expenses to one or more than
Disputing Members.” Because the Panel did not make
this determination or identify compelling reasons for
this allocation, AVIC USA contends the award must
be vacated.
In allocating attorneys’ fees and arbitration expenses, the Panel cites to Section 13.4 of the Agreement
which provides that the “prevailing Members . . . shall
be entitled to recover from the other Member or
Members . . . all court costs, fees and expenses of such
arbitration, including reasonable attorneys’ fees.”
AVIC USA does not dispute that the Agreement allows
for the recovery of attorneys’ fees and expenses.
Instead, AVIC USA takes aim at the Panel’s failure to
reference Section 13.3(k) which, according to AVIC

78a
USA, requires the panel to identify a “compelling”
reason in order to award attorneys’ fees and costs
against another Disputing Member. This argument
attacks the Panel’s interpretation of the Agreement
and their authority under the specific section addressing allocation of these costs. The Court may not vacate
the award on these grounds. Timegate Studios, 713
F.3d at 802.
Second, AVIC USA argues the allocated fees and
expenses must be from a “Disputing Member” to
another “Disputing Member”. AVIC USA asserts that
SWE was award the damages, but SWE is not a “Disputing Member”, and the fees and costs were awarded
to TEG, a “Disputing Member”; yet, the Panel made no
finding as to whether the costs and fees being allocated
were TEG’s or SWE’s. This argument centers on an
interpretation of the Agreement which is within the
panel’s jurisdiction. This Court will not, and cannot,
second-guess the panel’s reasons for allocating the
attorneys’ fees and expenses as it did. Even if the
Court disagreed with the panel’s interpretation of the
Agreement, the Court cannot vacate an award on this
basis. Timegate Studios, 713 F.3d at 802.
As a final argument on fees and expenses, AVIC
USA contends no “Disputing Member” prevailed over
AVIC USA. This argument hinges in part on AVIC
USA’s earlier argument in Section III.B regarding
liability based on a rewriting of Section 6.10. The
Court has already concluded that argument fails;
therefore to the extent this argument relies on vacatur
under that Section 6.10 argument, it too fails. AVIC
USA argues alternatively that regardless of that prior
argument, TEG is still not a prevailing party because
all but one of its claims were dismissed and TEG
recovered less than 1% of the damages it sought. As

79a
with the previous arguments, this argument attacks
the Panel’s interpretation of “prevailing party” as
defined and used in the Agreement. AVIC USA simply
disagrees with the Panel’s conclusion. This argument
does not provide a basis for vacating the arbitration
award. See id.
4. Did the Panel Fail to Account for Any
Return on the Investment?
AVIC USA argues any damages award should have
included a deduction for AVIC USA’s return on
investment (“ROI”) for wind development projects
pursuant to the terms of the Agreement. AVIC USA
contends it was entitled to some amount of ROI
deduction for the capital contribution it would have
made and because there is no way to determine the
specific amount (as it was undefined in the
Agreement), the entire award is speculative and in
violation of the Agreement’s provisions.
As stated previously many times, this Court is very
limited it is review of the arbitration award. The
Court may review only “whether the award, however
arrived at, is rationally inferable from the contract.”
Executone, 26 F.3d at 1325 (internal quotations
omitted). “[P]erhaps most importantly, even if the arbitrators incorrectly calculated the damage award, an
arbitrator’s erroneous interpretation of law or facts is
not a basis for vactur of an award.” Pfeifle v. Chemoil
Corp., 73 F. App’x 720, 722-722 (5th Cir. 2003). The
law is clear on this and AVIC USA’s argument fails.
Any error in failing to account for an ROI does not
provide a basis for the Court to vacate this award.

80a
5. Did the Panel Improperly Assert Jurisdiction Over Derivative SWE Claims?
In its final argument for vacatur, AVIC USA asserts
the Panel exceeded its powers in allowing TEG to
intervene on SWE’s behalf and because SWE was not
a proper party to the arbitration, the $62.9 million
awarded to SWE must be vacated. Specifically, AVIC
USA argues that the Agreement requires a Supermajority (>66%) of Class A membership interests to
approve any decision outside the ordinary course of
SWE’s business. Because AVIC USA owned 50% of the
Class A membership interests, it was necessarily
required to agree to SWE’s participation in the arbitration, but TEG never sought or secured AVIC USA’s
consent. Therefore, SWE’s motion to intervene should
have been denied and the award should be vacated.
AVIC USA’s argument is essentially this—because
AVIC USA did not authorize this legal action against
itself, the Panel exceeded it powers in permitting
SWE to intervene, and therefore this award must be
vacated. While this argument is absurd, it ultimately
fails just as numerous of its other arguments. AVIC
USA objected on these same grounds during arbitration when SWE petitioned to intervene; the Panel,
however, decided SWE was a proper party to the
arbitration because “[t]he management committee of
SWE took action in accordance with article VI of the
SWE Agreement authorizing SWE’s claims.” The
Panel clearly interpreted the Agreement in ruling that
SWE was a proper claimant with standing and was
permitted to intervene. The Court must affirm the
award “as long as the arbitrator’s decision ‘draws its
essence’ from the contract”, resolving all doubts in
favor of arbitration. Timegate, 713 F.3d at 802. AVIC
USA failed to meet its burden to prove that the Panel

81a
exceeded their powers in “utterly contort[ing] the
evident purpose and intent of the parties—the
‘essence’ of the contract.” See id. at 802-803. The Court
concludes the Panel’s decision draws its essence from
the Agreement, and therefore, the award may not be
vacated on these grounds. See Anderman/Smith, 918
F.2d at 1219 n.3.
IV. Conclusion
For the reasons previously stated, the Court
GRANTS the Movants’ motion to confirm the arbitration award, and DENIES AVIC USA’s motion to
vacate the arbitration award. The arbitration award
dated December 21, 2015 is hereby confirmed as to
Respondent AVIC International USA, Inc. The Court
will issue a separate final judgment.
SO ORDERED.
Signed August 9th, 2018.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

82a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
[September 17, 2018]
————
Civil Action No. 3:15-CV-4033-K
————
SOARING WIND ENERGY, LLC, TANG ENERGY
GROUP, LTD., THE NOLAN GROUP, INC.,
MARY YOUNG (INDIVIDUALLY AND AS
INDEPENDENT EXECUTRIX OF THE ESTATE
OF KEITH P. YOUNG), MITCHELL W. CARTER,
and JAN FAMILY INTERESTS LTD.,
v.

Movants,

CATIC USA, INC. (a.k.a. AVIC
INTERNATIONAL USA, INC.),
Respondent.
————
AMENDED FINAL JUDGMENT
This Amended Final Judgment is entered pursuant
to the Court’s Order Confirming Arbitration Award of
August 9, 2018, in which the Court granted the
Movants’ motion to confirm the arbitration award, and
denied Respondent’s motion to vacate the arbitration
award. It is ORDERED, ADJUDGED and DECREED
that the arbitration award dated December 21, 2015 is
hereby confirmed as to Respondent AVIC International USA, Inc. (“AVIC USA”). There are no further
pending claims in this case.

83a
It is ORDERED that:
1. The Court confirms the award to Soaring Wind
Energy, LLC (“SWE”) of damages against AVIC
USA, in the total amount of $62,900,000.00 USD,
less AVIC USA’s capital contribution in SWE, plus
post judgment interest at the rate of 5% per year,
beginning from December 21, 2015.
2. The Court confirms the award to Tang Energy
Group, Ltd. (“Tang”) against AVIC USA,
$897,730.72 USD for fees paid directly to the
AAA/ICDR for administrative fees and arbitrator
compensation.
3. The Court confirms the award to Tang against
AVIC USA of $3,719,533.23 USD in reasonable
attorneys’ fees and expenses as of December 21,
2015.
4. The Court confirms the award to Tang against
AVIC USA of $1,200,000.00 USD in legal fees and
expenses Movants would reasonably incur in the
event Movants are required to obtain a judgment
confirming the arbitration award and effect service
on multiple defendants through the Hague Convention.
5. The Court confirms the award to Tang against
AVIC USA of $500,000.00 USD in legal fees and
expenses that Movants will reasonably incur if
they are required to attempt collection of the
arbitration award.
6. The Court confirms the award to Tang against
AVIC USA of $250,000.00 USD in legal fees and
expenses in the event Movants are successful in
any appeal of this Court’s judgment confirming the
arbitration award.

84a
6. The Court confirms the award to Tang against
AVIC USA of $50,000.00 USD in legal fees and
expenses in the event Movants are required to
respond to a petition for writ of certiorari to the
United States Supreme Court.
7. The Court confirms the award to Tang against
AVIC USA of $150,000.00 USD in legal fees and
expenses in the event the United States Supreme
Court grants review and Movants are successful.
8. The Court confirms the award to Tang against
AVIC USA of $1,875,264.71 USD for Tang’s
arbitration expenses including without limitation,
experts’ fees and expenses, all costs associated
with depositions, mediation, arranging facilities,
graphics, and trial consultation.
9. The Court confirms the award that AVIC USA’s
membership interest in SWE is divested and
belongs to Tang, Jan Family Interests, Ltd. (“JFI”),
The Nolan Group (“Nolan”), Mitchell W. Carter
(“Carter”) and Keith P. Young (“Young”) in proportion to their ownership interests in SWE.
Furthermore, it is ORDERED, ADJUDGED and
DECREED that all costs of court are taxed against the
party incurring the same.
SO ORDERED.
Signed September 17th, 2018.
/s/ Ed Kinkeade
ED KINKEADE
UNITED STATES DISTRICT JUDGE

85a
APPENDIX H
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed February 4, 2020]
————
No. 18-11192
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY
GROUP, LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually and
as the Independent Executrix of the Estate
of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees
versus
CATIC USA INCORPORATED, also known as
AVIC INTERNATIONAL USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED,
Defendants-Appellants
————
Appeal from the United States District Court
for the Northern District of Texas
————
ON PETITION FOR REHEARING EN BANC
(Opinion 1/7/2020, 5 Cir.,
F.3d

,
)

86a
Before DAVIS, SMITH, and COSTA, Circuit Judges.
PER CURIAM:
()

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition
for Panel Rehearing is DENIED. No member of
the panel nor judge in regular active service of
the court having requested that the court be
polled on Rehearing En Banc (FED. R. APP. P.
and 5TH CIR. R. 35), the Petition for Rehearing
En Banc is DENIED.

( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified
not having voted in favor (FED. R. APP. P. and
5TH CIR. R. 35), the Petition for Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Jerry Smith
UNITED STATES CIRCUIT JUDGE

87a
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W CACE
TEL. 504-301-7700
CLERK
600 S. MAESTRI PLACE
Suite 115
NEW ORLEANS, LA 70130
February 04, 2020
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 18-11192 Soaring Wind Energy, L.L.C., et al
v. Catic USA Incorporated, et al
USDC No. 3:15-CV-4033
Enclosed is an order entered in this case.
See FRAP and Local Rules 41 for stay of the mandate.
Sincerely,
LYLE W. CAYCE, Clerk
By: /s/Mary Frances Yeager
Mary Frances Yeager, Deputy Clerk
504-310-7686
Mr. Peter J. Anthony
Mr. Gregory Richardson Ave
Mr. Cedric C. Chao
Mr. John Thomas Cox III
Mr. David T. Denney
Mr. Charles E. Fowler Jr.
Mr. Mauricio Gonzalez
Mr. Matthew Jaynes
Mr. Lewis T. LeClair
Mr. Jeffrey Scott Lowenstein
Ms. Isabelle Louise Ord
Ms. Deborah Michelle Perry
Ms. Kristin Anne Regel
Mr. Richard Salgado

88a
APPENDIX I
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed February 12, 2020]
————
No. 18-11192
D.C. Docket No. 3:15-CV-4033
————
SOARING WIND ENERGY, L.L.C.; TANG ENERGY
GROUP, LIMITED; THE NOLAN GROUP INCORPORATED;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; MARY M. YOUNG, Individually and
as the Independent Executrix of the Estate
of Keith P. Young, Jr., Deceased,
Plaintiffs-Appellees
v.
CATIC USA INCORPORATED, also known as
AVIC INTERNATIONAL USA, Incorporated;
AVIC INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED,
Defendants-Appellants
————
Appeals from the United States District Court for the
Northern District of Texas
————
Before DAVIS, SMITH, and COSTA, Circuit Judges.

89a
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed.
IT IS FURTHER ORDERED that appellants pay to
appellees the costs on appeal to be taxed by the Clerk
of this Court.
[SEAL]
Certified as a true copy and issued
as the mandate on Feb 12, 2020
Attest: /s/ Lyle W. Cayce
Clerk, U.S. Court of Appeals, Fifth Circuit

90a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed February 12, 2020]
————
No. 18-11192
————
SOARING WIND ENERGY, L.L.C.; TANG
ENERGY GROUP, LIMITED; THE NOLAN GROUP
INCORPORATED; MITCHELL W. CARTER; JAN
FAMILY INTERESTS, LIMITED; MARY M. YOUNG,
Individually and as the Independent Executrix
of the Estate of Keith P. Young, Jr., Deceased,
Plaintiffs–Appellees,
versus
CATIC USA INCORPORATED, Also Known as
AVIC International USA, Incorporated; AVIC
INTERNATIONAL HOLDING CORPORATION;
AVIC INTERNATIONAL RENEWABLE ENERGY
CORPORATION; AVIATION INDUSTRY CORPORATION
OF CHINA; CHINA AVIATION INDUSTRY GENERAL
AIRCRAFT COMPANY LIMITED,
Defendants–Appellants.
————
Appeals from the United States District Court
for the Northern District of Texas
————
Catic USA,1 a California corporation with Chinese
corporate parentage, appeals the confirmation of an
1

Catic USA is also known as AVIC International USA.

91a
adverse arbitral award. Having determined that this
court has jurisdiction, we affirm: The arbitration panel
was fairly constituted and did not exceed its authority.
I.
A dispute among members of Soaring Wind Energy,
LLC (sometimes called “the LLC”), was submitted to
an arbitration panel, which awarded the LLC $62.9
million against Catic USA (and its AVIC-group
affiliates) and ordered that Catic USA be divested of
its shares in the LLC without compensation. A judgment of the district court confirmed that award. Catic
USA, joined by its various Chinese affiliates, appeals.
The origins of Soaring Wind Energy trace to 2007,
when representatives of Tang Energy Group (“Tang
Energy”) and Catic USA began talks of creating a
vehicle for wind-energy marketing and project development. They confirmed those talks in a Memorandum of Understanding, which the Soaring Wind
Agreement (the “Agreement”) superseded.
The Agreement created the LLC, whose “business”
would be “to provide worldwide marketing of wind
energy equipment, services and materials related to
wind energy, including, but not limited to, marketing
wind turbine generator blades and wind turbine
generators and developing wind farms.” Each member
agreed to “conduct activities constituting the Business
[only] in and through [Soaring Wind] and its Controlled subsidiaries.” Class A members agreed that
such prohibition extended to their affiliates.
The Agreement also outlined a procedure for resolving disputes. Under its terms, “any controversy,
dispute, or claim arising under or related to [the
Agreement],” after failed attempts at negotiation,
“shall be submitted to binding arbitration.” Each

92a
“Disputing Member”—defined as “each Member that
is a party to [the] Dispute”—would then have the
opportunity to name its own arbitrator. Those selected
as arbitrators would themselves choose an additional
arbitrator (or two additional arbitrators if necessary to
achieve an odd number). The panel would have the
authority “to grant injunctive relief and enforce
specific performance” and to issue a final, courtenforceable decision, though it would lack “authority
to award special, exemplary, punitive or consequential
damages.”
After years without Catic USA’s providing Soaring
Wind any financial support, a representative from
Tang Energy requested that one of Catic USA’s
Chinese AVIC-group affiliates2 help fund Soaring
Wind. An AVIC representative responded that “AVIC
International has already provided a total of 50
million USD in financing to wind power projects in the
US and will keep[] trying in the future.” Paul
Thompson—himself a Class B member of Soaring
Wind—served as president and CEO of one such
affiliate,3 through which the AVIC group appeared to

2

Two years after Catic USA signed the Agreement, its parent
company formed AVIC International Renewable Energy Corporation (“AVIC IRE”) as a majority-owned subsidiary. AVIC IRE’s
stated purpose, like Soaring Wind’s, included developing wind
power projects.
3

Thompson ran Ascendant Renewable Energy Corporation
(“Ascendant”), which itself funded at least one major wind farm
project to completion between 2011 and 2012. Ascendant was
formed as a wholly owned subsidiary of AVIC IRE.

93a
have invested millions of dollars in wind power project
development.4
Tang Energy subsequently demanded arbitration
against Catic USA, Thompson, and Catic USA’s nonsignatory corporate affiliates. Among other things,
Tang claimed that Catic USA had breached the Agreement through the actions of its Chinese corporate
affiliates. Tang named its arbitrator in its demand,
and the four remaining Class A members5 joined Tang
in the dispute and, accordingly, named their respective arbitrators. Catic USA and Thompson answered
Tang’s demand and named their own arbitrators, but
Catic USA’s non-signatory Chinese affiliates refused
to participate in the arbitration. As the Agreement
required, the seven selected arbitrators then collectively appointed two more.
Catic USA and Thompson preemptively sued the
claimants in federal court, seeking a declaratory
judgment that the panel was improperly constituted.6
Specifically, they claimed both that fundamental
fairness and the Agreement required each side of the
dispute to select an arbitrator, who would then select
a third and final arbitrator. The district court
dismissed those claims for lack of subject matter
4

The arbitration panel found that AVIC IRE or its
subsidiaries had developed at least five wind turbine projects in
the United States, with additional projects located abroad.
5

Appellees Young, Carter, Jan Family Interests, and the
Nolan Group.
6

One of Catic USA’s non-signatory affiliates also preemptively
sued the claimants, successfully obtaining a judgment declaring
that its “party status to the arbitration [could] only be determined
by a court, and not an arbitrator . . . .” Ascendant Renewable
Energy Corp. v. Tang Energy Grp., Ltd., No. 3:14-CV-3314-K,
2015 U.S. Dist. LEXIS 103518, at *8 (N.D. Tex. Aug. 4, 2015).

94a
jurisdiction under the FAA.7 Catic USA and Thompson
made similar arguments before the arbitration panel,
which determined for itself that it was constituted
according to the Agreement’s unambiguous terms.
After a five-day hearing, the arbitration panel
issued its final award in favor of the claimants. The
panel determined that “Catic USA breached the
[Soaring Wind] Agreement by its Affiliates engaging
in the ‘Business’ of [Soaring Wind Energy].” It further
found that the AVIC group, including Catic USA,
“operate[d] as one entity” and that “AVIC HQ and its
wholly owned subsidiaries created additional subsidiaries in an attempt to get around its promises made in
the [Soaring Wind] Agreement to Claimants.” The
panel concluded that Catic USA and its non-signatory
Chinese affiliates should be held “jointly and severally
liable to [Soaring Wind] in the amount of $62.9 USD
million” in lost profits owed to the LLC.8
The arbitration panel noted that “[t]he lost profits
set forth in [its] award are due to [Soaring Wind
Energy] for distribution to the Claimants through
their percentages set forth in the [Soaring Wind]
Agreement.” The panel did not, however, stop at
ordering that Catic USA pay the monetary damages:
“[I]n order to prevent [Catic] USA and Thompson from
profiting from their breaches of the [ ] Agreement,” the
panel wrote, “they should be prohibited from receiving
7

AVIC Int’l USA, Inc. v. Tang Energy Grp., Ltd., No. 3:14-CV2815-K, 2015 U.S. Dist. LEXIS 13968 (N.D. Tex. Feb. 5, 2015),
aff’d, 614 F. App’x 218 (5th Cir. 2015) (per curiam).
8

The panel arrived at that amount by accepting AVIC IRE’s
vice president’s admission that the AVIC group had invested $50
million in wind power projects in the United States. At an
anticipated 15% rate of return, the discounted present value of
the $50 million investment was $62.9 million.

95a
any profit from any award to [Soaring Wind].” Thus,
in addition to the $62.9 million damages, the panel
ordered that “[Catic] USA and Thompson’s equity
interest in [Soaring Wind] should be divested . . . .”9
The claimants sought judicial confirmation of the
arbitral award against Catic USA and its Chinese
affiliates. At the claimants’ request, the district court
bifurcated the proceedings, staying the case against
the Chinese entities.10 The court then confirmed the
award in its entirety against Catic USA.
Catic USA and its Chinese affiliates appeal.
II.
“[C]ourts, including this Court, have an independent
obligation to determine whether subject-matter jurisdiction exists . . . .” Arbaugh v. Y&H Corp., 546 U.S.
500, 514 (2006). Accordingly, we requested nostra
sponte that the parties address federal subject-matter
jurisdiction under either complete diversity or the
New York Convention (“NY Convention”).11
The parties vainly try to taint each other’s
assertions with those made in the district court. Catic
USA notes that “diversity jurisdiction,” not jurisdiction under the NY Convention, “is the only basis for
jurisdiction” that the plaintiffs had invoked. Similarly,
the plaintiffs highlight that, although Catic USA
contends that jurisdiction is lacking on appeal, it
9

The panel allowed Catic USA a $350,000 credit for its initial
capital contribution to Soaring Wind.
10

That case, relating most importantly to the Chinese entities’
joint and several liability for Catic USA’s damages, remains
stayed pending the resolution of this appeal.
11

“The Convention on the Recognition and Enforcement of
Foreign Arbitral Awards,” 9 U.S.C. §§ 201 et seq.

96a
invoked the NY Convention when seeking declaratory
judgment before arbitration. Those points are irrelevant, as “[i]t is well settled . . . that the subject matter
jurisdiction of a federal court can be challenged at any
stage of the litigation (including for the first time on
appeal), even by the party who first invoked it.”
Randall & Blake, Inc. v. Evans (In re Canion), 196
F.3d 579, 585 (5th Cir. 1999).
Attempting to sidestep that maxim, the plaintiffs
characterize jurisdiction under the NY Convention—
here, whether a legal relationship bears a “reasonable
relation” to a foreign state—as a “jurisdictional fact”
capable of party admission. But what should amount
to a “reasonable relation” under 9 U.S.C. § 202 is
patently a question of law, not of fact. Catic USA could
certainly admit facts—such as the existence of its
Chinese affiliates or of projects Soaring Wind contemplated abroad—and those binding facts might be
decisivein a jurisdictional inquiry. See State Farm Fire
& Cas. Co. v. Flowers, 854 F.3d 842, 845 (5th Cir.
2017). A party is not, however, bound by its previous
legal arguments as to jurisdiction. See Canion, 196
F.3d at 585.
The district court did not address whether there is
complete diversity, but it appears to have assumed,
without explanation, the applicability of the NY
Convention. We examine de novo the presence of
federal subject-matter jurisdiction, Pershing, LLC v.
Kiebach, 819 F.3d 179, 181 (5th Cir. 2016), keeping in
mind that its absence would require dismissal,
Arbaugh, 546 U.S. at 506.
A.
For the district court to have diversity jurisdiction
under 28 U.S.C. § 1332, “all persons on one side of the

97a
controversy [must] be citizens of different states than
all persons on the other side” at the time the complaint
was filed. Harvey v. Grey Wolf Drilling Co., 542 F.3d
1077, 1079 (5th Cir. 2008). Catic USA is a California
corporation. It is undisputed that, as of the initiation
of the arbitration, Catic USA was a member of Soaring
Wind, LLC, and because, for diversity jurisdictional
purposes, “the citizenship of a LLC is determined by
the citizenship of all of its members,” id. at 1080,
Soaring Wind was at least at that point a citizen of
California.
The arbitration panel purported to divest Catic USA
of its membership interest in Soaring Wind. The
question is whether that decision alone—absent
subsequent judicial confirmation—effected Catic
USA’s termination from Soaring Wind and, consequently, Soaring Wind’s loss of California citizenship.
If not, this court would lack diversity jurisdiction.
Catic USA contends that diversity jurisdiction is
lacking because the arbitral award divesting it of its
membership in Soaring Wind had no legal effect
pending court confirmation. The plaintiffs respond
that, under the freedom of contract recognized under
Delaware law, the Agreement must be interpreted as
granting the arbitration panel “final, binding”
authority to terminate Catic USA’s membership in the
LLC.
Plaintiffs’ focus on Delaware’s freedom of contract
misses the point. The question is not whether the
Agreement granted the arbitration panel authority to
issue an award divesting Catic USA of membership.
Even assuming the panel did have such authority, it
is an entirely separate question whether the panel’s
decision had immediate legal effect.

98a
It did not. It is well settled that, absent voluntary
compliance, an arbitral award requires judicial confirmation to effect a change in legal status.12 Plaintiffs’
attempt to characterize the “final, binding” authority
of the panel as including coercive legal authority is
unpersuasive. Such commonly used terms “merely
reflect a contractual intent that the issues joined and
resolved in the arbitration may not be tried de novo in
any court.” M & C Corp. v. Erwin Behr GmbH & Co.,
87 F.3d 844, 847 (6th Cir. 1996). They do not grant
arbitrators “the coercive power to enforce the award”
without being first “transformed into a judgment,
which can be executed with the enforcement mechanism of the state.” Schlumberger, 195 F.3d at 220.
That an arbitral award be “final” does not obviate the
need for judicial confirmation; it only allows for such
confirmation.13
Granted, parties may contract to change membership in an LLC without court approval. It is entirely
different, however, when parties seek an involuntary
termination of membership. Plaintiffs acknowledge
that “a judgment would be needed, for example, to
enforce a damages award by levying the judgment
debtor’s assets.” But equity interest in an LLC is also

12

Schlumberger Tech. Corp. v. United States, 195 F.3d 216,
220 (5th Cir. 1999); see also Mulhall v. UNITE HERE Local 355,
618 F.3d 1279, 1293 (11th Cir. 2010); D.H. Blair & Co. v.
Gottdiener, 462 F.3d 95, 104 (2d Cir. 2006); Suter v. Munich
Reins. Co., 223 F.3d 150, 156 (3d Cir. 2000); Camping Constr. Co.
v. Dist. Council of Iron Workers, 915 F.2d 1333, 1347–48 (9th Cir.
1990).
13

See Grissom v. Nationwide Mut. Ins. Co., 599 A.2d 1086,
1090 (Del. Ch. 1991) (“The general rule is that an Arbitration
Award may be confirmed only if it is a final decision.”).

99a
an asset, an involuntary transfer of which no arbitrator may effect without judicial confirmation.
The plaintiffs are correct that the Agreement does
not mandate judicial review of arbitration awards.
Indeed, it specifies that an arbitral award “may be
filed in any court of competent jurisdiction and may
be enforced by any Disputing Member as a final
judgment of such court.” But the “optional” nature of
judicial review here does not mean, as plaintiffs
contend, that the arbitral award has inherent legal
effect. Instead, judicial confirmation would be unnecessary (or “optional”) should all parties voluntarily
acquiesce to the award. Catic USA has not done so,
which is precisely why plaintiffs seek judicial
confirmation.
B.
Even without diversity of citizenship, this court
would have jurisdiction should this case relate to an
arbitration agreement or award “falling under” the NY
Convention.14 It is undisputed that the action to confirm the award “relates to” the award; the question is
whether that award “falls under” the Convention. An
“arbitral award arising out of a legal relationship”
between U.S. citizens falls under the Convention if
that “relationship involves property located abroad,
envisages performance or enforcement abroad, or has
some other reasonable relation with one or more
foreign states.”15

14

9 U.S.C. § 203; see also Stemcor USA Inc. v. CIA Siderurgica
do Para Cosipar, 927 F.3d 906, 909 (5th Cir. 2019) (on pet. for
reh’g).
15

9 U.S.C. § 202; see also Freudensprung v. Offshore Tech.
Servs., Inc., 379 F.3d 327, 339–40 (5th Cir. 2004).

100a
Catic USA contends that the Agreement does not
involve property abroad and does not reasonably
relate to a foreign state. Catic USA suggests that this
court remand with instruction to determine whether
its non-signatory Chinese corporate affiliates were
party to the Agreement and whether the agreement
contemplated performance abroad. If the answer to
both questions be no, then there would be no subject
matter jurisdiction.
The plaintiffs respond that the Agreement has a
reasonable relation to China. They note that Catic
USA is a subsidiary of AVIC IHC, which is itself a
subsidiary of AVIC HQ—a state-owned enterprise of
the People’s Republic of China. They further note the
arbitrators’ finding that “AVIC HQ exercised such
complete control” over Catic USA so that the two
companies “operate[d] as one entity,” and “[w]hen
[Catic] USA signed the [Soaring Wind] Agreement, it
was doing so on orders from AVIC HQ.” According to
the plaintiffs, “the Chinese entities’—and Chinese
state’s—involvement pervaded the parties’ relationship,” conferring jurisdiction under the Convention.
There is no question that the relationship among the
parties broadly relates to China. Tang Energy had
partnered with AVIC HQ16 on projects within Chinese
territory from 1997 through the mid-2000s. The
success of those projects inspired them to create
Soaring Wind, conceived as a partnership between
Tang and AVIC HQ’s U.S. subsidiary. The preAgreement Memorandum of Understanding envisioned that 9.5% of Soaring Wind’s equity would be
owned by AVIC HQ, whose “offices and employees in
16

At the time, the Chinese umbrella AVIC organization was
known as “Catic.”

101a
China [would] be available for support as needed.”17
An AVIC HQ vice president—who held no position in
Catic USA—signed that Memorandum on Catic USA’s
behalf. Following the creation of Soaring Wind, Tang
contracted separately with one of Catic USA’s Chinese
affiliates to obtain $300 million in financing for wind
power project development. Plaintiffs are thus correct
in stating that “[a]lthough only United States citizens
signed the Soaring Wind Agreement, the parties’
relationship both (i) involved Chinese citizens, including arms of the Chinese government, and (ii) had a
reasonable relation to China.”
The statute, however, concerns not the “parties’
relationship” but the “legal relationship” whence the
arbitral award arose. 9 U.S.C. § 202. That legal
relationship is the Agreement, which plaintiffs accuse
Catic USA of violating and which provided the basis
for the underlying arbitration. We look, therefore, not
to the general relationship among the parties but to
the foreign character, if any, of the Agreement itself.
It is not dispositive that Catic USA, as signatory to
the Agreement, is a subsidiary of a Chinese corporate
umbrella. Congress has not granted federal jurisdiction whensoever there exist a legal relationship
bearing any reasonable relation with a foreign state;
more precisely, it has specified there be “some other
reasonable relation” with a foreign state. Id. (emphasis added). The “reasonable relation” is thus limited18;
17

The eventual Agreement differed from the Memorandum of
Understanding by not mentioning Catic International and by
increasing Catic USA’s profit interest.
18

“[W]here general words follow specific words in an enumeration . . , the general words are construed to embrace only objects
similar in nature to those objects enumerated by the preceding
words.” William N. Eskridge, Jr., INTERPRETING LAW 77 (2016)

102a
it must be akin to “involv[ing] property located abroad”
or “envisag[ing] performance or enforcement abroad”—
that is, the relationship must contemplate overseas
action or involvement. See id.; see also Yates v. United
States, 135 S. Ct. 1074, 1086–87 (2015) (plurality opinion) (discussing the textual canon of ejusdem generis).
It might be enough if an agreement “call[] . . . for
meetings to be held in” a foreign country or if it should
“contain a list of mandatory [foreign] vendors . . . .”19 It
is not enough, however, that one party, though a U.S.
citizen, should happen to bear foreign corporate
parentage.20
The Agreement makes explicit reference neither to
China nor to any Chinese citizen, nor even to any
foreign place or entity.21 Aside from a generic, stated
purpose “to provide worldwide marketing” in wind
energy, the Agreement appears to evince a domestic
character: It creates a Delaware company, comprised
entirely of U.S. citizen-members, with a principal
(quoting 2A SUTHERLAND STATUTES
TION § 47:17 (7th ed. 2015)).

AND

STATUTORY CONSTRUC-

19

Outokumpu Stainless USA LLC v. Converteam SAS, No. 1600378-KD-C, 2017 U.S. Dist. LEXIS 11995, at *16 (S.D. Ala. Jan.
30, 2017), aff’d in relevant part, 902 F.3d 1316 (11th Cir. 2018),
cert. granted, 139 S. Ct. 2776 (2019).
20

See Access Info. Mgmt. of Haw., LLC v. Shred-It Am., Inc.,
No. 10-00622, 2010 U.S. Dist. LEXIS 116862, at *17 (D. Haw.
Nov. 2, 2010) (“[I]t is irrelevant to the inquiry that [the defendant] is a wholly-owned subsidiary of a [foreign] corporation . . . .”);
Williams v. Deutsche Bank AG, No. 3:05-CV-1395-N, 2006 U.S.
Dist. LEXIS 75426, at *13 (N.D. Tex. Feb. 9, 2006) (“[T]hat a
domestic signatory of the agreement is a subsidiary of a foreign
corporation . . . does not give the arbitration agreement a
‘reasonable relation’ with a foreign state.”).
21

The contract’s “Definitions” section specifies that “CATIC”
refers to “CATIC (USA), a California corporation.”

103a
place of business in Texas. As per the Agreement, the
underlying arbitration proceeded in Texas, under
Delaware substantive law. In short, it would appear
on its face that the Agreement bears no relation to
China (or any other foreign state).
Our analysis of the Agreement’s relation to a foreign
state does not, however, end at the four corners of the
contract.22 The Agreement specifies that a member
would be in breach should its “[a]ffiliate[] . . .
participate in wind farm land development projects . .
. except through an entity owned by both [Soaring
Wind Energy] and CATIC . . . .” Such “affiliates” of
Catic USA include a variety of Chinese entities, a fact
of which the contracting parties were well aware. A
Chinese entity’s actions on foreign soil could (and did)
trigger breach for one of the LLC’s (domestic) members. Moreover, the arbitral award holds those
Chinese affiliates jointly and severally liable for
damages to the claimants. Such factors are enough for
the Agreement to bear a relation to China sufficient
for federal jurisdiction under the NY Convention.
III.
“We review a district court’s order confirming an
arbitration award de novo [and] may affirm the
district court’s decision on any basis presented to the
district court and argued in the district court.” LightAge, Inc. v. Ashcroft-Smith, 922 F.3d 320, 322 (5th Cir.
2009) (per curiam). Despite that, “our review of the
22

See, e.g., ChampionsWorld, LLC v. U.S. Soccer Fed’n, Inc.,
890 F. Supp. 2d 912, 927 (N.D. Ill. 2012) (looking to the foreign
“nature” of the business); Nomanbhoy v. Vahanvaty, No. 11-C2456, 2011 U.S. Dist. LEXIS 147033, at *25–26 (N.D. Ill. Dec. 21,
2011) (evaluating extracontractual testimony to determine
whether the parties envisaged performance abroad).

104a
arbitrator’s award itself . . . is very deferential.”
Timegate Studios, Inc. v. Southpeak Interactive, LLC,
713 F.3d 797, 802 (5th Cir. 2013). Indeed, this court
may vacate the award only if “the arbitrators exceeded
their powers”23 by acting “contrary to express contractual provisions”24 or if the award otherwise violates the
NY Convention.25 Even then, appellants face a heavy
burden, as “[a] reviewing court examining whether
arbitrators exceeded their powers must resolve all
doubts in favor of arbitration.” Rain CII Carbon, LLC
v. ConocoPhillips Co., 674 F.3d 469, 472 (5th Cir.
2012).
Seeking to vacate the award, Catic USA and its
Chinese affiliates advance three theories: (1) The district court erred by confirming the award without first
reviewing the arbitrators’ power over Catic USA’s
Chinese affiliates; (2) the arbitration panel was improperly constituted; and (3) the award includes speculative or punitive damages rendering it unenforceable.
A.
Catic USA suggests that the district court could not
have confirmed the arbitral award without first
determining that the company’s Chinese affiliates
were subject to arbitration. It notes that the arbitration panel first found the affiliates to be subject to
arbitration, then drew an adverse inference from their
refusal to participate. Without that inference, Catic
USA contends, the arbitrators had no basis for finding
breach.
23

9 U.S.C. § 10(a)(4).

24

Beaird Indus., Inc. v. Local 2297, Int’l Union, 404 F.3d 942,
946 (5th Cir. 2005).
25

See 9 U.S.C. § 207.

105a
The panel’s inference that one or more of Catic
USA’s affiliates financed a wind power development
project in violation of the Agreement was based on
more than the affiliates’ non-participation in the
arbitration. First, the panel had access to AVIC IRE
Vice President Xu Hang’s e-mail that “AVIC International [had] already provided a total of $50 million
USD in financing to wind power projects in the US,”
none of which had flowed to Soaring Wind. Second, the
AVIC Group’s press releases and online publications
referenced ongoing (non-Soaring Wind) wind-power
development projects. Catic USA failed to provide any
meaningful rebuttal to such evidence.
Catic USA made its proverbial bed; therein it must
lie. The company signed an agreement specifying that
the actions of its affiliates could constitute its own
breach. Whether Catic USA’s non-signatory affiliates
themselves be subject to the arbitration is irrelevant:
Catic USA “assum[ed] the obligation of its affiliates’
performance.”26 The arbitration panel reasonably
found that a breach had occurred; given the deference
owed to the panel,27 we decline to disturb that finding.

26

Xtria LLC v. Tracking Sys., Inc., No. 3:07-CV-0160-D, 2007
U.S. Dist. LEXIS 68997, at *10 (N.D. Tex. Sept. 18, 2007).
27

Catic USA attempts to frame the issue as akin to whether
its Chinese affiliates were subject to the Agreement, a question
undisputedly outside the traditional deference given to arbitrators. See Bridas S.A.P.I.C. v. Gov’t of Turkm., 345 F.3d 347, 354
(5th Cir. 2003). But the answer to that question is immaterial to
the issue at hand, which is whether conduct occurred triggering
Catic USA’s breach. That “is a question of fact,” Tex. Capital
Bank N.A. v. Dall. Roadster, Ltd. (In re Dall. Roadster, Ltd.), 846
F.3d 112, 127 (5th Cir. 2017), the resolution of which we generally
leave to the arbitrators.

106a
B.
Catic USA claims that the panel was improperly
constituted. It notes that one side (the plaintiffs)
appointed five arbitrators, the other side (Catic USA
and Thompson) only two. That method of selection was
against the terms of the contract, which, according to
Catic USA, required an equal number of appointed
arbitrators per side. Because the panel was improperly selected, Catic USA contends, this court owes no
deference to its award.
In addition, Catic USA’s Chinese affiliates contend
that—even assuming the Agreement’s process of appointing arbitrators were followed—the result nevertheless violated the NY Convention’s due process and
public policy requirements. They aver that it was
fundamentally unfair (and therefore invalid under the
Convention) for one side to appoint more than twice as
many arbitrators as the other. As this court must
observe “the [Convention’s] grounds for refusal . . .
of recognition or enforcement of the award,” 9 U.S.C.
§ 207, the Chinese companies suggest we set the
award aside.
1.
The Federal Arbitration Act requires that “[i]f in the
agreement provision be made for a method of naming
or appointing an arbitrator or arbitrators or an
umpire, such method shall be followed . . . .” Id. § 5.
Arbitrators appointed contrary to the contract necessarily “exceed[] their powers,” id. § 10(a)(4), and, in
such a case, “judicial deference is at an end,” PoolRe
Ins. Corp. v. Org. Strategies, Inc., 783 F.3d 256, 262
(5th Cir. 2015). Catic USA is thus correct that, should
the selection of the arbitration panel fundamentally

107a
“depart[] from the contractual selection process,”
vacatur would be the appropriate remedy. Id. at 263.
There was no such departure. Catic USA notes “that
there were only two sides in this dispute,” but the
Agreement contemplates the number of parties, not
the number of sides. The Agreement lists seven total,
signatory “Members.”28 For a dispute under the Agreement, “each Member that is a party to such Dispute
is . . . a ‘Disputing Member.’” And each Disputing
Member would have the opportunity to “name an
Arbitrator (or otherwise agree in writing to the
Arbitrator(s) therefore chosen as its designated arbitrator).” This case involves two sides, but, more
importantly, it features seven members; suppose Eris
had tossed the Apple of Discord into a Soaring Wind
conference room, prompting a free-for-all among the
parties—the arbiter selection process would have
remained the same.
This court already noted that “AVIC [was] asking us
to rewrite their agreement’s arbitration provision to
require that every arbitration among these multiple
parties comprise only two ‘sides’ . . . [and] precisely
three arbitrators . . . .” AVIC Int’l, 614 F. App’x at 219.
Catic USA has since clarified that its proffered reading
allows for more than two “sides” to a dispute (and more
than three arbitrators) but nevertheless requires each
“side” have equal say in arbitrator selection. But as
stated above, the Agreement contemplates the number
of parties, not the number of sides. Given that Catic
USA does not (and cannot) seriously question that
each Claimant is “a party to [the] Dispute,” it cannot
28

CATIC (USA), also known as AVIC USA; Tang Energy
Group, Ltd.; Keith P. Young; Mitchell W. Carter; Jan Family
Interests, Ltd.; The Nolan Group, Inc.; Paul E. Thompson.

108a
escape the conclusion that the Agreement’s written
procedure was followed.
Catic USA would therefore have us hold that following the text of the Agreement in this case leads to
“absurd results.” Under the Agreement, Catic USA
posits, “ten minority shareholders . . . could unite
together to eject a majority shareholder that controls
90% of the LLC from membership . . . [by] appointing
ten of the eleven arbitrators to rubber-stamp its coup.”
As in this case, Catic USA submits, “the formation of
a stacked, unfair arbitration panel is an absurd result
to which no reasonable party would ever agree.”
But the risk of such an occurrence is precisely within
the plain terms to which Catic USA agreed. Catic USA
urges this court not to choose from among competing,
reasonable interpretations but to discard the plain
text of the Agreement out of so-called fairness. “It is
not the court’s role to rewrite the contract between
sophisticated market participants, allocating the risk
of an agreement after the fact, to suit the court’s sense
of equity or fairness.”29 One must assume that Catic
USA did not expect to be outnumbered in any dispute
falling under the Agreement; that its expectations
were frustrated does not render the Agreement absurd
or unfair.
2.
Federal courts are to enforce the NY Convention.30
Its Article V(1)(b) provides that a court may refuse to
29

Wal-Mart Stores, Inc. v. AIG Life Ins. Co., 872 A.2d 611, 624
(Del. Ch. 2005), rev’d in part on other grounds, 901 A.2d 106 (Del.
2006).
30

9 U.S.C. § 201; see also Recognition and Enforcement of
Foreign Arbitral Awards, Dec. 29, 1970, 21 U.S.T. 2517.

109a
recognize or enforce an award where “[t]he party
against whom the award is invoked was not given
proper notice of the appointment of the arbitrator or of
the arbitration proceedings or was otherwise unable to
present his case . . . .” This court has construed that
passage as “essentially sanction[ing] the application of
the forum state’s standards of due process, in this case,
United States standards of due process.” Karaha
Bodas Co. v. Perusahaan Pertambangan Minyak Dan
Gas Bumi Negara, 364 F.3d 274, 298 (5th Cir. 2004)
(quotation marks omitted). The hearing must “meet[]
the minimal requirements of fairness—adequate
notice, a hearing on the evidence, and an impartial
decision by the arbitrator” once the parties have had
“an opportunity to be heard at a meaningful time and
in a meaningful manner.” Id. at 299 (quotation marks
omitted).
Catic USA’s Chinese affiliates claim that the arbitration proceedings violated due process, reasoning
that because the two sides appointed an unequal
number of arbitrators, the panel’s decision could not
have been impartial. That contention, when taken to
its logical conclusion, would require this court to
invalidate any arbitral award not issued by an evenly
appointed panel.
We reject that notion. The Agreement was not a
contract of adhesion but a bespoke deal made between
extremely sophisticated parties. The Agreement did
not inherently favor one party or another; it just so
happened that Catic USA was outnumbered. The
agreed-upon selection process was followed to the
letter: Catic USA and Thompson selected the arbitrators and received the process they were due.

110a
C.
Catic USA contends that, even assuming the panel
was properly constituted, the award is improper.
Specifically, Catic USA claims that the panel exceeded
its authority by awarding speculative and punitive
damages in violation of the Agreement’s written
terms. Catic USA notes that the Agreement expressly
foreclosed any liability among members or affiliates
for “exemplary, punitive, special, indirect, consequential, remote, or speculative damages,” and the Agreement denied any arbitrator the power to award such
damages. Catic USA contends (1) that the panel’s
estimation of lost profits was speculative and (2) that
by divesting Catic USA of its LLC membership interest yet holding it liable for the LLC’s total estimated
lost profits, the award was punitive. Catic USA suggests that, because the award reflects an abuse of the
panel’s authority, this court vacate and remand for
further proceedings.
An “arbitral action contrary to express contractual
provisions will not be respected on judicial review.”
Executone Info. Sys., Inc. v. Davis, 26 F.3d 1314, 1325
(5th Cir. 1994) (quotation marks omitted). The Agreement explicitly stated that “[t]he Arbitrators shall
have no authority to award special, exemplary,
punitive or consequential damages.” Thus, the contract itself “limited the arbitrator’s own authority.”
Timegate, 713 F.3d at 805 n.17. We generally defer to
arbitrators’ interpretation of their own authority, see
Rain, 674 F.3d at 472, but if the panel exceeded its
authority, “it would be incumbent upon us to vacate
[the] award, in spite of the discretion typically granted
to arbitral decisions,” Bridas, 345 F.3d at 365.

111a
1.
“[T]he standard remedy for breach of contract is
based upon the reasonable expectations of the parties
ex ante.” Siga Techs., Inc. v. PharmAthene, Inc., 132
A.3d 1108, 1130 (Del. 2015). Such damages “must be
proven with reasonable certainty, and no recovery can
be had for loss of profits which are determined to be
uncertain, contingent, conjectural, or speculative.” Id.
at 1131 (quotation marks omitted). At the same time,
“certain presumptions apply when evaluating harm
and loss. Where the injured party has proven the fact
of damages . . , less certainty is required of the proof
establishing the amount of damages.” Id. (emphases in
original). Thus, “[r]esponsible estimates that lack
mathematical certainty are permissible so long as
the court has a basis to make a responsible estimate
of damages.” Del. Express Shuttle, Inc. v. Older, No.
19596, 2002 Del. Ch. LEXIS 124, at *60 (Del. Ch. Oct.
23, 2002). And on the margins, it is an “established
presumption that doubts about the extent of damages
are generally resolved against the breaching party.”
Siga, 132 A.3d at 1131.
The award is based on much more than speculation.
Having found that Catic USA breached the agreement
by investing (via an affiliate) at least $50 million in
wind-farm development in an outside entity, the arbitration panel was tasked with estimating claimants’
resulting lost profits, if any. The panel found that
Catic USA’s affiliated AVIC group would invest in any
given project only if it anticipated a minimum 15%
return; it then discounted that return to determine the
present value of the lost profits.
Catic USA does not contest that AVIC’s anticipated
rate of return was 15% or that the panel employed an
appropriate discount rate; instead, it attacks the

112a
panel’s assumption that AVIC’s investment did (or
would) generate profits. It is true that, although the
amount of lost profits may be estimated, claimants
generally “must show that there would [have been]
some future profits” but for the breach. Id. at 1133
(emphasis added). But in this case, Catic USA has
refused to provide the relevant information, and it was
thus within the arbitration panel’s authority to infer
that AVIC’s investment was indeed profitable. See id.
at 1131 n.132 (noting that damages may be inferred
when uncertainty results from the breaching party’s
own actions).
2.
“Historically, damages for breach of contract have
been limited to the non-breaching parties’ expectation
interest.” E.I. DuPont de Nemours & Co. v. Pressman,
679 A.2d 436, 445 (Del. 1996). “Punitive damages . . .
increase the amount of damages in excess of the
promisee’s expectation interest . . . .” Id. at 446. The
Agreement explicitly denied arbitrators the authority
to award punitive damages. “Thus, if punitive damages were indeed awarded in this case, it would be
incumbent upon us to vacate such an award, in spite
of the discretion typically granted to arbitral decisions.” Bridas, 345 F.3d at 365.
Catic USA contends that the panel issued what are
effectively punitive damages. Given the panel’s
determination that Catic USA’s breach denied Soaring
Wind $62.9 million in lost profits, claimants would be
owed expectation damages of $31.45 million to reflect
their 50% interest in the company. But by awarding
the full $62.9 million while simultaneously divesting
Catic USA and Thompson of their equity interest,
Catic USA suggests, the panel granted the claimants
what is, in substance, double their expected damages.

113a
The panel acknowledged that “[t]he lost profits set
forth in [its] award are due to [Soaring Wind] for
distribution to the Claimants through their percentages set forth in the [ ] Agreement.” Insofar as it
divested Catic USA and Thompson of their equity
interests, the award served not necessarily to compensate the claimants or the LLC but “to prevent [Catic]
USA and Thompson from profiting from their
breaches.”
Although the panel did not have the authority to
issue punitive damages, it did possess powers to grant
court-enforceable injunctive relief. The question thus
is whether the divestment constitutes permissible injunctive (or equitable) relief or improper punitive
damages.
It is the former. The panel divested Catic USA and
Thompson of their interest in Soaring Wind to prevent
them from receiving incidental benefit for breaching
their duties, duties owed not only to the other members of the LLC but also to the LLC itself. Unlike
punitive damages, which are based on a perceived
reprehensibility of the breaching party’s actions or
flow from a desire to make examples of them, see E.I.
DuPont, 679 A.2d at 445–46, the divestment operates
to achieve what the panel considered a fair result.
Such concern that relief not only compensate parties
financially but also achieve a just outcome, ex aequo et
bono—is precisely a matter of equity.31 Catic USA’s
theory that the divestment effectively doubles the
damages—and is therefore substantively indistinguishable from punitive damages—is well taken, but,

31

See 1 J. POMEROY, EQUITY JURISPRUDENCE § 363, at 8–9 (5th
ed. 1941).

114a
given the broad scope of “equitable” relief,32 combined
with the deference we must grant the arbitration
panel,33 we decline to set aside the divestment as
punitive and not equitable.
The judgment confirming the arbitration award is
AFFIRMED.

32

See Great-W. Life & Annuity Ins. Co. v. Knudson, 534 U.S.
204, 212–18 (2002).
33

See Rain, 674 F.3d at 472.

115a
APPENDIX J
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed August 25, 2015]
————
No. 15-10190
Summary Calendar
————
AVIC INTERNATIONAL USA, INCORPORATED,
Plaintiff-Appellant,
v.
TANG ENERGY GROUP, LIMITED; KEITH P. YOUNG;
MITCHELL W. CARTER; JAN FAMILY INTERESTS,
LIMITED; THE NOLAN GROUP, INCORPORATED,
Defendants-Appellees.
————
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:14-CV-2815
————
Before WIENER, HIGGINSON, and COSTA, Circuit
Judges.
PER CURIAM:*
Plaintiff-Appellant AVIC International USA, Incorporated (“AVIC”), one of two original plaintiffs in the
*

Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

116a
district court, seeks reversal of the district court’s
Judgment of February 5, 2015, which dismissed those
plaintiffs’ motion to stay the arbitration that was already
pending before the American Arbitration Association
(“AAA”), but had not yet commenced. The district
court dismissed their action after concluding that,
under the Federal Arbitration Act (“FAA”), it did not
have jurisdiction to consider AVIC’s claims that the
arbitration panel, as selected and presently existing,
“deviates” from the arbitration provisions of the parties’
agreement and fails to meet the constitutional requirement of impartiality. The court ruled that it could not
address such complaints before the arbitration panel
renders its decision.
1

Our review of the district court’s Memorandum
Opinion and Order and the record on appeal, including
the briefs of the parties, and their excerpts, satisfies
us that the district court ruled correctly, committing
no error – reversible or otherwise. The agreement at
issue was entered into by sophisticated and experienced
parties on advice of highly qualified counsel; that
agreement contains their carefully crafted arbitration
provision; one or more of the parties validly invoked
arbitration in compliance with that provision; several
of the parties to the agreement – not just two “sides” –
followed by appointing one arbitrator each; and, as
noted, arbitration is now before the panel comprising
those arbitrators and is presumably proceeding pursuant to the rules and procedures of the AAA.
As noted by the district court, AVIC has failed to
demonstrate that, as it claims, there has been a “lapse”
in the appointment of arbitrators. In BP Exploration
1

Plaintiff Paul Thompson filed a motion for discovery but has
not joined AVIC as an Appellant to this court.

117a
Lybia Ltd. v. ExxonMobil Lybia, Ltd.,2 we defined that
term as “a lapse in time in the naming of the arbitrator
or in the filling of a vacancy on a panel of arbitrators,
or some other mechanical breakdown in the arbitrator
selection process.” AVIC’s allegations do not identify
any occurrences that meet that definition. Simply put,
when its position is reduced to its bare essentials,
AVIC is asking us to rewrite their agreement’s arbitration provision to require that every arbitration among
these multiple parties comprise only two “sides.” It is
apparent from the plain wording of that provision,
however, that the agreement contemplates the possibility of there being three or more “sides” among the
several parties to the agreement. More to the point,
AVIC’s strained interpretation of the arbitration provision would mandate that there be precisely three
arbitrators in any and every instance, no more and no
fewer – one selected by one “side,” a second selected by
the other “side,” and the third selected by the first two.
The unambiguous wording of the arbitration provision
eschews such a reading: The agreement expressly
contemplates the possibility of (1) an even number of
arbitrators (an impossibility under AVIC’s proposed,
three-only arbitrators interpretation) and (2) adding
either one or two more arbitrators to achieve an
odd number (also an impossibility under a three-only
arbitrator situation).
All that aside, we agree with the analysis of the
district court and its conclusions that at this stage of
the ongoing arbitration proceedings, a stay to deal
with the issues advanced by AVIC would be premature, and that any resolution of AVIC’s objections to
the makeup of the arbitration panel must await
2

689 F.3d 481, 491-92 (5th Cir. 2012)

118a
completion of the arbitration process. For essentially
the reasons expressed by the district court, its
Judgment is, in all respects,
AFFIRMED.

119a
APPENDIX K
INTERNATIONAL CENTRE FOR
DISPUTE RESOLUTION
International Arbitration Tribunal
————
Case No. 01-14-0001-4150
————
TANG ENERGY GROUP, LTD., SOARING WIND
ENERGY, LLC, JAN FAMILY INTERESTS, LTD., THE NOLAN
GROUP, INC., KEITH P. YOUNG, MITCHELL W. CARTER,
Claimants,

vs.

CATIC USA, INC., A/K/A AVIC INTERNATIONAL USA,
INC., AVIC INTERNATIONAL HOLDING CORP., AVIATION
INDUSTRY OF CHINA, CHINA AVIATION INDUSTRY
GENERAL AIRCRAFT CO., LTD., AVIC INTERNATIONAL
RENEWABLE ENERGY CORP., ASCENDANT RENEWABLE
ENERGY CORP., AVIC INTERNATIONAL TRADE &
ECONOMIC DEVELOPMENT, PAUL E. THOMPSON,
Respondents.
————
FINAL AWARD
————
The Panel:
Hon. Glen Ashworth, Joseph Byrne, Richard
Capshaw, Hon. Jeff Kaplan, Hon. John Marshall,
Gregory Shamoun, William Toles, Hon. Mark
Whittington, and Steven Aldous.

120a
The panel of arbitrators1 presided over the oral
hearing of the above-referenced matter held in Dallas,
Texas, on August 10-14, 2015. The parties submitted
post-oral-hearing briefs and proposed findings of fact
and conclusions of law. This Final Award includes
findings of fact and conclusions of law as required by
the contract between the parties,2 and is based upon
the testimony and documentary evidence presented by
the parties at the hearing and the evidence submitted
to the panel subsequent to the hearing. The parties’
objections to post-hearing evidentiary submissions are
overruled. The panel will consider all evidence submitted and give the evidence the weight the panel deems
appropriate as required by Section R-34(b) of the AAA
Commercial Arbitration Rules. Having received and
considered only the appropriate evidence, having read
and considered the written arguments of counsel,
having heard and considered the oral arguments of
counsel, and having reviewed, considered and followed
the applicable law, the undersigned now enter the
following Final Award as majority decision:

1

The majority of the panel who signed this award includes
Joseph Byrne, Richard Capshaw, Hon. John Marshall, Gregory
Shamoun, William Toles, and Steven Aldous. The three arbitrators who did not concur with the award include Hon Mark
Whittington, Hon, Jeff Kaplan, and Hon. Glen Ashworth. This
final award is signed and notarized by those arbitrators who
approved of the award in accordance with Section R-46. Those
who dissented signed electronically.
2

The contract referred to is the Soaring Wind Agreement,
which is discussed at length in this Award.

121a
Abbreviations
The following terms and definitions apply to this
award:
“CX” means Claimants’ Exhibit followed by the exhibit
number.
“AX” means Respondent AVIC USA Exhibit followed
by the exhibit number.
“TX” means Respondent Thompson Exhibit followed
by the exhibit number.
“SWE” or “Soaring Wind” means Soaring Wind
Energy, LLC.
“SWE Agreement” refers to the contract between
members of SWE.
“Tang” means Tang Energy Group, Ltd.
“Jan” means Jan Family Interest, Ltd.
“Nolan” means The Nolan Group, Inc.
“Young” means Keith P. Young.
“Carter” means Mitchell Carter.
“AVIC” means Aviation Industry of China.
“AVIC HQ” means Aviation Industry Corporation of
China Group Company.
“AVIC USA” means AVIC International USA, Inc.
f/k/a CATIC (USA)
“AVIC International” means AVIC International
Holding Corp.
“Ascendant” refers to respondent Ascendant Renewable
Energy Corp.
“AVIC IRE” refers to respondent AVIC International
Renewable Energy Corp.

122a
“AVIC TED” refers to respondent AVIC International
T.E.D., Ltd., f/k/a CATIC TED, Ltd.
“CATIC” refers to the China National Aero-Technology
Import & Export Company.
“CAIGA” refers to respondent China Aviation Industry
General Aircraft Co., Ltd.
“Thompson” refers to respondent Paul E. Thompson.
OVERVIEW
Tang, Nolan, Young, Carter, and Jan, filed a Demand
for Arbitration with the AAA on June 13, 2014
(“Demand”). Subsequently, Tang filed a claim on behalf
of Soaring Wind. This Final Award refers to them
collectively as “Claimants.” The Demand referenced
paragraph 13.2(a) of the SWE Agreement as the contractual basis for arbitration of the claims set forth
in the Demand. Each of the Claimants (other than
Soaring Wind) is a member of SWE.
The Demand named as respondents CATIC USA,
Inc., Aviation Industry of China (“AVIC”), China
Aviation Industry General Aircraft, Co., Ltd. (“CAIGA”),
AVIC International Holding Corp., AVIC International
USA, Inc., AVIC International Renewable Energy
Corp., Ascendant Renewable Energy Corp., CATIC
T.E.D., Ltd., and Paul E. Thompson. CATIC USA, Inc.
changed its name to AVIC International USA, Inc.
sometime prior to the Demand and is referred to in
this Final Award only as AVIC USA. “Respondents”
refers to these entities and Thompson collectively.
Among those named as Respondents in the Demand,
AVIC USA and Thompson are members of SWE. The
remaining respondents—AVIC, CAIGA, AVIC IRE,
Ascendant, CATIC T.E.D., and AVIC International
(referred to collectively as the “Non-Signatories”)—did

123a
not sign the SWE Agreement. Claimants allege that
the arbitration provision in the SWE Agreement binds
the Non-Signatories to arbitrate in this proceeding
under several legal theories including alter ego. The
Non-Signatories either sent letters to the AAA/ICDR
or filed pleadings objecting to Claimants’ attempt to
include the Non-Signatories in the arbitration. In
addition, the Non-Signatories provided the AAA/ICDR
notice that those entities did not intend to participate
in the arbitration.
Claimants’ live pleading is Tang’s Verified Fourth
Amended Statement of Matters in Controversy dated
April 6, 2015, with the addition of the remedy of
disgorgement as asserted in Tang’s Verified Fifth
Amended Statement of Matters in Controversy filed
August 7, 2015.3
AVIC USA’s live pleading at the time of the hearing
is its Second Amended Answer, Affirmative Defenses,
Counterclaim and Reservation of Rights dated May 7,
2015. Thompson’ live pleading is his Fifth Amended
Answer, Affirmative Defenses, Objections to Designation
of Arbitrators, Counterclaim, Reservation of Rights
and Designation of Arbitrator dated April 30, 2015.
In addition to the arbitration, at least three lawsuits
were filed related in some way to the subject matter of
the arbitration. Ascendant Renewable Energy Corp. v.
Tang Energy Group, Ltd., et. al., (Case No. 3:14-CV03314-K, in the Northern District of Texas, Dallas
Division), in which Ascendant sought a declaratory
judgment with respect to whether it could be compelled
to arbitrate, whether arbitrability of claims against it
is for judicial rather than arbitral determination, that
3

See Order 26, allowing the addition of the remedy of
disgorgement.

124a
the arbitration panel could make no determinations
regarding Ascendant, and that the arbitration should
be stayed. The Honorable Ed Kinkeade entered his
memorandum opinion and order dated August 4, 2015,
granting Ascendant’s motion for summary judgment
in two respects—(1) “whether Ascendant, a non-signatory
to the Agreement, can be subject to arbitration based
on the arbitration clause of the Agreement is for a
court, not the arbitration panel, to decide because
Ascendant disputes the very existence of an agreement
between these parties; and (2) because the existence of
any agreement between the parties is in dispute, any
determination by the arbitration panel as to the
jurisdiction over Ascendant is not controlling on a
court.”4 No appeal followed that order.
AVIC International USA, Inc., and Paul Thompson
v. Tang Energy Group, Ltd., et. al., (Case No. 3:14-cv02815-K, in the Northern District of Texas, Dallas
Division) in which AVIC USA and Thompson sought
an order staying the arbitration and an order that the
arbitration panel be reconstituted to a total of three
arbitrators, one selected by each “side,” and one “neutral”
arbitrator selected by the other two arbitrators. Defendants sought dismissal of the case based upon lack of
subject matter jurisdiction. The Honorable Ed Kinkeade
granted Defendants’ motion to dismiss on February 5,
2015, finding “it has no jurisdiction under the FAA to
address Plaintiffs’ claims and grant the requested
relief.”5 AVIC USA appealed that order to the Fifth
Circuit. The Fifth Circuit affirmed Judge Kinkeade’s
order in a per curiam opinion.6
4

See DE 93; 3-14-CV-03314-K.

5

DE 123, 3:14-CV-02815-K.

6

See 15-10190; filed 9/16/2015.

125a
In addition to the foregoing, the panel is aware that
AVIC USA filed a lawsuit in Delaware Chancery Court
challenging Tang’s assertion of claims in this arbitration on behalf of SWE as unauthorized by the SWE
Agreement and sought declaratory and injunctive
relief.7 The panel has no information on the outcome
of this proceeding.
FINDINGS OF FACT
General
1. AVIC was formerly the Ministry of Aviation
Industry in China. The first Aviation Industry Corporation was created in 1993, and the former Ministry
was abolished in 1999. All of China’s state-run
aviation industry operates under the direction of AVIC
HQ, which sits at the top of a pyramid of companies.
AVIC HQ is one of 112 companies owned by the
Chinese government through the State Asset
Supervision and Administration Commission (“SASAC”).
AVIC HQ is one of 45 corporations controlled through
SASAC which evolved from industrial ministries within
the Chinese government and which still enjoy a “rank”
within the government equal to vice-ministerial status.
The top management of AVIC HQ is appointed by the
Organization Department of the central Chinese
Communist Party. AVIC HQ is the top level of one of
the nine centrally run defense industry conglomerates
in China.
2. AVIC HQ has 19 primary business units including CATIC, AVIC International, and CAIGA. AVIC
HQ has always maintained a controlling interest in its
first tier subsidiaries. These first level subsidiaries
also have, in many cases, subsidiaries of their own.
7

In the Court of Chancery State of Delaware, No. 11182.

126a
AVIC HQ regularly appoints the Chairman and the
members to the Boards of Directors to the subsidiaries. In addition, AVIC HQ controls appointment of
many of the key management personnel to its first tier
subsidiaries. The first tier subsidiaries consider themselves AVIC HQ companies that follow AVIC HQ
strategic advice.
3. CATIC was formerly part of the industrial
ministry that later became a subsidiary of AVIC
HQ. CATIC is primarily engaged in the import and
export of military and military use products. AVIC
International is a first tier subsidiary of AVIC HQ and
was formerly a subsidiary of CATIC, at which time it
was known as CATIC Trade and Development Company
(CATIC TED). In 1995, AVIC International spun
out of CATIC and became a direct subsidiary of AVIC
HQ, making CATIC and AVIC International both
international subsidiaries of AVIC HQ. On November
6, 2008, AVIC HQ reorganized into its current form.
In addition, AVIC HQ or at AVIC HQ’s direction,
reorganized its subsidiaries causing CATIC to concentrate in the military products arena and to have
its civilian products arena to come under AVIC
International. Among the non-military segments devoted
to AVIC International was alternative energy. Several
months later, China Aviation Industry General Aircraft
Co., Ltd. (CAIGA) was created as an AVIC HQ subsidiary to compete in the general aviation sector. AVIC
HQ has continuously reorganized in an effort to create
competitive companies with strong corporate governance. All of the reorganizations have been top down,
directed by AVIC HQ.
4. AVIC HQ’s reorganization in the 2008-9 timeframe accompanied a new business development strategy
in which AVIC HQ subsidiaries became partners. As

127a
set forth above, AVIC International took responsibility
for non-military operations of CATIC and AVIC HQ
directed AVIC International to be solely responsible
for development of the wind power sector, which AVIC
HQ’s CEO identified as a focal point for AVIC HQ. In
order to carry this directive out for AVIC HQ, AVIC
International created AVIC International Renewable
Energy Corp. (AVIC IRE) in July 2010. AVIC International made AVIC IRE responsible for vigorously
developing the renewable energy industry for AVIC HQ.
5. The historical relationship between Tang and
AVIC, began in 1997 when they signed a joint venture
agreement to build a gas-fired power plant at the
western end of the Great Wall. In the early 2000s,
Patrick Jenevein (“Jenevein”) and other investors in
his group made an investment in an entity in China
named Zhong Hang (Baoding) Huiteng Wind Power
Equipment Co. Ltd. (also known as “HT Blade”). The
entity through which Jenevein and his group invested
in HT Blade was named Tang Wind Energy LP, which
subsequently became Tang Wind Energy Hong Kong.
Some of the other investors in HT Blade included
Baoding Huiyang Aviation Propeller Factory and
China Aviation Industry Gas Turbine Power (Group)
Company, both of which were subsidiaries of AVIC
HQ. HT Blade is a manufacturer of wind turbine
blades and apparently is a successful venture.
6. In 2007, because of its successful investment in
HT Blade and the development of several wind power
projects, Tang, Jenevein, and some of its investors
decided to create a business to develop wind farms and
promote the sale of wind power equipment as part of
the development. Out of this idea came the creation of
Soaring Wind Energy. AVIC HQ expressed an interest
in being part of Soaring Wind Energy.

128a
The Memorandum of Understanding
7. In order to carry out their desire to create a company to promote wind power and develop wind power
projects, AVIC USA, a subsidiary of AVIC International,
and Tang entered into a Memorandum of Understanding
(the “MOU”) effective January 28, 2008, to set out the
terms by which they would establish a limited liability
company named Soaring Wind Energy. Although the
MOU states that it is between AVIC USA (formerly
CATIC USA) and Tang Energy Group, Ltd., the agreement also references CATIC, which at the time was
CATIC TED, the precursor to AVIC International, as
an equity participant and is signed by Liu Rongchun
on behalf of “CATIC.” At the time, Mr. Rongchun was
Vice President of AVIC International and held no
position with AVIC USA.
8. The MOU is the precursor to the SWE
Agreement.
9. The MOU states that “SWE will be the exclusive
vehicle for both Tang and CATIC8 interest in the wind
industry” and that the geographical area will “initially
include North America, Central America and South
America. Expansion to Europe, Africa, and Asia is
designated for future expansion.”9
10. The MOU also provides that CATIC USA will be
responsible for different aspects of the business and
that “CATIC offices and employees in China will be
available for support as needed.” Tang was to be
responsible for general management as well as “wind

8
9

As previously stated, CATIC became AVIC International.

The quotes in this Award of the various agreements are
quoted verbatim without noting the grammatical deficiencies.

129a
farm development.” The MOU identifies Thompson as
the person to fill the role as SWE’s general manager.
11. MOU recites that wind farm development
projects will have separate budgets with CATIC USA
as the primary source for development funds.
12. The MOU further states that “Mt is not a
binding document and there will be no damages to the
parties if the LLC is not established.”
The Soaring Wind Energy Agreement
13. In accordance with the MOU, Soaring Wind
Energy (SWE) was created effective June 1, 2008.
14. SWE is a limited liability company organized
under the laws of the State of Delaware.
15. CX 2 is the operative agreement setting forth
the terms for membership in SWE.
16. The members of SWE are Tang, Nolan, Jan,
Young, Carter, AVIC USA, and Thompson (Thompson
signed as a Class B Member) (collectively “Members”).
17. Some definitions in section 1.1 of the SWE
Agreement are relevant to this dispute include the
following:
“Affiliate” means with respect to any Person,
any other Person that directly or indirectly
Controls, is Controlled by, or is under
common Control with that first Person.
“Control” means the possession, directly or
indirectly, through one or more intermediaries, of either of the following: (i) in the case
of a corporation, more than 50% of the outstanding voting securities thereof; (ii) in the
case of a limited liability company, partnership, limited partnership or venture, the right

130a
to more than 50% of the distributions therefrom (including liquidating distributions);
(iii) in the case of a trust or estate, including
a business trust, more than 50% of the beneficial interest therein; and (iv) in the case of
any other Entity, more than 50% of the
economic or beneficial interest therein; or
(v) in the case of any Entity, the power or
authority, through the ownership of voting
securities, by contract or otherwise, to exercise
a controlling influence over the management
of the Entity.
“Member” means either a Class A Member or
a Class B Member, or any Person hereafter
admitted to the Company as a member as
provided in this Agreement, but such term
does not include any Person who has ceased
to be a member in the Company.
“Person” means any natural person or Entity.
18. Section 2.3 of the SWE Agreement provides that
“[t]he purpose and nature of the business to be conducted by the Company shall be to provide worldwide
marketing of wind energy equipment, services and
materials related to wind energy including, but not
limited to, marketing wind turbine generator blades
and wind turbine generators and developing wind
farms (the “Business”), and to engage in any other
business or activity that now or hereafter may be
necessary, incidental, proper, advisable or convenient
to accomplish the foregoing purposes (including the
borrowing of money and the investment of funds) and
that is not forbidden by the law of the jurisdiction in
which the Company engages in that business.

131a
19. Section 2.7 of the SWE Agreement states that
the term of the company is from commencement until
dissolved or terminated in accordance with the terms
of the Agreement.
20. Section 6.8 of the SWE Agreement provides in
part that no Member shall be required to devote full
time to Company business and the “Members
expressly acknowledge and agree hereby that their
relationship to the Company and each other is strictly
contractual in nature and is not that of partners, joint
venturers or any similarly situated persons and is not
fiduciary in nature. No Member shall take, or cause or
permit its Affiliates, Officers, employees or agents to
take, any action that would bind or obligate the
Company in any manner not expressly authorized by
this Agreement. Each Member may grant or withhold
their consent, approval or vote, in their sole discretion,
as directed or otherwise determined by such Member,
without regard to the interests of the other Members,
it being understood that each such Member shall have
no fiduciary duty or other duty to represent or act in
the best interests of the other Members.”
21. Section 6.10 of the SWE Agreement provides
that each Member “agrees that during the term of this
Agreement, each shall only conduct activities
constituting the Business in and through the
Company and its Controlled subsidiaries.”
22. Section 6.11 of the SWE Agreement provides:
Except as restricted by Section 6.10, each
of the Members and its respective Affiliates
shall be free to engage in other businesses
or activities and to receive the income and
benefits thereof (and neither the Company
nor any other Member shall have any interest

132a
therein by reason of this Agreement), and no
Member shall have any duty or obligation to
present to the Company or any other Member
any such other business opportunities that
are outside the scope of the Business. Subject
to the terms of this Agreement, nothing in
this Agreement shall restrict any Member
from establishing, independently or with
other Persons, any business in any part of the
world, other than the Business, and each
Member acknowledges and agrees that the
other Member and its Representatives and
Affiliates, and the managers, directors, employees or other representatives of such other
Members or its Representatives or Affiliates
serving as Managers of the Company (any
such Person being referred to herein as a
“Designee”) or as Officers of the Company
(any such Person being referred to herein
as a “Common Officer”) may engage in any
business other than the Business. Further,
there is no contractual, legal or other requirement on any Member or its Affiliates, Designees,
Common Officers or any other Person to offer
any business opportunity or participation in
any business opportunity, other than the
Business, to the Company, and each Member
acknowledges and agrees that all Members
and their respective Affiliates, Designees,
Common Officers and other Persons have the
right to pursue any business opportunity or
activity that does not consist of the Business.
Each Member recognizes that the other
Members and their respective Affiliates,
Designees, Common Officers and other
Persons (a) participate and will continue to

133a
participate in businesses other than the
Business, directly and through their respective Affiliates, (b) may have interests in,
participate with, and maintain seats on the
boards of directors of or serve as managers or
employees of other Persons engaged in such
other businesses (other than the Business)
and (c) may develop business opportunities
outside of the Business for themselves and
their Affiliates and such other Persons.
Subject to the terms of this Agreement, each
Member (i) acknowledges and agrees that
neither a Member, its Affiliates, Designees,
Common Officers nor any such other Person
shall be restricted or prohibited, by the
relationships that exist between or among
the Members and the Company, or by a
Member’s or its Affiliates’ designees serving
as a Manager of the Company or Common
Officer, from engaging in any business other
than the Business, (ii) acknowledges and agrees
that neither a Member nor its Affiliates,
Designees, Common Officers nor any such
other Person shall have any obligation to offer
the Company or any of its Affiliates any
business opportunity other than with respect
to the Business, and (iii) waives any claim
that any business opportunity pursued by a
Member or any of its Affiliates, Designees,
Common Officers or any such Person constitutes a corporate opportunity of the Company
or any of its Affiliates that should have been
presented to the Company, unless such business opportunity was pursued in violation of
the terms of this Agreement.

134a
23. Section 6.12 provides:
“Each of the Class A Members hereby covenant and agree that neither they nor their
Affiliates or Representatives will participate
in wind farm land development projects (each
a “Project”) except through an entity owned
by both the Company and CATIC (each a
“Project Entity”), the governing documents of
which shall provide that (a)
(a) CATIC shall contribute 100% of the capital to the Project Entity required to fund such
Project;
(b) Distributions made by the Project Entity,
whether distributions of available cash or
distributions of proceeds in connection with
the sale of a Project or in liquidation, shall be
made in the following order of priority unless
agreed otherwise in writing by a Supermajority Interest of the Members based upon
Secondary Sharing Ratios: (i) first, to CATIC
until the sum of all distributions made to
CATIC equals an amount which equates to
(A) the return of all capital contributions
made by CATIC plus (B) an amount equal to
25% of the aggregate amount of capital
contributions made by CATIC, and then (ii)
all remaining amounts (on liquidation, sale of
assets, distributions of available cash or
otherwise, to the Company).”
24. Section 8.2 provides in part that “Each Member
shall indemnify . . . the other Members, and their
Managers, directors, officers, employees, agents, Affiliates
and Representatives from all claims, losses, damages,
liabilities, costs and expenses of whatever nature,

135a
including reasonable attorney’s fees, incurred by them,
arising out of . . .(b) any breach by the indemnifying
Member or any of its Representatives or Manager designees of any obligation or representation or warranty
contained in the Agreement.”
25. Section 8.4 of the SWE Agreement relates to
confidentiality and generally prohibits Members and
their Affiliates from revealing to third parties confidential or proprietary information of the Company and
its Members except under certain conditions.
26. Section 9.1 of the SWE Agreement provides that
a “Member shall be in default if . . . (b) such Member
otherwise fails to perform any of its material obligations or breaches a material representation, warranty
or agreement under, or its Representatives fail to
comply with the terms of this Agreement or any
guaranty entered into pursuant to, this Agreement . .
. If a Member is in Default, the other Members and the
Company shall have all rights and remedies available
at law and in equity with respect to such breach,
including the remedies of specific performance and
injunctive relief”
27. Article XIII of the SWE Agreement contains an
agreement to arbitrate “any controversy, dispute, or
claim arising under or related to this Agreement
(whether arising in contract, tort or otherwise, and
whether arising at law or in equity), including (a) any
dispute regarding the construction, interpretation, performance, validity or enforceability of any provision of
this Agreement, and (b) the applicability of this Article
XIII to a particular dispute.”
28. Section 13.1 of the SWE Agreement provides
that with respect to a particular dispute, “each Member

136a
that is a party to such Dispute is referred to herein as
a ‘Disputing Member.’
29. Section 13.2 of the SWE Agreement describes
the procedure that “shall” be followed to attempt to
resolve a “Dispute.” The section states “the Disputing
Member shall provide written notice to the other
Disputing Members of the matter in Dispute,” the
executive officers of the Disputing Members meet in a
good faith attempt to resolve the Dispute, and only
then may an arbitration be initiated.
30. Section 13.3 (a) and (b) requires the “Disputing
Member” initiating arbitration to notify the other
“Disputing Members” of the arbitrator appointed by
the “Disputing Member” and the demand for arbitration and statement of matters in controversy. Within
15 days, “each other Disputing Member” shall name
an arbitrator. In the event there are more than two
“Disputing Members” to the dispute, the arbitrators
selected by the “Disputing Members” shall cause the
appointment of either one or two arbitrators as is
necessary to create an odd number of total arbitrators.
31. Section 13.3 (e) provides that the Commercial
Arbitration Rules of the AAA will apply to the arbitration unless otherwise stated in the SWE Agreement.
32. Section 13.3 (f) provides in part that the “Disputing Members” shall make their witnesses available
in a timely manner for discovery and if a “Disputing
Member” fails to comply with discovery requests, the
arbitrators may take such failure to comply into
consideration in reaching their decision.
33. Section 13.3 (i) provides that any decision by a
majority of the arbitrators shall be final and binding
with no right of appeal.

137a
34. Section 13.3 (j) provides that the statute of
limitations will be tolled from the date of the notice of
a Dispute is provided to the Disputing Members.
35. Section 13.3 (1) provides that the arbitrators
shall have no authority to award special, exemplary,
punitive or consequential damages.
36. Section 13.4 provides that the prevailing Member(s) in arbitration are entitled to recover court costs,
fees and expenses, including reasonable attorney’s
fees.
37. Section 17.8 of the SWE Agreement provides
that the agreement is governed by the laws of the
State of Delaware.
38. The SWE Agreement does not require capital
contributions from the members beyond the initial
capital requirements set out in Exhibit A to the
Agreement.
39. Section 17.11 of the SWE Agreement provides
that the Agreement constitutes the entire agreement
among the Members and supersedes all prior agreements among them with respect to the subject matter
hereof.
40. The notable changes from the MOU to the SWE
Agreement are that AVIC USA is the only AVIC
affiliated entity with an equity interest in SWE and its
profit interest is 50% rather than a lesser amount set
forth in the MOU for any “AVIC” entity.
41. CX 2 is not the first version of the SWE Agreement. It is a corrected version substituting Nolan for
Jenevein individually and Young in place of Tersus
Energy PLC. However, there is no evidence of any
other changes between the initial version and CX 2.
All of the parties agreed that CX 2 contains the same

138a
material terms as the original agreement other than
the names of two of the members. Although Thompson
contends that his signature on CX 2 is a forgery, he
admits that he signed an agreement to create SWE
and that the terms of CX 2 are materially the same as
the version he signed.
42. All members of SWE paid their initial capital
requirements set forth in Exhibit A to the Agreement.
43. All members of SWE had the opportunity to
review the SWE Agreement prior to signing the
Agreement.
44. All members of SWE signed the SWE Agreement freely and voluntarily.
45. The SWE Agreement was not procured through
artifice or fraud on the part of any Member.
46. All members of SWE agreed to the material
terms of CX 2.
The Chicago Agreement
47. On April 28, 2009, Tang and AVIC TED signed
an agreement entitled “Preliminary Agreement for
Wind Power Project Development” (the “Chicago Agreement”). The agreement recites in part that “CATICTED” wishes to participate in the development of
wind power industry in the United States” and “has
experience in oversea projects development” and has
“sales and after-sales service capacity and related
resources in the United States.” The agreement also
states, “Tang has been committed in energy industry
and has professional staff to develop wind power
projects in the United States.” The agreement recites
that in consideration of the mutual covenants in the
agreement and other consideration, “both sides agree

139a
to cooperate for develop wind power projects in the
United States . . ..”
The Chicago Agreement further states:
“Both sides agree to develop wind power
projects together through cooperation and
finish the development of wind power projects
for total capacity of 200 Megawatt within 5
years after this preliminary agreement becoming
effective. “CATIC-TED” will totally finance
300,000,000.00 US Dollars in wind power projects development, in which 200,000,000.00
US Dollars will be used to purchase related wind
power equipments from China, 100,000,000.00
US Dollars will be used to purchase services
including, transportation, warranty services,
after-sales services, operation services and
related spare parts and consumables parts.
Due to the specialty of wind power projects
and related equipments, the 200 Megawatt
wind power project is not a single project but
composed of several projects. The total
capacity of these projects is 200 Megawatt
with 5% tolerances. The above wind power
projects include Cohasset project, Plymouth
project, Ratheon and other projects which
now being estimated by both sides. The total
capacity of these projects is 45 Megawatt and
they constitute the first phase of the whole
program.”
48. The Chicago Agreement called for Tang to
perform a “preliminary assessment” for projects in the
United States, but CATIC TED would be responsible
for the “entire project development.”

140a
49. Bian Tao signed the Chicago Agreement on
behalf of CATIC TED and Jenevein signed on behalf of
Tang. At the time he signed the Chicago Agreement, it
is unclear whether Mr. Tao was an officer of AVIC
International or CATIC TED, or whether those two
were one and the same. Some evidence suggests that
CATIC TED had already been folded into AVIC
International as part of the 2008-9 reorganization.
Xu Hang of CATIC TED authored the Chicago
Agreement.
50. The Chicago Agreement is part of the sequence
of agreements between the Tang “side” and the AVIC
“side”, which began with the MOU, followed by the
SWE Agreement, and completed by the Chicago
Agreement.
51. Although the Chicago Agreement is difficult to
read and poorly worded at times, its language imposes
no affirmative duty on CATIC TED to agree to any
specific wind power project in sufficiently definite terms.
Cirrus Aircraft
52. Technical similarities exist between aviation
and wind power technologies. In April of 2009, Cirrus
Aircraft informed Jenevein that Cirrus was interested
in expanding into wind-turbine blade manufacturing.
53. Tang alerted AVIC USA to the possible
opportunities presented through some association or
acquisition of Cirrus Aircraft.
54. AVIC USA could make no decision on Cirrus
Aircraft and had to report the opportunity to AVIC
entities up the chain of AVIC companies. The evidence
is unclear whether Sherman Zhang of AVIC USA took
the matter up with AVIC International or AVIC HQ.

141a
55. After Tang and CATIC TED held a signing
ceremony for the Chicago Agreement in April of 2009,
Tang escorted a delegation of AVIC officials to Duluth,
Minnesota to meet the officials with Cirrus Aircraft
and tour its facilities.
56. AVIC executives invited Jenevein to Paris,
France in June 2009, to the Paris Air Show to meet
with Cirrus management, to answer additional
questions concerning Cirrus Aircraft and discuss
AVIC’s acquisition of the company.
57. In July of 2009, AVIC HQ created CAIGA, a
wholly owned AVIC “subsidiary,” to make the Cirrus
Aircraft acquisition, which closed in June of 2011.
58. After the Paris meeting, Jenevein did not hear
from AVIC about the Cirrus Aircraft acquisition until
after it closed.
59. There is no evidence in the record that Cirrus
Aircraft manufactured wind-turbine blades after the
CAIGA acquisition of Cirrus Aircraft.
Breach of Contract by AVIC USA and Thompson
60. The Members of SWE agreed in the SWE
Agreement that the “Business” is worldwide marketing of wind energy equipment, services and materials
related to wind energy and includes development of
wind farms.
61. The Members of SWE agreed that SWE would
be the exclusive vehicle through which its Members
would conduct activities constituting the “Business.”
62. The extent of the exclusive arrangement agreed
to by the Members as set out in the Agreement is
ambiguous. Section 6.10 appears to apply only to
Members. On the other hand, Section 6.11 prohibits
any Member, its Representatives and Affiliates from

142a
engaging in the “Business” of SWE except through
SWE. Section 6.12 prohibits Class A Members and
their Affiliates from “participating” in wind farm land
development projects except through entities owned
jointly by SWE and CATIC. The Agreement’s confidentiality provision prohibits Members and their
Affiliates from revealing confidential information about
the company, the Members, Affiliates or the Agreement.
The Chicago Agreement clearly states that “SWE will
be the exclusive vehicle for both Tang and CATIC
interest in the wind industry.” The great weight of the
evidence supports a construction that Members, their
Affiliates and Representatives will only conduct the
“Business” through SWE.
63. With regard to Class B Members of SWE, the
SWE Agreement also prohibits them from engaging in
the “Business” of SWE except through SWE. The SWE
Agreement’s use of the term “participating” in 6.12 is
different from the phrase “activities constituting the
Business” and the “Business” as used in Sections 6.10
and 6.11. The term “participating” as used in Section
6.12 means taking an equity position in a Project as
defined by the SWE Agreement.
64. The SWE Agreement requires Members and
their Representatives and Affiliates to conduct the
“Business” of SWE solely through SWE or its
Controlled Companies.
65. AVIC USA itself did not violate the contractual
provision to refrain from engaging in the Business of
SWE except through SWE.
66. However, AVIC USA’s affiliates as defined by
the SWE Agreement, competed against SWE and
engaged in the “Business” of SWE thereby violating the SWE Agreement’s exclusive arrangement.

143a
Specifically, AVIC HQ, AVIC International, AVIC IRE
and Ascendant, are “Affiliates” of AVIC USA because
they directly or indirectly controlled AVIC USA and all
are under the common control of AVIC HQ. As a result,
AVIC USA breached the SWE Agreement by its
Affiliates engaging in the “Business” of SWE.
67. Thompson violated the SWE Agreement by
engaging in the “Business” of SWE on behalf of
Ascendant.
68. Sections 6.10, 6.11, and 6.12 do not limit former
employees of SWE in their professional mobility or
restrict former employees from soliciting SWE’s customers. Sections 6.10, 6.11, and 6.12 by their terms
relate to Members and their Representatives and
Affiliates. As a result, the provisions are not covenants
not to compete.
Theft of Trade Secrets
69. Section 8.4 of the SWE Agreement prohibits
Members and their Affiliates from disclosing any
confidential or proprietary information of the other
Members or of SWE to third parties.
70. Claimants failed to produce evidence of any
specific confidential or proprietary information that
any other Member or its Affiliates provided to a third
party.
71. Claimants failed to identify any information
that derives independent economic value from not being
generally known or readily ascertainable by proper
means, which Claimants provided any Respondent.
While Claimants demonstrated a benefit to Respondents’
access to Claimants contacts and general knowledge,
those facts alone are insufficient to show the information was a trade secret.

144a
Tortious Interference
72. Claimants’ assertion of tortious interference
with existing contracts is an alternative allegation to
its alter ego claims. As a result of the panel’s decision
on alter ego, it will not consider the claims for tortious
interference of existing contracts.
73. With respect to Claimants’ allegation of tortious
interference with prospective business opportunities,
Claimants offered no evidence that they had a reasonable probability of entering into a business relationship
with Wind Tex related to what became the Cirrus 1
project without financing from AVIC. Further, Claimants offered no evidence that intentional interference
by Respondents is what caused Claimants from
entering into a business relationship with Wind Tex.
Breach of Fiduciary Duty
74. Section 6.8 (b) of the SWE Agreement disclaims
any fiduciary duty between Members or between
Members and the Company. The Members “expressly
acknowledge and agree hereby that their relationship
to the Company and each other is strictly contractual
in nature and is not that of partners, joint venturers
or any similarly situated persons and is not fiduciary
in nature.”
75. Claimants failed to offer any evidence of a fiduciary relationship between them and any of the
Respondents outside of the SWE arrangement, other
than that which may have existed while Thompson
was a managerial employee of SWE prior to his termination. However, Claimants failed to produce any
evidence of a breach of a fiduciary duty by Thompson
while he held such a position.

145a
Unjust Enrichment
76. A contract exists between Claimants and
Respondents governing the relationship between the
parties with respect to the claims alleged.
Single Business Enterprise/Alter Ego
77. The evidence overwhelmingly shows that AVIC
HQ, AVIC International, AVIC IRE, AVIC TED, and
Ascendant operated as one entity with respect to the
MOU, SWE Agreement, and the Chicago Agreement.
AVIC HQ exercised such complete control over
the other entity Respondents in this case the AVIC
Respondents operate as one entity.
78. The Organization Department of the central
Chinese Communist Party (“CCP”) appoints the top
management of AVIC HQ. Among the AVIC Respondents, it is undisputed that officers of parent companies
frequently serve as officers and/or directors of subordinate units. By virtue of its controlling interest in its
subsidiaries, AVIC HQ appoints its own managers
to key positions in the subsidiaries, including the
Chairman and members of the Board of Directors and
the Board of Supervisors to insure compliance with
its directives. The leadership of AVIC HQ has its
own personnel department that makes the personnel
appointments for its subsidiary units. Lin Zuoming,
the Chairman of AVIC HQ, is also a member of the
Central Committee of the CCP.
79. All of China’s state-run aviation industry
operates under the direction of AVIC HQ, which sits
at the top of a pyramid of subsidiary companies. AVIC
HQ is one of 112 companies owned by the Chinese
government through the State Asset Supervision and
Administration Commission (“SASAC”).

146a
80. SASAC represents the Chinese government in
overseeing the management of assets, personnel and
operations of State Owned Entities (SOEs), like AVIC
HQ and its subsidiaries. SOE leaders are treated like
government officials. AVIC HQ previously argued to
the Sixth Circuit that it is a part of the Chinese
Government.10 AVIC HQ follows the policy guidance
from an organization called the State Administration
for Science Technology Industry for National Defense
(SASTIND). In 2007, SASTIND directed AVIC to get
involved in alternative energy including wind power.
In response, AVIC HQ established a project group
designed to take responsibility for wind power
development and Xu Hang was the head of that group.
Lin Zuoming, the CEO of AVIC HQ, also stated that
the resources of the entire AVIC group would be
employed to develop wind power.
81. The MOU came about as a direct result of AVIC
HQ’s desire to compete in the wind power industry as
directed by SASTIND. Although the MOU was facially
an agreement between Tang and CATIC USA, the
agreement also proposed that CATIC receive an equity
10

Global Tech. Inc. v. Yubei (Xinxiang) Power Steering Sys.
Co., 2015 U.S. App. LEXIS 21147, *8-9 (6th Cir. 2015) (“The
People’s Republic of China (“PRC”) owns AVIC. The company has
a business license for both military products and “general business items,” including automobile parts. AVIC’s business license
shows a stamp of the official seal of the State Administration for
Industry and Commerce of the People’s Republic of China, and
the license states that AVIC is “Owned by the Whole People.”
AVIC is a Fortune 500 company, with over 400,000 employees
and $23 billion in annual revenue, directly owned by China’s
State Council (the chief administrative authority of the Chinese
central government). The State Council’s State-Owned Assets
Supervision and Administration Commission supervises and manages the state-owned assets of enterprises like AVIC.”)

147a
interest in the new company. A CATIC officer signed
the MOU. CATIC USA had no experience in the wind
power business at the time the MOU was signed and
it did not have the financial ability to fund wind power
development projects except through its parent
company or companies.
82. The SWE Agreement was a continuation of
AVIC HQ’s directive from SASTIND. The original idea
for SWE came from Tang and CATIC TED or AVIC
HQ were the AVIC entities indicating a desire to be
part of the business. Further, the MOU states that
SWE would be the exclusive vehicle for Tang and
CATIC in the wind power industry. When AVIC USA
signed the SWE Agreement, it was doing so on orders
from AVIC HQ.
83. AVIC HQ has a finance section, it has an
accounting section, it has an audit section, but it has
no sales or products of its own. AVIC HQ uses these
sections to govern the access to resources of its
subsidiaries and its subsidiaries of subsidiaries by
determining how much the subsidiaries can retain of
their funds, by assisting them with access to credit
from state-owned banks and by distributing quotas for
bond and equity money raising. For instance, Xu Hang
testified to the effect that AVIC International used
money from AVIC TED to capitalize AVIC IRE. Prof.
deLisle, AVIC USA’s expert, indicated that AVIC
HQ—which all parties agree engages in no commercial
activity independent of its subordinate units—has
“powerful design, research and development, and
product manufacturing abilities.”
84. AVIC HQ’s subsidiaries readily acknowledge
that they are controlled by AVIC HQ. AVIC
International’s shareholder introduction states that it
is controlled by AVIC HQ. AVIC IRE’s web site

148a
describes itself as a unit directly subordinate to AVIC
HQ. For further example, Sherman Zhang, AVIC
USA’s president, stated, “. . . we have a division in
charge of International Affair[s] . . . AVIC has an
international affairs division,” which he suggested
might assist Tang in resolving its complaints. Xu
Hang, stated AVIC USA was responsible for the
networks of AVIC Group and who described AVIC
USA on March 25, 2015, as “just really an office” from
which Sherman tries to support “the entire group . . .
AVIC group,” providing “information or support or
assistance . . . for anything they want.” Sherman
Zhang acted as a spokesman of AVIC Group and
commented publicly on Cirrus Aircraft sales trends,
the merits of AVIC IHC’s corporate acquisitions, and
held himself out as a representative of AVIC Group
generally. AVIC HQ owns a controlling interest in
AVIC International, which in turn owns 100% of AVIC
IRE. AVIC IRE, in turn, owns 100% of Ascendant.
85. AVIC HQ capitalizes its subsidiaries and directs
the transfer of assets, including securities and cash,
from one subsidiary to another and from subsidiaries
to AVIC HQ itself. Prof. deLisle noted that “the way
that group companies of this type generally operate
where funding/financing is provided from higher levels
to lower levels. And in some of these entities the
financial side in the sense of the providing of capital
for projects by lower-level entities is subject to a
degree of central control.” He also testified that “[i]t’s
a special set of rules for state-owned assets. And there
are limits to the degree to which entities subject to the
state-owned assets, regulations, and laws can acquire
or dispose of property and assets outside of China. So
there are limits. They do not even . . . have complete
authority to do exactly as they wish with all of their
[own] property.” Prof. Naughton and Col. Stokes

149a
testified that one particular AVIC entity oversees the
financing of the subordinate units, and that this fact
is acknowledged in credit rating letters from Moody’s
and Fitch. SASAC must approve all joint venture
investments made by AVIC subsidiaries overseas.
AVIC HQ assigns employees to specific subsidiaries
with no input from the subsidiary to which the
employee is assigned, and transfers employees from
one subsidiary to another without consulting the
employee or the subsidiary. At any given time,
multiple employees will have multiple roles with
different subsidiaries simultaneously. For example,
CAIGA admits that it operates “under the strategic
guidance of AVIC,” and that it owner-controlled by
AVIC HQ as its majority shareholder, and its
Chairman, Qu Jingwen, is a career AVIC employee
and was concurrently the chairman of AVIC Harbin
Aircraft Industry Group, another AVIC HQ
subsidiary. As another example, Peng Bo sent emails
as a Deputy Director for both AVIC IRE and
Ascendant. Thompson states that Tiger Lu was an
Ascendant employee but was never on Ascendant’s
payroll and AVIC IRE employees were assigned to
Ascendant. Xu Hang stated that Sherman Zhang, the
President of AVIC USA, is paid by AVIC
International.
86. Xu Hang stated in an interview that he was the
head of a “project group [ ] set up specifically by AVIC
Group HQ to take responsibility solely for
development of the wind power sector.”
87. AVIC HQ’s CEO at the time, now Chairman of
AVIC HQ (Lin Zuoming), was quoted: “[D]evelopment
of non-aviation civilian products is a strategic
[decision] for the scientific development of AVIC
Group, and wind power will be a focal point for the

150a
Group’s future development. There are many
commonalities between aviation and wind power
technologies, . . . developing wind power sector will
draw on all the capabilities of AVIC in order to
maintain the development of the entire value chain.”
88. Employees of AVIC subsidiaries
themselves as agents of the AVIC Group.

present

89. AVIC HQ maintains clear ownership control
over its subsidiaries, even when it allows other entities
to own non-controlling interests. Even in situations
where it does not own a controlling interest on its own,
AVIC HQ uses subsidiaries to maintain control. As an
example, AVIC HQ unilaterally decided that it should
own a 25% interest in HT Blade. To make room for
AVIC HQ’s interest, its subsidiary shareholders,
Baoding Huiyang Aviation Propeller Factory and
China Aviation Industry Gas Turbine Power (Group)
Company, simply relinquished the necessary percentage of their own interests without consideration.
Subsequently, even though AVIC HQ was only a 25%
owner, it appointed the Chairman of the Board of
Directors for HT Blade. AVIC HQ caused HT Blade to
pay Baoding Huiyang Aviation Propeller Co., Ltd. (an
AVIC subsidiary) $8 million from HT Blade’s account
without the consent or approval of the shareholders of
HT Blade so that Huiyang could meet its payroll.
90. AVIC HQ charges a “service coordination fee”
from HT Blade and from its other subsidiaries without
any legal basis for doing so, without an agreement
authorizing the fee and without offering any consideration in exchange for the fee.
91. AVIC HQ, AVIC International, or AVIC IRE
made all the hiring and firing decisions for AVIC IRE’s
subsidiary Ascendant. AVIC HQ, AVIC International

151a
or AVIC IRE presented Thompson, the President of
Ascendant, with a business plan for Ascendant and
instructed him to sign it. Thompson stated that
he recalled Xu Hang saying that “big AVIC” would
decide what opportunities identified by Sherman
Zhang would go to which AVIC entity. According to
Thompson, “some entity at the very top of the chain
decides where they go—or who takes advantage,” and
Cirrus Aircraft was an example of that. Thompson
indicated that he was “waiting around for months”
until the [Chinese] government approved the funding
of Ascendant. During that time, AVIC International
provided Ascendant with U.S. dollars from an AVIC
entity in Hong Kong. Xu Hang of AVIC IRE informed
Thompson that Mr. Peng and Mr. Lu would work for
Ascendant in project development without Thompson’s
input.
92. Thompson testified in his deposition that AVIC
IRE loaned Ascendant $800,000, and that Ascendant
was only able to repay AVIC IRE when AVIC IRE
bought stock from Ascendant for $1 million. The
“leaders” of AVIC IRE decided that Ascendant had to
loan AVIC Energy Cambodia $250,000.00 and dictated
the terms of the loan for Thompson to include in a
resolution from Ascendant. Thompson stated that
Ascendant’s loan to AVIC Cambodia was a bridge until
the “Chinese government” approved funding for that
enterprise. On a temporary basis, therefore, AVIC
IRE financed AVIC Cambodia using the money in
Ascendant’s account.
93. Baoying Wang, the President of AVIC IRE,
directed Thompson as the President of Ascendant to
accelerate the registration of AVIC International
Canada Enterprises, Inc. so that AVIC IRE could
capture a portion of the Canadian market even though

152a
the Canadian enterprise was supposed to be a
subsidiary of Ascendant. Xu Hang on behalf of AVIC
IRE directed Thompson of Ascendant to pay for the
attendance of AVIC IRE employees to Canada’s Wind
Energy Association meeting because “AVIC Canada”
had no funds. CX 303. Xu Hang also directed
Thompson to sign documents transferring Ascendant’s
shares in AVIC International Canada Enterprises,
Inc. to AVIC International without any compensation
to Ascendant.
94. Thompson received a bonus in 2012 of $50,000
even though Ascendant’s profits for that year
were approximately $5,700. Thompson’s employment
agreement defined “AVIC” to include “any proprietorship, partnership, limited liability company, or corporation controlled directly or indirectly by it.”
95. With regard to SWE, it was directed by both
AVIC USA and AVIC International to present
proposals for projects under the agreement to Xu Hang
at AVIC International rather than Sherman Zhang at
AVIC USA. Sherman Zhang stated that a non-specific
“team” that includes people in China who are not
employees of AVIC USA, who would support AVIC
USA and Soaring Wind in carrying out the SWE
Agreement. AVIC USA could not agree to finance any
SWE projects because its capital was inadequate.
Jenevein testified that Sherman Zhang agreed that
$700,000 in capital set aside for SWE would never be
enough to finance the development of a wind farm.
AVIC USA (through SWE) could engage in no wind
energy business without the approval of AVIC
International, AVIC TED, and later AVIC IRE.
96. Ascendant could do no work without the
approval of AVIC IRE. By way of example, Ascendant
could not sign a contract with WindTex, a Texas

153a
company controlled by Mr. DeWolf, unless both
Thompson and DeWolf travel from Texas to Beijing for
the signing.
97. Among the AVIC Respondents, the parents
sometimes pay the salaries and expenses of the
subordinate units.
98. Further, the timing of events demonstrates the
control AVIC HQ wielded over its subsidiaries
particularly with regard to the dispute before the
panel. In 2007, SASTIND directed AVIC HQ to get
involved in alternative energy including wind power.
In response, AVIC HQ established a project group
designed to take responsibility for wind power development and Xu Hang was the head of that group. As a
result, CATIC TED and Tang entered into the MOU.
Mr. Rongchun was Vice President of CATIC TED and
held no position with AVIC USA. The MOU led to the
SWE Agreement signed by CATIC USA and Tang.
Shortly thereafter, or about the same time, AVIC HQ
began its reorganization. As part of that reorganization, Wu Guangchuan was named the Chairman of
AVIC International. Sherman Zhang stated it succinctly: “when leadership change[s], management
change[s],” and “the new leaders don’t care about the
commitments” their predecessors made to their partners. In an apparent shift in strategy, AVIC
International created AVIC IRE in 2010. AVIC IRE
was created “according to the strategy of AVIC [HQ] to
vigorously develop the renewable energy industry.”
Liu Rongchun, the individual who signed the MOU
with Tang, became the founding chairman of AVIC
IRE, and was given the mission to explore renewable
energy projects throughout the world. AVIC IRE
decided to do this without the participation of SWE. In
2011, AVIC IRE created Ascendant to compete with

154a
SWE in the wind energy arena. After AVIC HQ set the
strategic goal and AVIC International created AVIC
IRE and set its mission, AVIC USA and AVIC TED no
longer had authority from AVIC HQ to engage in wind
power development on behalf of AVIC. AVIC HQ used
it subsidiaries and its control over its subsidiaries to
commit a fraud and work an injustice on Claimants.
AVIC HQ dominated its subsidiaries in the transactions at issue in this case, namely, directing the
establishment of SWE and the subsequent establishment of a new subsidiary (and its Texas-based subsidiary Ascendant) intended to compete directly and
effectively against SWE. AVIC HQ and its wholly
owned subsidiaries created additional subsidiaries in
an attempt to get around its promises made in the
SWE Agreement to Claimants.
Damages
99. The Members of SWE bargained for the mutual
and exclusive worldwide marketing of wind energy
equipment, services and materials related to wind
energy including the development of wind farms.
100. By November 3, 2013, AVIC IRE, by its own
admission, had invested $50 million in wind power
projects in the United States. The evidence establishes
that AVIC IRE and/or Ascendant and/or single asset
entities created by those entities developed the Ralls
Wind Farm, and Cirrus Wind I. In addition, AVIC
IRE’s web site details a 1.5 megawatt turbine project
in Minnesota, 10 sets of 1 megawatt turbines in
Lubbock, Texas, and a 1 megawatt turbine in Tooele,
Utah. Independent evidence is lacking as to whether
the individually identified wind projects are part of the
$50 USD million investment by AVIC IRE in wind
power projects in the United States.

155a
101. In addition to the United States, AVIC IRE
reported on its web site that it developed wind power
projects in Bulgaria, Mongolia, Romania, New
Zealand, Australia, Canada, Brazil, Chile, and South
Africa.
102. Other than identifying a project in 2012 in
Bulgaria named “Somovit,” describing an installed
capacity of 4.5 megawatts, AVIC IRE’s web site’s
reference to wind projects in countries other than the
United States does not set forth any specifics. Further,
Claimants were unable to present evidence of specific
wind power projects undertaken by AVIC IRE outside
of the United States other than the Bulgaria project.
103. AVIC IRE considered 15% to be its minimum
anticipated return on investment before it would
undertake any given project if financing is the sole
measure of profitability. AVIC IRE would not finance
a wind power project unless it anticipated a 15%
return on its investment.
104. 9.25%, determined based upon the Buildup
Method, is an appropriate discount rate for AVIC
IRE’s $50 USD million investment in wind power
projects in the United States to calculate the present
value of future damages. In addition, the Buildup
Method for determining an appropriate discount rate
is generally accepted and recognized methodology for
determining the discount rate to be applied.
105. The lifespan of wind farm development
projects that come to fruition is anywhere from 25 to
30 years. Although the lifespan of wind farms is
anywhere from 25 to 30 years, there is very little
evidence in the record as to the time that investors
maintain their equity position in any given wind farm
development.

156a
106. The present value of cumulative potential
return on $50 USD million in capital investment using
the 15% minimum return on investment and a
discount rate of 9.25%, after deducting the initial $50
USD million investment, is $62.9 USD million after 10
years, $94.7 USD million after 15 years, $131 USD
million after 20 years, and $174.8 USD million after
25 years. The present value of the return on the $50
USD million investment is what Claimants bargained
for and only an award of some amount of these lost
profits will put Claimants in the same position they
would have occupied had the SWE Agreement not
been breached by AVIC USA and its Affiliates.
107. Claimants contend that they expended significant capital in reliance on the promises made by
AVIC USA in the SWE Agreement. A portion of the
reliance damages sought by Claimants relates to the
Flat Water and Corpus Christi projects. The evidence
shows that Claimants presented those projects to
AVIC USA and AVIC USA, either directly or through
non-action, chose not to participate in those projects.
If Claimants chose to pursue those projects further,
they did so on their own because the SWE Agreement
did not require AVIC USA to participate in particular
projects. In addition, in terms of the operating
expenses allegedly funded by the Claimants for the
benefit of SWE, Claimants failed to show the
allocation of those expenses and whether Claimants
would have incurred those expenses absent the
existence of the SWE Agreement.
108. Section 9.1 of the SWE Agreement provides in
part that “[1]f a Member is in Default, the other
Members and the Company shall have all rights and
remedies available at law and in equity with respect
to such breach, including the remedies of specific

157a
performance and injunctive relief.” AVIC USA’s
breaches of the SWE Agreement constitute a default
of the agreement making it no longer reasonably
practicable for the Members to carry on the business
of SWE in conformity with the SWE Agreement.
109. The lost profits set forth in this award are
due to SWE for distribution to the Claimants through
their percentages set forth in the SWE Agreement.
However, in order to prevent AVIC USA and
Thompson from profiting from their breaches of the
SWE Agreement, they should be prohibited from
receiving any profit from any award to SWE. This is
true with respect to Thomson even though we are not
ordering him to pay any damages. On the other hand,
AVIC USA contributed $350,000.00 USD as an
initial capital contribution to SWE. Thompson made
no capital contribution to SWE. AVIC USA and
Thompson’s equity interest in SWE should be
divested, but AVIC USA should receive a credit for its
capital contribution to SWE.
Attorney’s Fees and Arbitration Expenses
110. Paragraph 13.4 of the SWE Agreement provides that the prevailing Members in any arbitration
or litigation are entitled to recover “all court costs, fees
and expenses of such arbitration (or litigation),
including reasonable attorneys' fees.”
111. Claimants are the prevailing Members in this
arbitration.
112. The administrative fees of the AAA/ICDR
amount to $85,800.00 USD. The arbitrator compensation totals $900,893.85 USD. Claimants have incurred
a total of $897,730.72 USD for fees paid directly to the
AAA/ICDR for administrative fees and arbitrator
compensation.

158a
113. Tang paid or agreed to pay the reasonable
attorney’s fees and expenses of the other Claimants.
For all Claimants, Tang has incurred a total of
$3,719,533.23 USD in reasonable attorneys’ fees and
expenses as of the issuance of this Final Award.
114. In the event Claimants are required to obtain
a judgment confirming this Final Award and effect
service on multiple defendants through the Hague
Convention, we find Claimants will reasonably incur a
total of another $1,200,000.00 USD in legal fees and
expenses.
115. In the event Claimants are required to collect
a judgment, we find Claimants will reasonably incur a
total of another $500,000.00 USD in legal fees and
expenses.
116. In the event Claimants are required to
successfully prosecute or defend against an appeal of
the District Court’s judgment to the Fifth Circuit or
any other circuit court of appeals, we find Claimants
will reasonably incur a total of another $250,000.00
USD in legal fees and expenses for that appeal. In the
event Claimants are required to prosecute or defend
against a petition for review to the United States
Supreme Court, Claimants will reasonably incur a
total of $50,000.00 USD in legal fees and expenses. In
the event the United States Supreme Court grants
review of any appeal, we find that Claimants will
reasonably incur an additional $150,000.00 USD in
legal fees and expenses.
117. In addition, Tang has incurred additional
expenses directly related to this arbitration in the
amount of $1,875,264.71 USD, including without limitation, experts’ fees and expenses, all costs associated

159a
with depositions, mediation, arranging facilities,
graphics, and trial consultation.
118. We find that AVIC USA and Thompson are not
prevailing Members under the SWE Agreement and
that no factual circumstances exists which would
compel the panel to award them attorney’s fees or
expenses.
Jurisdiction and Composition of the Panel
119. The Members of SWE agreed that “any
controversy, dispute, or claim arising under or related
to this Agreement (whether arising in contract, tort or
otherwise, and whether arising at law or in equity),
including (a) any dispute regarding the construction,
interpretation, performance, validity or enforceability
of any provision of this Agreement, and (b) the
applicability of this Article XIII to a particular
dispute” would be submitted to binding arbitration.
All of the claims raised by all of the parties in this
arbitration come within the scope of this agreed
arbitration provision.
120. Claimants sent notice of its claims to
Respondents on May 14, 2014, describing the matters
in dispute between Claimants and AVIC USA and its
affiliates. The notice complied with section 13.2 of the
SWE Agreement insofar as Claimants’ allegations
against all Respondents other than Thompson.
121. Claimants notice failed to describe the “matter
in dispute” with regard to Thompson. Although the
notice letter complained of “AVIC’s” hiring of
Thompson, a member of SWE, it failed to set forth
complaints about Thompson’s actions as opposed to
AVIC’s actions.

160a
122. Claimants initiated this arbitration on June
13, 2014, by filing the Demand with the AAA/ICDR.
123. The Members of SWE agreed to arbitrate the
disputes before the panel in accordance with the AAA
Commercial Arbitration Rules.
124. The Members appointed the arbitrators in
accordance with the terms of the SWE Agreement and
AAA Commercial Arbitration Rules without a lapse in
that process.
125. The composition of the panel is in accord with
the SWE Agreement.”
126. The Members agreed that the arbitrators
would have the power to rule on panel’s jurisdiction,
including the arbitrability of any claim or defense by
incorporating Section R-7 of the AAA Commercial
Arbitration Rules.
127. The Non-Signatories were properly served
with the Arbitration Demand in this matter and have
had due notice of all proceedings before the panel.
Despite this, the Non-Signatories chose to not participate directly. It is clear to the panel that the NonSignatories participated in some respects in this
arbitration through its subsidiary AVIC USA and
to an extent through Thompson. AVIC USA and
Thompson claimed in response to many discovery
requests by Claimants that they did not have possession, custody or control over documents and witnesses
relevant to these proceedings. Despite these claims,
Ms. Wu Lili, the current President of AVIC IRE, wrote
a letter responding to certain questions presented to
her by counsel for Thompson. In addition, Xu Hang,
Vice President of AVIC IRE, testified “voluntarily”
when asked by Thompson after Claimant’s served
their damage report in May of 2015. Prior to that time,

161a
Claimants sought to depose Xu Hang without success.
At his deposition, Xu Hang claimed he was represented in the deposition by Thompson’s counsel and
refused to testify, on counsel’s advice, whether he was
aware that Claimants sought his deposition. Even so,
Xu Hang admitted that his attorney’s fees for his
voluntary deposition where being paid by AVIC IRE.
In addition, 11 Xu Hang made himself available to
speak with AVIC USA’s damages expert who testified
at the hearing.
128. Further, the Non-Signatories refusal to produce documents in this case to Claimants is in
contravention of Orders from the panel. Section R-23
of the AAA Commercial Arbitration permits the panel,
in an effort to achieve a fair, efficient and economical
resolution of the case, in the case of willful noncompliance with any order issued by the panel, to draw
adverse inferences, exclude evidence and other
submissions, and/or make special allocations of costs
or an interim award of costs arising from such noncompliance. In addition, the SWE Agreement, section
13.3 (f), permits the panel to consider discovery noncompliance into account in reaching a decision. In a
typical case, Claimants would be able to discover the
factual basis for its claims that Respondents breached
the agreement by entering into X agreement, or
financing Y wind project, or making Z equity investment. Respondents’ refusal to participate in discovery,
except when Respondents felt it was to their benefit,
prevented Claimants from getting the information to
11

Although not binding in a “law of the case” sense, the panel
notes that its reading of the SWE Agreement with respect to the
appointment of arbitrators is consistent with the opinion of Judge
Kinkeade in 3:14-cv-2815 and a panel of the Fifth Circuit, 1510190.

162a
prove X, Y, and/or Z. As a result, the panel has opted
to infer that Xu Hang’s statement in CX 330 that AVIC
International has invested $50 USD million in wind
power projects in the United States is accurate
without any additional evidence.
Defenses
Limitations
129. Claimants did not discover facts constituting
the basis of their claims in this case sufficient to put a
person of ordinary intelligence and prudence on
inquiry prior to May 14, 2011.
130. The facts constituting the basis of Claimant’s
causes of action were concealed by Respondents and
were not inherently discoverable by Claimants.
Standing
131. To the extent AVIC USA contends that SWE is
not a proper party to this arbitration, the panel
determines that SWE is a proper Claimant. The
management committee of SWE took action in accordance with article VI of the SWE Agreement authorizing SWE’s claims.
Estoppel, Unclean Hands, Forgery, Waiver, Latches,
Duress, Forgery
132. Tang offered the Members investment in Tang
wind farm development projects known as Flat Water
and Corpus Christi. AVIC USA chose not to participate in those projects through its silence when the
opportunity was presented.
133. Respondents failed to present any evidence
that Claimants intentionally waived a known right to
proceed against Respondents.

163a
134. Respondents failed to present any evidence
that any Claimant executed a written waiver of any
part of the SWE Agreement as required by section
17.12 of the Agreement.
135. Respondents failed to present any evidence
that Claimants unreasonably delayed asserting their
claims, or that Respondents changed their course of
action in a detrimental way in reliance on Claimants’
delays in action.
136. Respondents failed to present any evidence
that any Respondent signed the SWE Agreement
against his or her will.
137. The limitations on conducting the business of
SWE placed upon Members of SWE are not
restrictions on former employees of SWE in their
professional mobility and do not restrict former
employees from soliciting SWE’s customers. Sections
6.10, 6.11, and 6.12 by their terms relate to Members
and their Representatives and Affiliates. As a result,
the provisions are not covenants not to compete.
Counterclaims
138. AVIC USA contends that Tang breached the
SWE Agreement by continuing to receive distributions
related to its equity investment in HT Blade. HT Blade
was created in 2001, and was an impetus for the
parties to create SWE. Tang Energy Hong Kong is the
owner of the 25% interest in HT Blade. As a result, the
claim could only be made that Tang violated the
agreement through an affiliate. However, the same
would be true for AVIC because AVIC HQ and two of
its subsidiaries also hold interests in HT Blade. If the
parties to the SWE Agreement intended for their
investments in HT Blade to be part of the pooling of

164a
interest reflected in the SWE Agreement, they would
have explicitly said so.
139. AVIC USA is not a prevailing party under the
SWE Agreement.
140. Thompson is not a prevailing party under the
SWE Agreement.
CONCLUSIONS OF LAW
1. Article XIII of the SWE Agreement is unambiguous and may be construed as a matter of law.
2. Article XIII of the SWE Agreement relevant to
this arbitration is not fairly susceptible to different
interpretations.
3. The arbitration panel is composed in the manner
provided by the unambiguous agreement of the parties
as set forth in Article XIII of the SWE Agreement.
4. The arbitration panel has the power to decide the
disputes raised in this arbitration by virtue of Article
XIII of the SWE Agreement.
5. The SWE Members clearly and unmistakably
empowered this panel to determine whether this
arbitration involves a controversy, dispute, or claim
arising under or related to the SWE Agreement
(whether arising in contract, tort or otherwise, and
whether arising at law or in equity), including any
dispute regarding the construction, interpretation,
performance, validity or enforceability of any provision of the SWE Agreement
6. Extrinsic evidence may not be used to interpret
the intent of the parties or vary the terms of an
unambiguous provision of a contract. Eagle Industries
v. DeVilbiss Health Care, 702 A.2d 1228, 1232 (Del.
1997).

165a
7. A contract is not ambiguous simply because the
parties disagree concerning its intended construction.
Eagle Industries v. DeVilbiss Health Care, 702 A.2d
1228, 1232 n. 8 (Del. 1997).
8. The “Business” of Soaring Wind as set forth in
paragraph 2.3 of the SWE Agreement is unambiguous
and may be construed as a matter of law. The definition of the “Business” of SWE is worldwide marketing
of wind energy equipment, services and materials
related to wind energy and includes development of
wind farms.
9. The MOU is a preliminary agreement to agree
between CATIC T.E.D. and Tang. See AVIC USA HRG
EXH 169; See, e.g., Aveta Inc. v. Bengoa, 986 A.2d
1166, 1186 (Del. Ch. 2009) (agreement lacking material terms is unenforceable); Tractebel Energy
Marketing, Inc. v. AEP Power Marketing, Inc., 487
F.3d 89, 95 (2d Cir. 2007) (“[A] mere agreement to
agree, in which a material term is left for future
negotiations, is unenforceable.”). “[O]ne of the central
tenets of contract law is that a contract must be
reasonably definite in its terms to be enforceable.”
Scarborough v. State, 945 A.2d 1103, 1112 (Del. 2008).
10. Delaware’s three-year statute of limitations
applies to all Claimants’ causes of action against
Thompson and AVIC USA.
11. The parol evidence rule bars “evidence of additional terms to a written contract, when that contract
is a complete integration of the agreement of the
parties.”
12. The SWE Agreement is an integrated agreement.

166a
13. The determination of whether one entity is the
alter ego of another under federal common law
requires a finding that (1) the non-signatory exercised
complete control over the signatory with respect to the
transaction at issue, and (2) such control was used to
commit a fraud or wrong that injured the claimants.
Bridas S.A.P.I.C. v. Gov’t of Turkmenistan, 345 F.3d
347, 359 (5th Cir. 2003) (Bridas l). The elements of
alter ego under Delaware law is substantially the
same as the elements under federal common law.
14. This panel concludes (1) that AVIC HQ used
related entities in the form of its subsidiaries and their
subsidiaries to pursue its interests in renewable
energy for the benefit of itself and those related
entities, and (2) that it would be unjust to require
Claimants to treat them other than as one entity; and
we conclude that AVIC HQ, AVIC International, AVIC
IRE, AVIC TED, CAIGA, and Ascendant are the alter
egos of AVIC USA with respect to the SWE Agreement. In this case, we conclude that AVIC IRE was
bound by the agreements of AVIC IHC and AVIC USA,
and it follows that AVIC USA and AVIC IHC and
AVIC HQ are liable for any conduct of AVIC IRE (or
any other AVIC affiliate) that breached those agreements.
15. The panel concludes that (1) AVIC HQ exercises
such complete dominion and control over the other
AVIC Respondents that they all operate as a single
economic entity, and (2) AVIC HQ used its control over
its subsidiaries to commit a fraud or injustice against
Claimants, and there was an overall element of
injustice that injured Claimants.
16. We further conclude that based on AVIC HQ’s
role in its subsidiaries’ conduct, the local, relevant
activities of CAIGA, AVIC IHC, AVIC USA, CATIC

167a
TED, AVIC IRE and Ascendant, including the execution of the MOU, the SWE Agreement, and the
Chicago Agreement, as well as all of AVIC IRE’s and
Ascendant’s activities in the wind farm development
business are properly attributed to AVIC HQ and to
its affiliates because they are the same legal entity.
17. The panel concludes that AVIC HQ and the
other Non-Signatories are properly before this Panel
on theories of alter ego, attribution and merger, and
that they all may be charged with the obligations of
AVIC USA, including the obligation to arbitrate
pursuant to Article XIII of the SWE Agreement.
18. As a result of the panel’s determination that the
Non-Signatories are alter egos of AVIC USA, we
conclude that the merger clause of the SWE
Agreement supersedes the MOU. As a result, we
conclude that no damages are warranted based upon
the MOU.
19. We conclude that all Respondents, other than
Thompson, are liable for damages for the breach of the
SWE Agreement. As a result of Respondents engaging
in “Business” activities in violation of the Soaring
Wind Agreement, Claimants are entitled to damages
as well as disgorgement of Respondents profit interest
in SWE.
20. We conclude that while Thompson breached the
SWE Agreement, Claimants failed to give him notice
of their claims in that regard which is a condition
precedent to liability under section 13.2 of the SWE
Agreement.
21. We conclude that the Chicago Agreement is
preliminary agreement to agree between CATIC
T.E.D. and Tang and therefore unenforceable as a
breach of contract.

168a
22. We conclude that Respondents are not liable to
Claimants for theft of trade secrets.
23. We conclude that Respondents did not tortuously interfere with Claimants’ prospective contractual relations with Wind Tex Energy related to the
Cirrus Wind Project.
24. We conclude that the SWE Agreement
specifically disclaims the existence of a fiduciary duty
between the Members of SWE or the Members and
SWE. Therefore, we conclude that no fiduciary relationship existed between Claimants and Respondents.
25. We conclude that because a contract exists
which controls the relationship between Claimants
and Respondents; unjust enrichment is not available
as a remedy to Claimants.
26. We conclude that Claimants have stated a claim
entitling them to relief.
27. We conclude that Soaring Wind has properly
intervened to assert its own claims for damages
resulting from the conduct of Respondents. We
conclude the individual Claimants—the members of
Soaring Wind other than Thompson and AVIC USA—
have rightfully sought the divestiture of Thompson’s
and AVIC USA’s interests in Soaring Wind.
Accordingly, the defense fails.
28. We conclude that the evidence does not support
the defense of unclean hands.
29. We conclude that the evidence does not support
a defense of estoppel.
30. We conclude that Thompson agreed to all of the
material terms of the SWE Agreement and was a Class
B Member of SWE.

169a
31. We conclude that the evidence does not support
a defense of waiver.
32. We conclude that the evidence does not support
a defense of laches.
33. We conclude that the evidence does not support
a defense of duress.
34. We conclude that the contractual restrictions on
Members set forth in the SWE Agreement are not
covenants not to compete.
35. We conclude that the evidence does not support
AVIC USA’s counterclaim for breach of the SWE
Agreement.
36. We conclude that the evidence does not support
a counterclaim of unreasonable restriction on competition.
37. As a result of Respondent’s breach of the SWE
Agreement, we conclude that, in equity, the Soaring
Wind interests that belong to Thompson and AVIC
USA should be divested, and that AVIC USA should
have its initial capital investment of $350,000.00 USD
offset against the award against Respondents.
38. We conclude that SWE is the owner of the
claims asserted by Claimants against Respondents for
breach of the SWE Agreement.
39. We conclude that the claims for equitable
divesture of Thompson’s and AVIC USA’s interests in
Soaring Wind belong to Tang, JFI, Nolan, Carter and
Young in proportion to their ownership interests in
SWE.
40. We conclude that all Respondents other than
Thompson are jointly and severally liable to SWE in

170a
the amount of $62.9 USD million for breach of the
SWE Agreement.
41. We conclude that all Respondents other than
Thompson, who shall bear its own administrative fees
and arbitrator compensation incurred, are jointly and
severally liable to Claimants for $897,730.72 USD for
fees paid directly to the AAA/ICDR for administrative
fees and arbitrator compensation; $3,719,533.23 USD
in reasonable attorneys’ fees and expenses as of the
issuance of this Final Award; $1,200,000.00 USD in
legal fees and expenses Claimants will reasonably
incur in the event Claimants are required to obtain a
judgment confirming this Final Award and effect
service on multiple defendants through the Hague
Convention; $500,000.00 USD in legal fees and
expenses in the event Claimants are required to
attempt collection of this award; $250,000.00 USD in
legal fees and expenses in the event Claimants are
successful in any appeal of a District Court’s judgment
confirming this award; $50,000.00 USD in legal fees
and expenses in the event Claimants are required to
respond to a petition for writ of certiorari to the United
States Supreme Court; $150,000.00 USD in legal fees
and expenses in the event the United States Supreme
Court grants review and Claimants are successful;
and $1,875,264.71, USD for Tang’s arbitration
expenses including without limitation, experts’ fees
and expenses, all costs associated with depositions,
mediation, arranging facilities, graphics, and trial
consultation.
THEREFORE, the PANEL hereby makes an award
as follows:
1. SOARING WIND ENERGY, LLC is awarded its
damages against all Respondents, other than Paul
Thompson, jointly and severally, in the total amount

171a
of $62,900,000.00, USD, less AVIC USA’s capital
contribution in SWE, plus post judgment interest at
the rate of 5% per year, beginning from the date of this
Award.
2. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $897,730.72 USD for fees paid directly to the
AAA/ICDR for administrative fees and arbitrator compensation. Thompson shall bear its costs as incurred.
3. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $3,719,533.23 USD in reasonable attorneys’
fees and expenses as of the issuance of this Award.
4. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $1,200,000.00 USD in legal fees and
expenses Claimants will reasonably incur in the event
Claimants are required to obtain a judgment confirming this Final Award and effect service on multiple
defendants through the Hague Convention.
5. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $500,000.00 USD in legal fees and expenses
that Claimants will reasonably incur if they are
required to attempt collection of this award.
6. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $250,000.00 USD in legal fees and expenses
in the event Claimants are successful in any appeal of
a District Court’s judgment confirming this award.
7. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $50,000.00 USD in legal fees and expenses

172a
in the event Claimants are required to respond to a
petition for writ of certiorari to the United States
Supreme Court.
8. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $150,000.00 USD in legal fees and expenses
in the event the United States Supreme Court grants
review and Claimants are successful.
9. Tang Energy Group, Ltd., is awarded against
Respondents, other than Paul Thompson, jointly and
severally, $1,875,264.71, USD, for Tang’s arbitration
expenses including without limitation, experts’ fees
and expenses, all costs associated with depositions,
mediation, arranging facilities, graphics, and trial
consultation.
10. Thompson’s membership interest in SWE
divested and belongs to Tang, JFI, Nolan, Carter and
Young in proportion to their ownership interests in
SWE.
11. AVIC USA’s membership interest in SWE
divested and belongs to Tang, JFI, Nolan, Carter and
Young in proportion to their ownership interests in
SWE.
12. All relief requested and not granted in this Final
Award is denied.
We hereby certify that, for the purposes of Article I
of the New York Convention of 1958, on the
Recognition and Enforcement of Foreign Arbitral
Awards, this Final Award was made, as a majority
decision, in Dallas, Texas, U.S.A.

173a
SIGNED this 21st day of December, 2015.
I, Steven E. Aldous, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ Steven E. Aldous
Steven E. Aldous, Arbitrator
State of Texas

)
)
)

County of Dallas

On this 21st day of December 2015, before me
personally came and appeared
Steven E. Aldous, known to me to be the individual
described in and who executed the foregoing
instrument and he acknowledged to me that he
executed the same.
[STAMP]
Notary Public,
State of Texas
My Commission Expires
July 15, 2017

/s/ Sarah M. Irish
Notary Public within
and for the State of Texas
My Commission Expires:
7-15-17

I, John M. Marshall, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
John M. Marshall, Arbitrator
State of Texas
County of Dallas

)
)
)

174a
On this
day of
, 2015, before me
personally came and appeared John M. Marshall,
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
SIGNED this 21st day of December, 2015.
I, Steven E. Aldous, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Steven E. Aldous, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
2015,
before
me
personally came and appeared Steven E. Aldous,
known to me to e he individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
Notary Public within and for the State of Texas
My Commission Expires:
I, John M. Marshall, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ John M. Marshall
John M. Marshall, Arbitrator

State of Texas
County of Dallas

175a
)
)
)

On this 21st day of December 2015, before me
personally came and appeared John
M. Marshall, known to me to be the individual
described in and who executed the foregoing instrument and he acknowledged to me that he executed the
same.
[stamp]
JOSE J. DURAN
Notary Public
STATE OF TEXAS
My Comm. Exp. 05-07-17

Notary Public within
and for the State of Texas
My Commission
Expires: 05/07/17

I, William Toles, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ William Toles
William Toles, Arbitrator
State of Texas
County of Dallas

)
)
)

On this 21st day of December, 2015, before me
personally came and appeared William Toles, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.
LINDA S. HAMMON
Linda S. Hammon
Notary Public, State of Texas Notary Public for
My Commission Expires
the State of Texas
January 17, 2018

176a
I, Richard Capshaw, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Richard Capshaw, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared Richard Capshaw,
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
I, William Toles, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
William Toles, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared William Toles, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.

177a
Notary Public within and
for the State of Texas
My Commission Expires:
I, Richard Capshaw, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ Richard Capshaw
Richard Capshaw, Arbitrator
State of Texas
County of Dallas

)
)
)

On this 21st day of December, 2015, before me
personally came and appeared Richard Capshaw,
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
/s/ Anna B. Newton
Notary Public within and
for the State of Texas
My Commission Expires:
[STAMP]
ANNA B. NEWTON
MY COMMISSION EXPIRES
August 15, 2016
I, Gregory Shamoun, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ Gregory Shamoun
Gregory Shamoun, Arbitrator

State of Texas
County of Dallas

178a
)
)
)

On this 21 day of December, 2015, before me
personally came and appeared Gregory Shamoun,
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
[STAMP]
IRENE FLORES RIVERA
Notary Public,
State of Texas
My Commission Expires
October 31, 2018

/s/ Irene Flores Rivera
Notary Public within and
for the State of Texas
My Commission Expires:
10/31/2018

I, Joseph Byrne, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Joseph Byrne, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared Steven E. Aldous,
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
Notary public within
for the State of Texas
My Commission Expires:

and

179a
I, Gregory Shamoun, do hereby affirm upon my oath
as Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
Gregory Shamoun, Arbitrator
State of Texas
County of Dallas

)
)
)

On this
day of
, 2015, before me
personally came and appeared Gregory Shamoun,
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
Notary Public within and
for the State of Texas
My Commission Expires:
I, Joseph Byrne, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and
who executed this instrument, which is our Final
Award.
/s/ Joseph Byrne
Joseph Byrne, Arbitrator
State of Texas
County of Dallas

)
)
)

On this 21 day of December, 2015, before me
personally came and appeared Joseph Byrne, known
to me to be the individual described in and who
executed the foregoing instrument and he acknowledged to me that he executed the same.

180a
[STAMP]
/s/ Michael J. Aleman
MICHAEL J. ALEMAN Notary Public within and
Notary Public
for the State of Texas
STATE OF TEXAS
My Commission Expires:
My Comm. Exp. 03-07-16 3/7/16
The following arbitrators dissent to this Final
Award:
 Hon. Glen Ashworth
 Hon. Jeff Kaplan
 Hon. Mark Whittington

